<html>
<title> - HALLMARK/WESTLAND MEAT RECALL</title>
<body><pre>[Senate Hearing 110-693]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-693
 
                     HALLMARK/WESTLAND MEAT RECALL

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                   FEBRUARY 28, 2008--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE
44-333 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

     Subcommittee on Agriculture, Rural Development, Food and Drug 
                  Administration and Related Agencies

                     HERB KOHL, Wisconsin, Chairman
TOM HARKIN, Iowa                     ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          CHRISTOPHER S. BOND, Missouri
TIM JOHNSON, South Dakota            MITCH McCONNELL, Kentucky
BEN NELSON, Nebraska                 LARRY CRAIG, Idaho
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
ROBERT C. BYRD, West Virginia
  (ex officio)

                           Professional Staff

                             Galen Fountain
                        Jessica Arden Frederick
                             Dianne Preece
                             Dennis Kaplan
                      Fitzhugh Elder IV (Minority)
                        Stacy McBride (Minority)
                         Brad Fuller (Minority)

                         Administrative Support

                             Renan Snowden


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Herb Kohl...........................     1
Statement of Senator Robert F. Bennett...........................     3
Statement of Senator Ben Nelson..................................     4
Prepared Statement of Senator Ben Nelson.........................     5
Statement of Senator Byron L. Dorgan.............................     6
Prepared Statement of Senator Richard J. Durbin..................     7
Prepared Statement of Senator Tim Johnson........................     9
Statement of Hon. Ed Schafer, Secretary of Agriculture, 
  Department of Agriculture......................................    10
Al Almanza, Administrator, Food Safety and Inspection Service....    10
Kate Houston, Deputy Under Secretary, Food, Nutrition, and 
  Consumer Services..............................................    10
Dr. Ken Clayton, Associate Administrator, Agricultural Marketing 
  Service........................................................    10
Prepared Statement of Edward T. Schafer..........................    12
Prepared Statement of Senator Tom Harkin.........................    25
Statement of Wayne Pacelle, President and CEO, The Humane Society 
  of the United States...........................................    34
    Prepared Statement of........................................    37
Addenda..........................................................    41
Statement of J. Patrick Boyle, President, American Meat Institute    48
    Prepared Statement of........................................    50
Prepared Statement of Temple Grandin, Ph.D., Professor, Animal 
  Science, Colorado State University.............................    53
Numerical Objective Scoring......................................    54
Chino Meat Plant Drew Inland Humane Society Scrutiny Years Before 

  Video..........................................................    55
Inspectors Say Meat Safety is Threatened.........................    57
Prepared Statement of the Weston A. Price Foundation.............    58
Questions Submitted by Senator Herb Kohl.........................    67
Questions Submitted by Senator Tom Harkin........................    70
Downer rule......................................................    70
Food-borne Pathogens and Downer Cattle...........................    72
Inspectors.......................................................    72
Questions Submitted by Senator Byron L. Dorgan...................    73
Questions Submitted by Senator Dianne Feinstein..................    74
Questions Submitted by Senator Ben Nelson........................    75
Questions Submitted by Senator Robert F. Bennett.................    78

 
                     HALLMARK/WESTLAND MEAT RECALL

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2008

        U.S. Senate, Subcommittee on Agriculture, Rural 
            Development, Food and Drug Administration, and 
            Related Agencies, Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:06 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Herb Kohl (chairman) presiding.
    Present: Senators Kohl, Harkin, Dorgan, Nelson, Bennett, 
and Craig.


                 OPENING STATEMENT OF SENATOR HERB KOHL


    Senator Kohl. At this time we'd like to call this very 
important hearing to order.
    Earlier this month, the Westland/Hallmark Company of Chino, 
California recalled 143 million pounds of beef. This is the 
largest recall of its kind in our history. It was triggered by 
gruesome video images that shocked us all. These images exposed 
wholly unacceptable gaps in American meat inspection systems. 
These shortcomings were not brought to light by any agency 
charged with protecting food safety. They came to our attention 
through an independent third party. Americans, myself included, 
were appalled to see cattle too sick to stand, much less walk, 
being chained, dragged, fork lifted, kicked, jabbed, and then 
dumped into America's food supply.
    If that is not enough reason to pay attention, we have 30 
million more, and that's the number of children who participate 
in the national school lunch program. This plant was a major 
supplier to that school lunch program.
    In 2003, USDA reported the first case of mad cow disease in 
this country. USDA's immediate response was to ban downer 
cattle from the food supply. Last year, USDA did weaken that 
rule. And in the Hallmark/Westland case, there's evidence that 
even the weaker rule was being flaunted.
    By law, all cattle are subject to inspection prior to 
slaughter. Despite the presence of five inspectors at the 
Hallmark/Westland Plant, blatant violations had evidently 
occurred and for some time. This begs the question, how did 
this happen? And in the next breath, a logical question would 
ask, what violations are going unnoticed in other plants? Those 
are the core questions that we will explore today.
    Why was there a failure in FSIS inspection procedures? How 
do we know that there are not similar problems in other plants? 
What is the effect on the school lunch program and food safety 
in general? And what steps should be, and will be taken to 
correct these problems?
    No one wants another Hallmark/Westland situation anywhere 
in the country, cannot allow--we cannot allow a single downer 
cow to enter our food supply under any circumstances. We need 
to have tougher standards, around the clock surveillance, and 
stiffer penalties.
    Mr. Secretary, the American people don't want bureaucratic 
double-speak about the mess in Chino. They are watching and 
listening to this hearing, and they want to know what we're 
going to do to clean it up. They want to know what we can 
commit to today. They want a solid plan for the future. 
Something has to change, and if change doesn't come quickly, 
then we believe that some people should be thinking about new 
careers.
    We're particularly troubled by the implications that this 
has for the school lunch program. There is no room for error, 
especially when children are involved. What happens in the 
feedlot or the slaughter house ends up in school lunch rooms. 
As a starting point, Mr. Secretary, we want you to commit to 
something very specific, we want you to do an audit of every 
single plant, to make sure that they have language appropriate 
materials for their workers. We are only as good as the workers 
that we have at these plants. Plant workers must be properly 
trained so that there can be no confusion. We would like to 
have an audit of the plants who supply the USDA Nutrition 
Programs here, to this Committee, in 30 days or less.
    Next, we want to put three specific items on the table and 
discuss exactly where USDA stands on these items. Number one, 
is a strict, bright-line, downer ban. Number two is stiffer 
penalties for inhumane treatment of animals. And number three 
is the need for continuous surveillance of live animals. We 
need a more fool-proof system, allowing plant personnel to 
signal one another when a USDA inspector is on his way, is 
simply not tolerable. There is a saying that the camera never 
blinks. USDA inspectors must have the capability to know that 
violations are not occurring behind their backs. Camera 
monitors would go a long way towards accomplishing that.
    People need to understand this, while inspectors are always 
present in operating plants, there is no requirement that the 
live animals be continuously monitored for humane treatment or 
to determine downer status. It is interesting that one of the 
firsts step taken by Hallmark/Westland after they got caught, 
was to install live television monitors. In their case, it was 
a nice step, but one that came too late.
    You may need to do things for which additional statutory 
clarification or authority is required. We are prepared, 
hopefully with you cooperation, to make those changes into law. 
We want a commitment that you will work with us to get it 
right, and craft changes that will work in the field. As we 
know, this is a very serious issue, it affects food safety, it 
affects our children, it affects our trade partners, and it 
affects our markets. There are things we can do to fix this 
problem. To strengthen our laws, and to protect our children, 
we're committed to doing this.
    Mr. Secretary, USDA is often criticized for trying to 
regulate an industry it's also trying to promote. Here's an 
opportunity for USDA to be part of the solution, rather than 
part of the problem, and we hope that you will join us.
    Senator Feinstein, a member of this subcommittee is not 
able to be here today due to a scheduling conflict with the 
Judiciary Committee, and she has asked me to read her following 
statement.

    ``I was appalled to hear of the incidence of animal cruelty 
documented by The Humane Society of the United States at the 
Westlands meat packing plant in Chino, California, and I am 
concerned about the United States Department of Agriculture's 
ability to keep sick animals out of the Nation's food supply. 
As we have seen, these cruel acts occur when the inspectors' 
backs are turned.
    It is my view that inspection alone will not solve the 
problems in the food safety inspection system. The 
responsibility must also rest on the operators of these 
facilities. Any company that slaughters downed animals and 
knowingly violates the laws and regulations governing sick and 
downed animals, should have their operating licenses revoked 
immediately.''

    Senator Feinstein also provided question, which will be 
submitted for the record.
    Senator Kohl. Following Secretary Shafer's testimony, we'll 
hear from Wayne Pacelle, President of The Humane Society of the 
United States, and Patrick Boyle, President of the American 
Meat Institute. We've also received written testimony by 
professor Temple Grandin of Colorado State University, that we 
will make part of the record.
    At this time, I'd like to turn to my colleague, the ranking 
member in this committee, Senator Bennett.


                 STATEMENT OF SENATOR ROBERT F. BENNETT


    Senator Bennett. Thank you very much, Mr. Chairman, and 
thank you for framing the seriousness of this issue as 
carefully and thoroughly as you have.
    I have some similar things to say, but I won't say them in 
the interest of time. I do want to congratulate The Humane 
Society for their role in bringing this to light. If The Humane 
Society had not produced the video--to which you've referred, 
and which is shocking to all who have seen it--we could very 
possibly still be going on with these violations happening, 
without them being picked up. And so, The Humane Society 
deserves our thanks and gratitude and congratulations for their 
work here.
    I do want to note, so that we don't get undue panic, that 
this is a Class II recall, which means that the probability of 
getting sick from eating the meat is considered remote. That 
does not, in any way, diminish the seriousness of the problem, 
but it is something that I think consumers might want to know.
    Also, I have been pleased to learn, as a result of the 
poking into this particular problem, that the Department does 
have a specific oversight set for the National School Lunch 
Program, and every lot of beef that is destined for the 
program, regardless of which facility it comes from, is 
inspected and tested by the Agricultural Marketing Service. 
Since January 2006, none of the samples have proved positive 
for E. coli, two tested positive for salmonella, and 
appropriate changes or steps were taken.
    Any product that tests positive for either pathogen is 
immediately rejected for use in any Federal food assistance 
program. This, again, does not alleviate the seriousness of the 
problem we're facing here. And the fact that Hallmark/Westland 
violated their contract with USDA for what appears to be a time 
of 2 years, treated animals inhumanely during that period of 
time, and broke the regulations, is ample reason for your 
calling the hearing, and the size of the recall is serious 
enough to cause us to give it the kind of attention that you 
have given it here.
    I'm happy to join you in conducting the hearing, and join 
you in your request, that if we need additional legislative 
changes, we will do our best to do that. And if we need 
additional money, this is after all the appropriations 
subcommittee, we need to be told that as well in very clear 
terms.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Bennett.
    Senator Nelson.


                    STATEMENT OF SENATOR BEN NELSON


    Senator Nelson. Thank you, Mr. Chairman. Unfortunately, I'm 
going to have to preside here rather shortly, and so I'd like 
to make some preliminary comments and have my full statement 
made a part of the record and then the questions made as a part 
of the record when I finish presiding, come back about 3 
o'clock if the hearing is still going, then I'd pick up where 
I've left off.
    First of all, Mr. Chairman, I appreciate so much your 
calling this hearing. We are--we're all just simply, I think 
surprised would be a very polite word, to the reaction that 
we--our reaction to the videos that we saw. Certainly animal 
cruelty is something to be avoided. If there is any silver 
lining here, it is that while the animal cruelty situation was 
so severe, it does not appear that the food safety situation 
was--that there was any contamination, no evidence of any 
contamination. And I think we're all--we're all very pleased 
about that and maybe surprised about that as well, because of 
the treatment and the fact that the animals were lying down in 
contaminated areas.
    But, you know, I hadn't--I knew when I talked to the new 
Secretary, as when he was the nominee, that he was going to be 
inheriting some problems that were continuing. I don't think 
either he or I knew that he would inherit this one or some of 
the others that are out there, that may not involve food 
safety, but the U.S. Department of Agricultural sending out 
checks, payment checks to deceased individuals, contrary to 
what the law was under the Farm Program, and a number of other 
areas, particularly as it relates to trade.
    This situation with Hallmark is not going to make our trade 
situation that much better, because it raises serious questions 
about--about the treatment of the food products, which then, of 
course, raises questions about the safety of the--of the 
facilities, as well as the safety of the processes. The 
concerns of my constituents are pretty clear. First, we want 
food safety and we believe we have the safest food in the 
United States. One of the reasons we believe that we have the 
safest food in the United States--in America--in the world, in 
the United States, is because of the inspection process. But 
when we see a complete failure and--of the process to detect 
even animal cruelty, it does raise questions then about what 
that process--whether it's sufficient to protect against food 
safety as well.
    So it's the complete breakdown of the system in this 
situation, or the inadequacy of the system in this situation to 
catch the treatment, which would then lead, of course, to the 
other animal safety questions.
    So, we've experienced time and again, failures of the USDA, 
as it relates to trade. One of the most obvious areas of the 
trade has been, with respect to Korea, we can't get the right 
shipments sent to them under the agreements we have with them.


                           PREPARED STATEMENT


    So, I'm hopeful that my good friend and Secretary, who has 
his hands full right now, will be able to pick up the slack 
that you've inherited, and be able to straighten things out, so 
that we don't have these questions continuing into the future. 
It's a daunting task. We talked about it at the beginning, and 
I want to be as supportive of your efforts as I can possibly 
be, and of the agency. But I think we have to have a much 
better regimen of inspections and assurances from the 
Department that these things are not going to continue, if 
they've continued elsewhere.
    Thank you very much, Mr. Chairman.
    [The statement follows:]

                Prepared Statement of Senator Ben Nelson

    I want to thank the Chairman for holding this important hearing 
today; providing us with an opportunity to hopefully sort out the 
myriad problems and disturbing actions that have led to this 
unprecedented recall.
    Mr. Secretary, when you appeared before the Agriculture Committee--
which I'm also a member of--for your confirmation I hearing, I 
mentioned my concern about all that had been left undone over the last 
2 years.
    I had not anticipated that the problems would show up this quickly; 
or in such a difficult manner.
    At the outset, let me be very clear: I believe that our main focus 
in this matter should be on ensuring the continued safety of our food 
supply.
    For too long, we have seen a pattern of mistakes and missteps that 
raise serious questions about the competence and effectiveness of USDA.
    Inspectors fail to catch domestically-labeled boxes of beef before 
they are shipped to Korea--not once, but multiple times--giving Korea 
an excuse to halt imports of U.S. beef and further damaging the 
reputation of both the beef industry and our inspections system.
    And now this situation with Hallmark, leaving us to wonder what 
other problems exist.
    Since we can't know what problems lie ahead, I want to take the 
time today to make certain that we recognize what has gone wrong and 
that we understand how best to make sure these mistakes do not happen 
again.
    So, while I realize that many of the problems did not start on your 
watch, you are unfortunately faced with the task of fixing the problems 
that have been left to you.
    Between the series of news stories on this matter, the concerns of 
my constituents and your comments here this afternoon, I am left with a 
lot of unanswered questions and I hope to get some answers today and in 
the very near future.
    I am concerned about the continued safety of our food supply and 
the effectiveness of USDA's system for safeguarding it, including the 
decisions that have been made in this situation; I am concerned about 
the detrimental impact this situation is having on our efforts to re-
open important markets for U.S. beef, such as Korea and Japan; and, 
finally, I am concerned for the beef industry and its reputation both 
here and abroad and with the agency tasked with regulating the industry 
and safeguarding of our food supply.
    Without playing armchair quarterback, here, I have to admit that I 
am concerned not only about the actions of this company and its 
employees but also about the decisions, employees and capabilities of 
USDA.
    This was a massive recall of beef and it involved the past 2 years 
of production--much of the beef has been consumed and you have 
consistently stated that it posed no risk to human health or food 
safety.
    Was this recall proportional to the amount of risk to the food 
supply or human health? Particularly since the recall has generated so 
much concern amongst parents and consumers.
    Was this action wise considering the very delicate nature of our 
beef trade with nations like Korea and Japan? Does this add fuel to 
their unreasonable claims about the safety of U.S. beef and the 
effectiveness of our system of safeguards?
    Was there another form of punishment for the company or another 
series of actions by USDA that would've better fit this particular 
situation without the corresponding fears and concerns and the 
implications for trade and the industry?
    Although I am very concerned about the safety of our food supply--
and particularly the health of our schoolchildren eating the foods in 
the school lunch program--I am also concerned about an overreaction 
that gives the appearance of a greater danger than actually exists.
    Finally, this situation raises serious concerns about the agency 
responsible for our food safety:
  --Do we have enough inspectors on the ground to handle the number of 
        animals and amount of product that needs to be inspected?
  --Are these inspectors properly trained and are the correct 
        mechanisms in place to hold them accountable for mistakes?
  --Is USDA wisely allocating the unfortunately limited amount of money 
        that Congress is able to appropriate--or is too much money 
        going to too many desk jobs in D.C. and not enough to those on 
        the front lines?
  --What is USDA doing to make sure vacancies are filled in a timely 
        manner and that all responsibilities are covered?
  --Are there enough safeguards in place to ensure that inspectors are 
        independent from the facilities they inspect and that they are 
        able to effectively do their jobs?
  --Why are we witnessing so many missteps on the part of USDA for 
        something as important as the safety of our food? What is it 
        going to take for these problems to be corrected and what do 
        you plan to do?
  --Since you have come on board, have you initiated any formal review 
        of on-the-ground capabilities and whether resources are being 
        effectively allocated?
    Thank you for appearing here today, Mr. Secretary, on this 
important matter.
    I hope you can help us help you fix the problems that you have 
inherited.

    Senator Kohl. Thank you very much, Senator Nelson.
    I'd like to call upon Senator Dorgan for his comments, and 
also some introduction on Secretary Shafer before he makes his 
testimony.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much. I will 
be mercifully brief. I think you have really well outlined the 
purpose of the hearing and the challenges and problems, and I 
won't go over that again.
    I was, in reading the briefing material, struck by the 
comments of someone that said, you know, we have 7,500 
inspectors for 6,300 Federal plants. That's too few eyeballs 
watching too much meat. It seems like a perfectly apt 
description to me, too few eyeballs watching too much meat.
    Secretary Shafer is here today, and we are--it's the first 
time he's had a chance to come before the appropriations 
subcommittee, and he is, of course, a North Dakotan, and we're 
enormously proud of his nomination and the support by the U.S. 
Senate for him to serve in this position. He's confronted now 
with a challenge, not of his making, and I think all of us 
agree there's a real problem here.
    I also want to commend the organizations that were involved 
in bringing this to light. You know, this is--The Humane 
Society has done good work here and I think it's something all 
of us should pay a lot of attention to.
    And so, again I appreciate your calling the hearing, Mr. 
Chairman, and I appreciate Secretary Shafer being here. This is 
a search for solutions.
    I want to make one other point if I might, following some 
questions I will ask about the beef recall, I've sent Secretary 
Shafer a letter about the closing of a human nutrition 
laboratory, and I want to ask him to respond on the record to 
those at some point, in writing perhaps if necessary.
    But, this issue is about the beef recall, and I appreciate 
your setting the stage in your opening statement.
    Senator Kohl. Thank you, Senator Dorgan.
    Mr. Secretary.

                          PREPARED STATEMENTS

    The subcommittee has received statements from Senators 
Durbin and Johnson which will be placed in the record.
    [The statements follow:]

            Prepared Statement of Senator Richard J. Durbin

    Thank you Mr. Chairman and Senator Bennett for holding today's 
hearing on the Westland/Hallmark Meat Company recall of ground beef. I 
would also like to thank the witnesses for being here today--
Agriculture Secretary Schafer and the rest of the USDA team, Mr. Wayne 
Pacelle from The Humane Society of the United States, and Mr. Patrick 
Boyle from the American Meat Institute.
    Last week's announced recall of 143 million pounds of ground beef 
stretching back over 2 years of production at Westland's Chino, 
California, facility is by far the largest recall in U.S. history. 
Included in that recall were 50 million pounds of ground beef sent to 
Federal nutrition programs like the School Lunch Program. To give the 
situation some context, these programs serve more than 30 million meals 
per day to the Nation's school children.
    The video footage that brought this situation to light is alarming. 
Employees at a federally inspected facility were shown beating animals, 
lifting them on a fork lift, spraying water in their noses, and 
repeatedly using electric prods on them--all to force them to stand up 
and pass inspection.
    The video evidence that these sickly, weak animals entered the 
human food supply caused the recall and enforcement actions we've seen 
over the past 3 weeks. Animals unable to stand on their own are 
prohibited from entering the human food supply because they present a 
higher likelihood of harboring disease and most importantly because 
they pose a risk of harboring BSE or mad cow disease.
    To USDA's credit, the response has been swift and tough. USDA 
quickly suspended inspection and operations, opened an investigation, 
and worked with the company to announce a recall. I hope that the 
investigation into the individual criminal acts and the Inspector 
General report on why this failure occurred are conducted thoroughly.
    However, the events that occurred at this federally inspected plant 
are alarming. USDA says that there were inspectors on the premises of 
this facility constantly and continuously. How could these events occur 
given USDA's in-plant presence?
    There are many unanswered questions. There are also vague and 
misguided policies in place that need to be adjusted in order to 
prevent similar situations from occurring. Some of these issues can be 
resolved administratively and some may require congressional action.
    First, I'd like to discuss the vacancy rate for USDA FSIS inspector 
positions. Through a FOIA request, we learned last year that vacancy 
rates hover around 10 percent on average. In Denver, that rate is 20 
percent, and Chicago has seen vacancy rates around 15 percent. This 
means that there are somewhere in the neighborhood of 700 unfilled 
inspector positions according to what FSIS acknowledges it needs to do 
its job.
    This translates into inspectors forced to cover more territory with 
less time to spend in facilities. The status quo is insufficient. To 
USDA's credit, it has submitted requests to this Committee to be 
allowed to assess and collect user fees for certain activities. Every 
year they're proposed and every year they're thrown aside.
    In light of this episode and the strains on the Federal budget, I 
would like to hear USDA discuss these user fees and what USDA would do 
with the revenue generated from such fees to fill this inspector gap. I 
also encourage my colleagues to give these user fees a serious look. 
Today, taxpayers shoulder the full cost of meat, poultry, and egg 
inspection. In return, companies gain the marketing benefit of the USDA 
stamp and are able to sell their product. There are also public health 
benefits, of course, which is why taxpayers should continue to pay for 
the majority of these services.
    The USDA proposal would be relatively small. There is a facility 
licensing fee depending on the size of the operation, and a fee for 
plants that perform poorly. The latter fee kicks in when facilities 
have sample failures that result in retesting or are linked to an 
outbreak. I can't imagine why the second fee should raise any 
objection. The licensing fee is a reasonable approach given the shared 
public and private benefits of the inspection program.
    The second item I'd like to discuss is a troubling statement I 
heard during one of USDA's conference calls regarding this recall. The 
quote was from Dr. Clifford from APHIS who said that, ``first and 
foremost animal ID within APHIS is for animal health purposes''.
    That statement is troubling given our current inability to trace 
back where these individual cows came from to determine whether there 
was a problem at the producer level, or to trace forward where this 
product was distributed. During the Topps recall this summer, USDA was 
confronted with similar limitations.
    The inability to track and trace is bad for consumers and bad for 
the industry. For consumers, it's obvious--we need to be able to 
quickly assess where product is located and pull it from shelves. Not 
being able to trace back or forward puts consumers at risks and hinders 
our ability to target resources to the sources of contamination.
    In a similar vein, I recently wrote to USDA and OMB to urge the 
promulgation of a final rule giving USDA the authority to publish 
retailer information in recalls. It does no good for consumers to know 
the packer that had a problem. Consumers need to know where 
contaminated product was sold in order to make informed decisions. I'd 
like to hear your comments on this long overdue rule.
    Getting back to animal ID, there are a host of reasons why the 
current state of animal ID is a problem for industry. First, the size 
of these recalls is often multiple times larger than the actual 
affected batch, because we're unable to trace back to the source of the 
recall or trace forward where it's gone. That means bigger recalls that 
cost the industry more money and draw alarming newspaper headlines.
    It is also troubling to our trade partners, many of whom have more 
robust ID and trace-back programs. New Zealand, Canada, and the EU all 
outshine us in this area. Over time, this will hurt the competitiveness 
of our products and our ability to deliver the highest value products 
to markets around the world.
    Furthermore, the USDA has squandered millions of dollars on this 
taxpayer-funded program that USDA often refers to as a program run ``in 
cooperation with industry''. The results have been poor.
    We've now spent about $100 million on this program and we have 
fewer than 30 percent of all premises registered nationwide. That means 
that hundreds of thousands of premises are not even registered. We're 
not even talking about identification tags or traceability. Premise 
registration is only step one and we're failing miserably.
    I hope to hear a clarification from Secretary Schafer that this 
program is not just for animal health purposes and is not a handout for 
industry cooperative programs. It has clear food safety and trade 
implications and it needs to be treated as such. In addition, USDA 
needs to get serious about registering 100 percent of premises and that 
means mandatory premise registration. It's not a big challenge to 
register a premise--it takes a couple of clicks on a website and it 
doesn't compromise privacy.
    Lastly, I would like to discuss USDA's policy on the use of downer 
cattle. The feed ban and our requirement to remove specified risk 
material (SRM) are the primary methods for controlling BSE.
    The third layer is USDA's ban on using non-ambulatory cattle in the 
human food supply. As I mentioned before, downed cattle have a higher 
likelihood of harboring disease. A number of the 15 cattle found to 
have BSE in North America were non-ambulatory animals.
    It is inconceivable why we have a loophole that allows some downed 
cattle to enter the food supply. In the July 2007 USDA rule, the 
announced ``ban'' on downer cattle allow FSIS personnel to determine 
the disposition of downer cattle on a case by case basis. While some of 
these animals may be safe for the food supply and may have minor 
injuries, it is hard to imagine how FSIS personnel can assess the 
source of an injury on the spot with only visual observation. In 
addition, this policy assumes 100 percent compliance with the 
requirement that plant employees contact FSIS personnel whenever an 
animal goes down and that all employees are familiar with this 
requirement.
    With faster and faster production lines in plants, a workforce with 
high turnover, and USDA vacancy rates exceeding 10 percent, it seems 
like the loophole in the downer rule presents a risk to our food 
supply. Industry can do the right thing here. If the packing plants 
raise the threshold for the condition of the animals coming into 
facilities, producers will ensure that they send animals that are young 
and healthy enough to comply with the standard.
    We clearly need to tighten this policy up and I hope Secretary 
Schafer will make a commitment to review this issue and do what's right 
for public safety. There are steps that USDA can take without 
legislative action that would enhance the safety of the food supply, 
including tightening the downer ban, requiring testing of animals that 
go down but pass inspection, placing cameras in pens, and getting 
serious about animal identification.
    I thank the witnesses for being here and I look forward to hearing 
your testimony.
                                 ______
                                 

               Prepared Statement of Senator Tim Johnson

    First and foremost, I would like to thank Chairman Kohl and Ranking 
Member Bennett for holding this afternoon's hearing on the Hallmark/
Westland meat recall issue. I appreciate your attention to this 
important issue and also thank today's witnesses for their time.
    We are here today to examine the largest beef recall in history, 
totaling 143 million pounds of beef. My office has been in contact with 
the United States Department of Agriculture (USDA) on the subject of 
this recall since January, and USDA's communication in discussing and 
investigating the recall and inspection procedures is vitally 
important.
    I am certain the United States has the safest food supply in the 
world, and our farmers and ranchers provide a steady stream of 
nutritious and wholesome U.S beef on kitchen tables across America. My 
confidence in our meat supply has not waned. I am pleased that the 
Agriculture Appropriations Subcommittee is addressing this recall so as 
to ensure our meat supply and the quality product our ranchers and 
farmers offer will not be compromised, nor will public perception be 
further impacted.
    Roughly half of the beef obtained for South Dakota schools in the 
2007 and 2008 school years was supplied through the Hallmark/Westland 
meat packing plant in Chino, California, and the majority of the beef 
that was distributed to South Dakota schools was fed. Schools in my 
home State received nine truckloads of Westland Company product, each 
truckload carrying roughly 40,000 pounds of beef.
    Thankfully, we have not heard of a single illness reported in the 
State, or Nation for that matter, related to the consumption of this 
beef. The company voluntarily recalled the product, and the USDA's Food 
Safety and Inspection Service (FSIS) has suspended the Hallmark/
Westland meat packing plant. Schools in South Dakota did not expect any 
additional product from this plant and will not be faced with a product 
shortage during these upcoming months, as their beef demands were 
expected to be met through other suppliers.
    FSIS did conduct ante-mortem inspections at the Hallmark/Westland 
meat packing plant in Chino, California. However, FSIS wasn't contacted 
for evaluation of subsequently non-ambulatory cattle that had passed 
the ante-mortem inspections. The treatment of cattle at the packing 
plant sends a very negative image to consumers, consequently impacting 
public perception of the cattle industry.
    USDA's investigation is ongoing. Evaluating oversight to ensure 
this type of treatment does not occur in the future is a critical 
component of that investigation, for consumers and ranchers alike.

STATEMENT OF HON. ED SCHAFER, SECRETARY OF AGRICULTURE, 
            DEPARTMENT OF AGRICULTURE
ACCOMPANIED BY:
        AL ALMANZA, ADMINISTRATOR, FOOD SAFETY AND INSPECTION SERVICE
        KATE HOUSTON, DEPUTY UNDER SECRETARY, FOOD, NUTRITION, AND 
            CONSUMER SERVICES
        DR. KEN CLAYTON, ASSOCIATE ADMINISTRATOR, AGRICULTURAL 
            MARKETING SERVICE
    Secretary Shafer. Thank you, Mr. Chairman, and members of 
the committee. I'm pleased to be here today to address the 
ongoing investigation of the Hallmark/Westland meat packing 
company in Chino, California, and to assure you that I am 
deeply and personally concerned about the inhumane treatment of 
cattle in that facility.
    I'm joined today by Ken Clayton, the Associate 
Administrator of the Agricultural Marketing Service, Al 
Almanza, the Administrator of the Food Safety and Inspection 
Service, and Kate Houston, the Deputy Under Secretary for Food, 
Nutrition, and Consumer Services. And we look forward to 
answering your questions.
    The American people rely on the United States Department of 
Agriculture and thousands of front-line inspectors, and the 
safeguards we have developed through decades of experience, to 
ensure the meat, poultry, and processed egg products that they 
consume, are safe and wholesome. That is one of our fundamental 
missions, and it is a trust that we take very seriously.
    I want to be clear and right up front, our food supply is 
safe. However, there are serious violations of USDA regulations 
that warranted action and we issued a Class II recall. The 
Class II recall means that the probability is remote that there 
is a risk to human health.
    Mr. Chairman, you mentioned that--that cows were hit and 
rolled and jabbed and dunked before they went into the food 
supply. We see no evidence that that is a correct statement. We 
have seen animals that have been previously approved by a 
certified veterinarian, an employee of USDA, to go into the 
food supply, that then went down. But we have no evidence that 
there are sick animals that went into the food supply.
    I also want to tell you now about how proud I am of leading 
USDA at this time. Our employees have shown their dedication to 
our food safety mission in the outstanding way that they have 
responded to this crisis. I have witnessed them working around 
the clock and sacrificing personal time with their families. 
They are committed, knowledgeable, and caring, and their 
performance has left me even more confident about the safety of 
our food supply than I was as a private citizen just a month 
ago.
    I can only describe the video that was brought to the 
public attention on January 30, about the way cows were being 
handled at the Hallmark/Westland Plant, as alarming and 
disturbing. But I appreciate The Humane Society of the United 
States for exposing the rule violations that were taking place. 
No one wants to see animals treated that way. It is shameful 
and it is irresponsible.
    We are determined to find out what went wrong at this 
plant, and to hold anyone involved in violations fully 
accountable for their actions. We are also examining our 
inspection system, to make sure that we have the best possible 
policies and practices in place to deter future violations at 
the facilities under our jurisdiction and stop them if they do 
occur.
    Once we had reviewed the Hallmark/Westland video, we 
immediately put the administrative and regulatory tools to our 
disposal at work. We launched investigations by our Office of 
Inspector General, to utilize its investigative resources and 
powers, and by our Food Safety and Inspection Service, and 
Agriculture Marketing Service as well. We also put an immediate 
administrative hold on the use of Hallmark/Westland products, 
by participants in the school lunch program or any of our other 
nutrition assistance programs.
    Over the past 4 weeks, as more information has become 
available to us, we have taken further actions against Hallmark 
and Westland. After determining that there was evidence that 
animals had been egregiously mishandled at the plant, FSIS 
suspended inspection on February 4. While Hallmark/Westland had 
already stopped their slaughter operations, this action by FSIS 
collectively, effectively blocked the plant from operating 
until a corrective action plan is approved.
    Based on evidence from the ongoing investigation, FSIS 
recommended to Hallmark/Westland that it recall all products 
produced at the plant since February 1, 2006. On February 17, 
Hallmark/Westland commenced a voluntary recall of 143 million 
pounds of fresh and frozen beef. The reach of this recall is 
broad and deep. It extends to school districts throughout this 
country, as well as to commercial distributors, processors, 
wholesalers, and retailers.
    But I also want to stress to you that because USDA 
recommended this action, it is because of serious violations of 
our animal slaughter rules, and it is extremely unlikely that 
the mishandled animals pose a risk to human health.
    We are going to pursue these investigations wherever they 
may lead, and promptly take whatever corrective actions are 
called for. But we believe there are actions that we can take 
now, before we have the full results of the investigations at 
hand. That will help strengthen our food safety system, and 
help deter and detect violations like these that we believe 
took place at Hallmark/Westland.
    While the investigation proceeds, we are taking the 
following steps to enhance oversight policies and procedures of 
humane handling. I am directing our inspectors to be more 
resourceful in how they do their inspections. That will mean 
being more random when they are in and where they do the 
inspections, when they're making use of additional tools, such 
as off-site video surveillance at regulated establishments.
    We are also prioritizing inspections, based on a set of 
objective criteria, so we gather the most information on 
plants, that we believe humane handling violations will most 
likely occur. We will be drawing on the data generated by our 
humane activities tracking system, to more precisely target our 
inspection and surveillance efforts.
    In our purchasing activity, we will immediately increase 
the frequency of unannounced audits conducted at the 23 
approved slaughter facilities that provide beef under our 
Federal Purchase Program.
    We have also asked our Inspector General to perform an 
audit to determine whether our rules and procedures for 
ensuring that only animals fit for slaughter enter the food 
supply were both being followed at Hallmark/Westland and other 
selected slaughter facilities that we oversee.
    Mr. Chairman, I said at the outset that I take this issue 
very seriously, and I mean it. We recognize that these actions 
have--that we have taken in this case have caused and will 
cause a lot of pain. The shutdown of Hallmark/Westland means 
workers in an economically depressed area will lose their jobs. 
The recall means processors around the country will suffer 
losses because they use Hallmark as a supplier.
    We believe we are taking the right actions, but we also 
recognize that they are difficult for those whose lives or 
businesses are being upset. But by taking these actions, we are 
also assuring the children around the country, who rely on us 
for their school lunches, that rules do matter. And we are 
assuring mothers that the food their kids eat at school and at 
home is safe. We are also sending a clear message to consumers, 
both our domestic and international markets, that we will 
continue to uphold the highest standards to protect our food 
supply, and these are very important things.

                           PREPARED STATEMENT

    I look forward to coming back and visiting with you in the 
near future to share what we learn from the actions I have 
outlined, as well as from the investigation once it is 
complete. I appreciate the opportunity to be with you today. 
Our written testimony has been submitted for the record, and we 
look forward to answering your questions, Mr. Chairman.
    Thank you.
    [The statement follows:]

                Prepared Statement of Edward T. Schafer

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to appear before you today to address the ongoing investigation of 
the Hallmark/Westland Meat Packing Company (Hallmark/Westland) in 
Chino, California. I want to assure you that I am deeply concerned 
about the inhumane handling of non-ambulatory disabled cattle in that 
facility.
    I want to further assure you that, as soon as I learned of the 
problems at Hallmark/Westland, I took immediate steps to determine if 
the allegations made public by The Humane Society of the United States 
(HSUS) were accurate. I called on our Office of Inspector General (OIG) 
to work with USDA's Food Safety and Inspection Service (FSIS) and 
Agricultural Marketing Service (AMS) to conduct a thorough 
investigation into this matter and stated that any violations of food 
safety or humane handling laws would be immediately acted upon. In 
addition, product from Hallmark/Westland involved in the Federal 
nutrition assistance programs was put on hold pending further 
information from the investigation. An administrative hold prevents 
program operators from using the product until further notification 
from USDA.
    To that end, as soon as FSIS determined that humane handling 
regulations were violated, plant operations were suspended. 
Additionally, immediately upon conclusive evidence that non-ambulatory 
animals were allowed into the food supply, FSIS worked with the company 
to initiate a voluntary recall even though the risk to public health is 
remote.
    I remain confident in the safety of the U.S. food supply. To help 
ensure its safety, we take a number of steps to prevent food-borne 
illness. FSIS employs over 9,000 personnel, including 7,800 full-time 
in-plant and other front-line personnel protecting the public health in 
approximately 6,200 federally-inspected establishments nationwide. FSIS 
personnel must be continuously present for slaughter operations and 
must inspect processing plants at least once per shift per day. Under 
the FSIS verification sampling program, FSIS samples meat, poultry, and 
processed egg products and analyzes them for the presence of microbial 
pathogens. The agency has paid particular attention to E. coli O157:H7 
in raw ground beef and Salmonella in raw meat and poultry products 
through the E. coli initiative announced last fall and its ongoing 
Salmonella strategy. To protect against bovine spongiform 
encephalopathy (BSE), the Federal Government also has an interlocking 
system of safeguards, which I will describe in more detail later.
USDA Agency Responsibilities
    USDA takes very seriously its food safety mission. There are a 
number of agencies at the Department working together on this matter. 
FSIS is the public health regulatory agency in USDA responsible for 
ensuring that meat, poultry, and processed egg products are safe, 
wholesome, and accurately labeled. FSIS enforces the Federal Meat 
Inspection Act, the Poultry Products Inspection Act, and the Egg 
Products Inspection Act, which require Federal inspection and 
regulation of meat, poultry, and processed egg products prepared for 
distribution in commerce for use as human food. FSIS also enforces the 
Humane Methods of Slaughter Act, which requires that all livestock at 
federally inspected establishments be handled and slaughtered in a 
humane way.
    AMS purchases food product for the USDA nutrition programs. In 
order to be eligible to sell meat or meat products to AMS, processors 
must derive the meat and meat products from livestock that are humanely 
handled and harvested in accordance with all applicable FSIS 
regulations, notices and directives. In addition to this requirement, 
AMS has specification requirements for food purchased for USDA 
nutrition programs that preclude the use of meat and meat products 
derived from non-ambulatory disabled livestock. In making commodity 
purchases, AMS relies on FSIS and Food and Drug Administration (FDA) 
food safeguards; explicitly incorporates FSIS and FDA requirements into 
procurement contracts, as appropriate; and requires good manufacturing 
practices for sanitation and food safety.
    The Food and Nutrition Service (FNS) administers USDA nutrition 
programs. FNS programs affected by the recall include the National 
School Lunch Program, the Emergency Food Assistance Program, and the 
Food Distribution Program on Indian Reservations.
    In the event of an administrative hold or a product recall, FNS is 
responsible for notifying each affected State agency through the FNS 
Rapid Alert System (RAS). The RAS is in place to communicate critical 
information to State Agencies and to ensure that action is taken 
quickly with as little disruption to normal operations as possible. 
State Agencies are responsible for working with schools and other 
operators of USDA nutrition programs at the local level to trace 
deliveries of affected product and to report the status of the product 
to FNS. In the event of a recall, State Agencies are responsible for 
working with schools to verify product destruction and for submitting 
records to FNS for reimbursement and product replacement. Throughout 
the process, FNS provides State Agencies with continual technical 
assistance and other support to ensure compliance with a hold or 
recall.

USDA Actions
    On January 30, 2008, USDA learned about the original HSUS video 
regarding violations through the media. While needing to investigate 
the potential violations, we thought it prudent to immediately and 
indefinitely suspend Hallmark/Westland as a supplier to Federal 
nutrition programs. Hallmark/Westland was not permitted to produce or 
deliver any products under contract, and, under the suspension, no 
further contracts could be awarded to the company. In addition, USDA 
placed an administrative hold on all Hallmark/Westland products we 
identified that were in, or destined for, Federal nutrition programs 
since October 1, 2006. The October 1, 2006, date for the start of the 
initial hold period was chosen to capture a of Hallmark/Westland 
product that was in the Federal nutrition program supply chain.
    On February 1, 2008, Hallmark/Westland voluntarily stopped 
slaughter operations. As a result of FSIS findings, FSIS suspended 
inspection at the plant on February 4, 2008. This action was based on 
FSIS findings that the establishment failed to prevent the inhumane 
handling of animals intended for slaughter at the facility, as required 
by FSIS regulations and the Humane Methods of Slaughter Act.
    Through the ongoing investigation, FSIS obtained additional 
evidence that, over the past 2 years, this plant did not consistently 
involve the FSIS public health veterinarian in situations in which 
cattle became non-ambulatory after passing ante-mortem (prior to 
slaughter) inspection, as required by FSIS regulation. It is important 
to note that older cattle can be ambulatory when they pass ante-mortem 
inspection, then become non-ambulatory from an injury or for other 
reasons. If such a situation occurs, FSIS regulations require the 
public health veterinarian to inspect the animal again before the 
animal is permitted to go to slaughter. In this case, the evidence 
demonstrates that the FSIS public health veterinarian was not 
consistently involved. This failure by Hallmark/Westland led to the 
recall of February 17, 2008, in which Hallmark/Westland voluntarily 
recalled 143 million pounds of fresh and frozen beef products produced 
at the establishment since February 1, 2006.
    On February 17, 2008, FSIS amended the suspension to reflect the 
fact that Hallmark/Westland had allowed cattle passing FSIS ante-mortem 
inspection that subsequently became non-ambulatory to be slaughtered 
without further inspection by FSIS personnel. The suspension will 
remain in effect and the establishment will be unable to operate until 
corrective actions are submitted in writing and verified through a full 
review by FSIS. This verification process will ensure that animals will 
be handled humanely and not allowed to proceed to slaughter until 
Hallmark/Westland complies fully with FSIS regulations.
    While it is extremely unlikely that these animals posed a risk to 
human health, the recall action was deemed necessary because the 
establishment did not comply with FSIS regulations. The recall was 
designated Class II because the probability is remote that the recalled 
beef products would cause adverse health effects if consumed. This 
recall designation is in contrast to a Class I recall, which is a 
higher-risk health hazard situation where there is a reasonable 
probability that the use of the product will cause serious, adverse 
health consequences or death.
    As is the case for all recalls, FSIS is following its established 
procedures of conducting effectiveness checks to verify notification of 
the recall and product control and disposition. The recalling firm 
notifies all consignees of the recalled product and provides 
instructions for the control and disposition of products. If the 
recalling firm's consignees have used the recalled products in whole or 
in part for another product, those consignees must also notify their 
customers and remove these products from commerce. FSIS personnel are 
in the process of verifying that Hallmark/Westland has been diligent 
and successful in notifying its consignees of the need to retrieve and 
control recalled product, and that the consignees have responded 
appropriately.
    Immediately following the FSIS announcement of the Hallmark/
Westland recall, FNS issued instructions to States and program 
cooperators for the recall and destruction of the Hallmark/Westland 
beef placed on hold on January 30, 2008, as well as Hallmark/Westland 
beef dating back to February 1, 2006, the time period covered by the 
recall. Following FSIS requirements and procedures, FNS instructed 
State distributing agencies and other program cooperators to destroy 
all products covered by the recall in a manner compliant with local and 
State health agency requirements. The process of control and 
destruction is nearing the final phase. The State distributing agencies 
and other program cooperators are required to submit documentation to 
FNS when the destruction has been completed.
    Since January 30, 2008, FNS has provided ongoing technical 
assistance to State distributing agencies, industry partners, and 
schools to assist program cooperators with the initial administrative 
hold and the ensuing recall. In addition, FNS collaborated with the 
U.S. Department of Education to disseminate information to school 
officials in every school district across the country. USDA thanks the 
Department of Education for supporting the FNS outreach efforts.
    AMS is working to purchase ground beef from other eligible 
suppliers for schools and other domestic recipients to replace 
destroyed product. Purchases and deliveries of replacement ground beef 
products are being prioritized and expedited to ensure that sufficient 
products are available to local nutrition program operators.
    USDA places high priority on providing safe and wholesome food to 
children served through the National School Lunch Program and other 
Federal nutrition assistance programs. We are proud of our record in 
this regard and believe that our purchase programs provide children and 
other program participants with safe and high-quality food.

Safeguarding Against BSE
    I am aware that this situation has raised questions about the risk 
of BSE. I would like to take this opportunity to give you a brief 
summary of the safeguards against BSE that we have in place to protect 
our food supply.
    Since the discovery of the first case of BSE in Great Britain in 
1986, we have learned a tremendous amount about this disease. That 
knowledge has greatly informed USDA's regulatory systems and response 
efforts. It has also given us the opportunity to examine our own cattle 
herd, which is why we know that the risk of BSE in the United States is 
extremely low.
    As noted earlier, non-ambulatory cattle are excluded from the food 
supply as part of the Federal Government's interlocking system of 
controls to protect the food supply from BSE. These BSE security 
measures include the ban on non-ambulatory cattle, but that is simply 
one of the multiple measures in place.
    We have learned that the single most important thing we can do to 
protect human health regarding BSE is the removal from the food supply 
of specified risk materials (SRMs)--those tissues that, according to 
the available scientific evidence, could be infective in a cow with 
BSE. FSIS requires that all specified risk materials (SRMs), including 
the brain and spinal cord, are removed from carcasses so that they do 
not enter the food supply. Slaughter facilities cannot operate without 
the continuous presence of FSIS inspection personnel to ensure safe and 
wholesome product, including the removal and segregation of SRMs. 
According to the 2005 Harvard Risk Assessment, SRM removal alone 
reduces the risk to consumers of BSE by 99 percent. FSIS line 
inspectors are stationed at key points along the production line where 
they are able to directly observe certain SRM removal activities. Other 
off-line inspection personnel verify additional plant SRM removal, 
segregation and disposal.
    Likewise, another significant step we have taken to prevent the 
spread of BSE and bring about its eradication in the animal population 
is the ruminant-to-ruminant feed ban. In 1997, the FDA implemented a 
mandatory feed ban that prohibits feeding ruminant protein to other 
ruminants. The feed ban is a vital measure to prevent the transmission 
of BSE to cattle.
    BSE testing is best used as a surveillance tool. By testing animals 
that show possible clinical signs of the disease, we can document the 
effectiveness of our security measures.
    USDA's Animal and Plant Health Inspection Service (APHIS) has 
conducted targeted BSE surveillance testing since 1990, including an 
enhanced surveillance effort that was initiated after an imported cow 
tested positive for the disease in December 2003. The goal of the 
enhanced effort, which began in June 2004, was to test as many animals 
in the targeted population as possible over a 24-month period. This 
intensive effort detected only two animals with the disease, out of 
over 759,000 animals tested. Both of those animals were born prior to 
initiation of the FDA feed ban and neither entered the food supply. 
This testing confirms an extremely low prevalence of the disease in the 
United States.
    The enhanced surveillance program provided sufficient data to allow 
USDA to more accurately estimate the prevalence or level of BSE within 
the U.S. cattle population. Based on this analysis, we can definitively 
say that the incidence of BSE in the United States is extremely low. 
APHIS continues to conduct an ongoing BSE surveillance program that 
samples approximately 40,000 animals annually. This level of 
surveillance significantly exceeds the guidelines set forth by the 
World Animal Health Organization, which has affirmed that U.S. 
regulatory controls against the disease are effective.
    It is because of the strong systems the United States has put in 
place, especially these essential firewalls, that we can be confident 
of the safety of our beef supply and that the spread of BSE has been 
prevented in this Nation.

Further Actions
    The investigation led by OIG with support from FSIS and AMS is 
ongoing. Once the investigation has concluded, we will have additional 
information to determine the actions for FSIS oversight, inspection and 
enforcement that may be required. Furthermore, until that investigation 
is completed and reviewed, we are taking a number of steps to 
strengthen our inspection system and I expect to announce those steps 
in the near future.
    In addition, the Department will make sure that all remaining 
Hallmark/Westland product provided to USDA food and nutrition programs 
is destroyed. Replacement product from other eligible suppliers is 
already being purchased and provided to schools and other recipients. 
Given the monetary implications of the recall on this firm, I have 
directed USDA's Grain Inspection, Packers and Stockyards Administration 
to closely monitor the company's financial status to ensure prompt 
payment to producers should Hallmark/Westland resume operations. 
Additionally, I have directed AMS to exercise every legal recourse 
possible under the terms of the contracts with Hallmark/Westland to 
recover the costs of the recall to States and other food program 
operators, as well as to the Department.

Conclusion
    Mr. Chairman, the serious inhumane handling witnessed on the HSUS 
video is clearly unacceptable. Let me be clear that, as soon as we 
became aware of the conduct documented on the video, the Department 
took immediate action. We have worked expeditiously with our State 
partners to remove, destroy and replace product in our Federal 
nutrition assistance programs. We have also reached out to all our 
stakeholders throughout the process.
    We will continue to provide the public with an update of our 
actions at www.usda.gov/actions. Thank you and I will be happy to 
answer any questions that you have.

    Senator Kohl. Thank you very much, Mr. Secretary. I want to 
make our position clear and see if we are on the same 
wavelength, my position, I'm not speaking necessarily for my 
colleagues.
    I believe we would all agree that diseased or maimed 
animals should not be allowed to infiltrate the system, they're 
called downers, but diseased or maimed in one way or another. 
They should not be allowed to infiltrate the system. Then we 
need to have a set of procedures and regulations and manners in 
which we conduct ourselves, so that it doesn't happen.
    It seems to me, the only way we can do this, is by having 
complete surveillance of the line that leads into the 
slaughter, not 50 percent of the time, not random, but that 
surveillance has to be like a 100 percent. Whether it's a 
person standing there or a camera which is being watched by a 
person, but that line needs to be under total surveillance.
    And the third thing, is that companies that violate this 
policy should be, obviously, put to the most severe kind of 
penalty. So those are the three things. Do we agree with that? 
One, that we have no tolerance for animals that are downers 
into the food system. Number two, we have a surveillance system 
that assures that this does not take place. And number three, 
we have penalties for violators.
    Secretary Shafer. If I may take them in reverse order, Mr. 
Chairman. The penalties for the violators here are strong and 
swift, as we have shown through the actions we've taken, and 
this business is likely not going to survive. So, you know, I 
believe that those strong actions will be taken and should be, 
by recalling the meat in question, by the penalties that will 
take place, and financially for being responsible for the 
financial recall, the cost of the recall. And so, you know, 
yes, people need to be responsible, and from the USDA 
standpoint, they will be held responsible.
    The second item is the stiff penalties. You know, the stiff 
penalties here, certainly are the recall basis. Employees are 
losing their jobs, as I mentioned, and financially I don't see 
how this company can survive.
    As far as the, you know, downer cow situation goes, I would 
point that these animals were inspected by a veterinarian. That 
veterinarian views animals, both at rest and ambulatory, and 
when doing so, animals that are sick or aren't appropriate to 
be into the food supply are removed and put at the rendering 
facilities. The animals that are approved by a veterinarian go 
in--go into a pen to move into the processing plant.
    I do believe there are cases in that scenario where downer 
animals can be approved by the veterinarian, as required by 
USDA rules, and put into the food supply. I think they are not 
sick and having a veterinarian there on--in every facility in 
place, allows a judgment on a case by case basis, whether they 
go in or do not.
    Senator Kohl. Let's get back, because I think there's some 
imprecision there, in terms of my understanding. It is not a 
fact, according to my understanding, that there is a total 
surveillance of every animal, to determine whether or not it's 
a downed or maimed animal. There is not a surveillance or an 
inspection, as that animal is led into the slaughtering 
activity, that there's an inspection that occurs prior to that, 
but there's--which is intended to determine whether or not 
there's a downed animal involved.
    But as that animal then leaves the pen and makes its way 
towards the slaughtering activity, there is no inspection, it's 
a random inspection that takes--there are inspectors, but they 
do not--they're not operative at all times.
    So that there is the opportunity for a downed animal to 
make its way into the system. It may be rare, it may not occur 
often, but the opportunity is there, and we have had, you know, 
a thing as serious as this recall, partly as a result of this 
kind of an inspection system, which as is--you might describe 
it as very good--but it's not total. I think we're all pretty 
certain that we can say the inspection system is not 100 
percent. It may be close, but it's not there.
    And I believe the American people want to know that the 
inspection system is 100 percent. So, are we on the same 
wavelength?
    Secretary Shafer. I agree with you, Mr. Chairman, that the 
surveillance doesn't take place 100 percent of the time. I 
outlined a couple of actions, which we're taking into 
consideration, but----
    Senator Kohl. But you said you're going to increase----
    Secretary Shafer. We are.
    Senator Kohl. But are you--are we prepared to say that we 
will work together to see to it that the inspection that takes 
place of these animals, to prevent downed animals from 
infiltrating the system, the system we put in place will be a 
100 percent-type system?
    Secretary Shafer. Mr. Chairman, I believe where I'm coming 
from here, is that you know, I believe we have rules and 
regulations that need to be followed. It is correct to say that 
we do not have 100 percent supervision--surveillance.
    It is also correct to say that the rules are if a cow goes 
down--after it's been approved into the slaughter pen, by a 
veterinarian--that a veterinarian must be called to make a 
judgment whether it goes in or out. That rule was violated. And 
we see the impact that this company--on violation.
    Now, I would submit to you that there isn't a 
slaughterhouse facility in this country that doesn't understand 
now that we're going to play by the rules, and that the rules 
say, ``If one goes down, you call the veterinarian,'' or--to 
make the judgment.
    So, as we go through the investigation, and as we find out 
more how things happened, why it happened--why did employees 
feel the need to do this--we are going to take the proper 
corrective action.
    And we're looking at different surveillance methods. Some 
facilities, as you mentioned, have put up cameras. I'm a 
technology guy, I kind of like that idea. But as we get through 
the investigation, we need to find out why it happened, how it 
happened, and what corrective procedures we have to take to 
make sure it doesn't happen again.
    And, should we arrive that 100 percent surveillance is 
appropriate, I'd be glad to work with you to figure out how to 
do that. Today, I'm convinced that the rules in place are such 
to where we're protecting the supply, and we have a safe 
entrance into the food supply. And if a downer cattle happens 
after a veterinary inspection, that the veterinarian will be 
called.
    Senator Kohl. I think we can see where we're not exactly on 
the same wavelength with respect to what needs to be done, but 
I'm glad we've had this opportunity to have this exchange.
    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman, and let me just 
go further down the road the Chairman has gone down.
    As I understand it, what you're saying is, that an animal 
gets inspected by a veterinarian at the front-end of the chute?
    Secretary Shafer. Correct.
    Senator Bennett. Okay. The animal then goes down the 
chute--this is a virtual chute----
    Secretary Shafer. Right.
    Senator Bennett. I don't know what else to call it because 
I'm not in the business, but he goes down the chute, and if he 
stumbles and falls down, that's not necessarily an indication 
that he's sick--he may have just stumbled. I have stumbled and 
fallen down in front of the Capitol myself, and I'm glad no one 
took me out and shot me.
    Senator Bennett. But I----
    Senator Kohl. But you should have been inspected by a 
veterinarian----
    Senator Bennett. I was inspected by the Capitol equivalent 
of a veterinarian----that is, I went into the Capitol physician 
and he checked me out, and all of the rest of it.
    So, if I'm understanding you correctly the animal passes 
the first test that he's healthy stumbles somewhere along the 
way, and you're saying, the regulation requires that there must 
be a veterinarian called to make sure he passes the second 
time--that he didn't just stumble because he tripped, but maybe 
he was ill and just got missed the first time. Do I have that 
correct?
    Secretary Shafer. That's correct.
    Senator Bennett. So, you're saying that the proper 
enforcement of the rule would guarantee that any animal that 
was diseased wouldn't get into the food supply.
    If I understand what the Chairman is asking, it's that you 
put a camera in the chute. If you have a camera in the chute--
and I don't think it's going to cost all that much--you have 
evidence that can be examined if, in fact, a veterinarian was 
not called. If somebody said, ``Oh, I'm competent to notice 
that the cow just tripped, and we don't need to bother calling 
a veterinarian, just push him along.'' And the Chairman is 
saying, ``No, even at that point, you need some kind of 
surveillance.''
    And, unless the cost is somewhat prohibitive beyond a level 
that I can conceive of--cameras are everyday kinds of items 
that we have, certainly everywhere around the Capitol, just to 
have the record so that if something goes wrong, the Capitol 
Police can find out who did it? Who was there? Let's go back 
and re-run the tape. It strikes me that that's a very 
reasonable request that the chairman is asking for. Is that 
basically where we are?
    Senator Kohl. Something like that.
    Secretary Shafer. And I appreciate the position, Senator.
    Senator Bennett. Yes.
    Secretary Shafer. You know, I understand it. I also know 
that putting up a camera--full surveillance--and having it on 
record, as you say, you can go back and review.
    Senator Bennett. Yes.
    Secretary Shafer. We went back and reviewed this case, 
fortunately, because The Humane Society pointed out the 
problem.
    Senator Bennett. Yes.
    Secretary Shafer. But--we went back and reviewed here. It 
doesn't mean that you have--it does mean you have to have a 
monitor someplace, and you have to have somebody sitting there 
watching the monitor. And while the rules here were violated, 
the rules for electronic surveillance can be violated, as well.
    The point is, here, our strong actions in a Class II recall 
have shown that if you have full surveillance, if you have 
camera surveillance, if you have requirements to call the 
veterinarian, whatever it is--you've got to play by the rules.
    Senator Bennett. Yes. Well, I take your point--I'm sure 
that the chill has gone through the meat industry--this is one 
of USDA's biggest suppliers. And, as you have said here, its 
financial viability is now over.
    If I were CEO of one of its competitors, I would be very, 
very careful not to get anywhere near a similar kind of 
activity in my facility, regardless of how I may have felt 
about The Humane Society or anybody else who was checking up on 
me. I mean, this would get my attention if I were running one 
of these businesses, so I can understand your point.
    But, let's not micro-manage it. I just wanted to understand 
exactly where you were.
    Secretary Shafer. And, Senator, to be clear, you know, as I 
said, we have an ongoing investigation here. Something happened 
that pushed these employees to these egregious acts, why? How 
come? Something happened in the facility that they didn't call 
when the cow went down, our veterinarian, on site.
    Senator Bennett. Yes.
    Secretary Shafer. That has to be on site, or the plant 
can't operate. They didn't do that. We need to find out why 
that happened, and should a solution for 100 surveillance be 
appropriate, and the rules in place to----
    Senator Bennett. Okay.
    Secretary Shafer [continuing]. Watch the cameras and to 
review them and all of that kind of stuff, could we do it? You 
know, then I'm fully on board with working with you to make 
sure that happens.
    Senator Bennett. Yes.
    Secretary Shafer. The big issue here is what happened? What 
do we need to do to make sure it doesn't happen again?
    Senator Bennett. Well, I'm encouraged by the strong and 
swift action you have taken, because as I say, it would send a 
very strong message through the rest of the industry.
    Having been a CEO myself, I know that one of the most 
fundamental questions you can ask in any organization is, what 
does it take to get fired around here? And somehow, the message 
went through the employees of that organization that breaking 
the FSIS rules is not something it takes to get fired around 
here. You don't get fired if you do that.
    Indeed, there may be a culture there--we're guessing, and 
probably at this point there is no point in finding out, 
because the company's going to disappear. Maybe it's a culture 
where you get fired if you don't break the rules. You get fired 
if you don't keep the line moving, at all costs. And if that 
was, in fact, the company culture, it came from the top, and 
the company deserves what it's gotten.
    So, I think you have now sent the signal--what does it take 
to get fired around here? Break the FSIS rules, and you're 
going to get fired--that's a very good first signal. But, even 
as you were enforcing that rule and sending that signal, don't 
forget the suggestion that the chairman has made.
    Secretary Shafer. And I appreciate that. And I also 
appreciate that our Office of Inspector General that we 
recommended do an audit, hopefully will give us the results as 
to what that culture was in that plant. Was the culture to 
break the rules, and keep your job? Or was the culture, if you 
break the rules, you lose your job?
    Senator Bennett. Right.
    Secretary Shafer. We don't know, but we're going to find 
out.
    Senator Bennett. Right. The only other comment I would make 
is to have you confirm what I said in my opening statement, 
that in spite of the egregious behavior, in all likelihood, 
this is not a major health problem.
    Secretary Shafer. That's correct.
    Senator Bennett. Okay, thank you. Thank you, Mr. Chairman.
    Senator Kohl. Thank you.
    As I turn it over to Senator Dorgan, I just want to say to 
you--and I'm sure you agree--the worst message we, 
collectively, could send from this hearing, is that we don't 
think that we have a serious problem. The American people would 
recoil, if they thought that we had this hearing and 
concluded--without an accord on the seriousness of the problem 
and the requirement that strong actions be taken.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much. I want 
to, Mr. Secretary, focus on this issue of too few eyeballs 
watching too much meat.
    Assume, for a moment, there was not a Humane Society, and 
not a camera, and no presence there, at that moment. We 
probably wouldn't be having this hearing, we wouldn't know what 
had happened. And, my question is, is this a self-assessment 
kind of approach at these plants? Would we expect to have meat 
inspectors at the plants in sufficient numbers, to be able to 
observe, watch, catch some of these things? Or is it a self-
assessment, in which the plant tells its employees, ``Look, 
here are the rules, we expect you to abide by them,'' and only 
if at some point a Humane Society person or somebody else shows 
up with a camera, do you see the infraction and do you see the 
cruelty to the animals.
    So, tell me about this issue, and that relates to the too 
few eyeballs watching too much meat.
    Secretary Shafer. You know, I believe that, you know, first 
of all, Senator, the responsibility of this is from the 
industry. I mean, the people that operate these facilities have 
the responsibility for operating them properly, et cetera, our 
inspection service is there to oversee it, and to make sure 
that that gets done.
    With your permission, I'd like to ask Mr. Almanza to answer 
that process, because he is a person who has actually worked in 
a facility, and you know, and is now the Administrator for 
FSIS.
    Senator Dorgan. All right.
    Mr. Almanza.
    Mr. Almanza. Thank you, Senator.
    I would say that we have an adequate number of inspectors 
in those facilities. Recently, we have seen the number of 
facilities throughout the Nation decrease by about 300, 350--in 
that neighborhood--of Federal establishments. And, whenever we 
have inspection personnel in, well, continuous presence in 
slaughter facilities, we expect them to perform certain 
activities that will confirm that what they're telling us that 
they're going to do, that they are, in fact, doing them.
    Such as the HATS, or the Humane Activities Tracking System 
that the Secretary mentioned in his opening remarks. We monitor 
those areas, in the pens and in the alleys, at random times 
throughout the day. We try to vary those, because--or and 
also--the places that we come through, sometimes we'll come 
through the outside area, sometimes we'll come through the 
facility--and try to vary those different things that we're 
doing, to inspect or to do ante mortem inspection.
    Senator Dorgan. Mr. Almanza----
    Mr. Almanza. Yes, sir?
    Senator Dorgan [continuing]. How many inspectors were at 
this plant, that we're talking about?
    Mr. Almanza. We had five, sir.
    Senator Dorgan. You had five? How many were on duty that 
day when someone captured on camera what was going on?
    Mr. Almanza. We have five assigned there, but we weren't 
shorthanded at that location. We had three line inspectors, an 
off-line inspector, and a veterinarian.
    Senator Dorgan. What I'm trying to get at is, is it dumb 
luck that we know this? Just, somebody was there with a camera, 
and shows the world, and we're all aghast? Would we have known 
it as a result of inspectors being on this site? I mean, that 
actually is the way we should catch circumstances where rules 
are not being followed--we shouldn't rely on somebody with a 
hidden camera posting to YouTube or something, it should be our 
inspection. So, is it kind of dumb luck that we're now 
understanding this happened?
    Mr. Almanza. Well, certainly the investigation will turn up 
the reasons why this occurred. But, we are increasing our level 
of monitoring those situations in the slaughter facilities, and 
I think as Senator Kohl stated, as well, that we need to be 
more vigilant in those areas, and so those are some of the 
things that we immediately started to do.
    Senator Dorgan. And your position is that we do not need 
additional inspectors, you think the number of inspectors is 
sufficient? Because there are many who feel strongly that we're 
short of the number of inspectors, given the number of Federal 
plants they are required to inspect.
    Mr. Almanza. Yes, sir. Well, we're continuing to hire, but 
we also have about 200 more inspectors today than we had a year 
ago, at this same time. And so we continue to hire, we have 
about a 4.1 percent vacancy rate at the slaughter level----
    Senator Dorgan. But, my question is how many do you have 
relatively--how many, relative to how many do you think you 
really need? That's the question. Do you think we have 
sufficient inspectors, given the need out there?
    Mr. Almanza. Yes, sir, I certainly do.
    Senator Dorgan. All right.
    My time is almost up, Secretary Shafer, I had sent you a 
note because I--and I know this is about meat inspection and--
but I did want to have the opportunity while you testified, to 
discuss the issue of the human nutrition laboratory.
    The proposal in the budget, and this was not on your 
watch--because you've come on after this was all prepared--is 
to close a very important human nutrition lab and move the 
functions--to California and to Maryland. And there are some 
internal studies and observations about this suggesting it's 
going to end up costing us more money.
    I'm not going to ask you to go at length on the record 
today to answer that, but I would like--if you could--to submit 
answers to me, in writing, so that at least we have a base of 
understanding as we consider the President's budget request on 
this, in terms of whether it makes sense or not for the future.
    Secretary Shafer. I will do so, Senator.
    Senator Dorgan. All right, that will be helpful. Can you do 
that within the next couple of weeks? That would be helpful.
    Secretary Shafer. Yes.
    Senator Dorgan. Mr. Chairman, I think this is a really 
important issue. That the meat supply in this country is a very 
important issue, and I think the one thing that we don't want 
to come out of this hearing is some suggestion or some notion 
that we don't have a safe supply of meat. One--the important 
element that comes out of this is that we are determined to do 
everything we can to make certain that the supply of meat 
remains safe, and that the rules that we have are followed, and 
strengthened, if necessary.
    I think the proposition that you mentioned, Mr. Chairman, 
makes some good sense. It is very simple, and not very costly, 
these days, to have detection cameras in a plant like a 
slaughterhouse. And I think that might well be a pretty useful 
thing--going back and investigating this circumstance, one 
would have a really interesting and complete record, wouldn't 
they? Of what has happened at this plant. So, Mr. Chairman, I 
think you've made a pretty useful suggestion.
    Senator Kohl. Thank you, Senator Dorgan.
    Senator Craig.
    Senator Craig. Mr. Chairman, thank you for holding this 
hearing.
    Mr. Secretary, thank you. Do you have reason to believe--or 
not to believe--that what occurred at this facility is an 
isolated situation in the slaughter industry?
    Secretary Shafer. We don't know that, Senator. Our 
investigation is ongoing, and we are trying to find out the 
reasons why, what incented these folks to treat animals in this 
manner. And, as was mentioned here, we may not have known this 
had not The Humane Society of the United States brought this to 
our attention.
    We're trying to get to the bottom of that during the 
investigation. We've asked our Office of the Inspector General 
to pursue that, and as you know, that's a arms' length entity 
within the organization. And we anticipate that one of the 
answers that we will receive is, as they do that audit of other 
facilities, is this been happened elsewhere? We hope to get 
that answer, and I can share with you the results.
    Senator Craig. In that context, do you believe that the 
rules and regulations that are on the books today, as it 
relates to how animals are handled and how they're slaughtered, 
is adequate?
    Secretary Shafer. I do, sir. I believe that the regulations 
on the books today clearly state that if an animal goes down, 
after it has been inspected by a veterinarian and approved, and 
assigned a tracking number that goes through all the way, you 
know, the carcass, all the way through the process, that a, 
that veterinarian must be called. They broke the rules. That 
doesn't mean the rules are wrong, we've got to figure out why 
this facility broke the rules.
    So, I believe that the rules are adequate, I believe that 
if you look at the record of USDA, we've had many plant 
shutdowns because of inhumane treatment, we have had many 
incidences in this very plant, where veterinarians were called 
to make judgments of whether an animal goes, you know, into the 
process, or is pulled back. So, when the rules are followed, 
they are adequate, and I believe those rules are adequate.
    Senator Craig. It's my understanding that, due to the 
violations, the beef is unfit for human consumption. But is it 
necessarily unsafe?
    Secretary Shafer. We do not believe that this a food safety 
issue. We've issued a Class II recall, which says there is no 
apparent health food risk here. The reason for the Class II 
recall was because this was not a sick animal, this was an 
animal that went down after it had been inspected by a 
veterinarian, so we believe that there is no reason to be 
concerned about the safe food supply here, as well.
    Does anybody else want to answer?
    Senator Craig. While I was late in coming, and did not--and 
I've not read your full testimony, and I will--you did, I hope, 
define a downer cow versus mad cow, and the difference, did you 
not?
    Secretary Shafer. Yes.
    Senator Craig. Good. Because there are very clear 
differences, and I think there's a frustration in the public 
eye as to what all of this means, based on the visuals of the 
video--not the reality of what is safe versus unsafe. And I 
think it's very important that that be clarified, if it is in 
any way frustration of the consuming public.
    Secretary Shafer. And it was frustrating to myself, 
personally, Senator. These were difficult videos to watch. And, 
importantly, there must be a distinction made of animals that 
are downed, that are sick, that we saw being pushed around with 
forklifts and things like that--that were not approved by the 
veterinarian to go into the meat supply.
    The animals that were approved to go in, we do have 
evidence--video and otherwise--that cows that were approved, 
and afterward went down, that do have tracking systems on them, 
all the way to the process that shows they are, they are 
approved, you know, that's where the rule violation took place.
    Senator Craig. That's right.
    Secretary Shafer. But I'm confident that the veterinarian 
on staff approved or disapproved the appropriate animals to go 
into the system.
    Senator Craig. Well, catching the bad guys is always 
important, but helping create a culture in which bad guys 
cannot exist is more important. And I think Senator Bennett is 
clear--we can put all kinds of cameras up, we could line 
things, line the runways with inspectors. If you have a culture 
out there that will fudge, then you've got a problem. And, 
obviously enforcement is one thing--establishing or insisting 
on a culture that plays by the rules is critically important. 
Do you believe the American beef supply, currently on the 
shelves, for the consumers, is safe?
    Secretary Shafer. Senator, we issued a Class II recall, 
which is a rule violation, not a food safety issue----
    Senator Craig. I wanted you to repeat that, for the record. 
It's important that the American public know exactly what 
you've said.
    Secretary Shafer. We believe that's important, as well. And 
while this is not a food safety issue, we don't need/want to 
duck the point that this was a violation. And our suppliers our 
there now--our slaughterhouses and processes--know that rule 
violations count.
    You know, this isn't--you know, we have a lot of 
interlocking inspections for food safety--one of which is 
downer cows. We have a feed ban that's been put in place by the 
FDA, we have inspections ongoing on every carcass that goes 
through a facility--they check for bacteria, and other signs of 
ill health. So, we're pretty sure that the meat that gets on 
the market, and on the shelves of this country, is safe. And we 
continue to operate in that manner.
    Senator Craig. Well, I appreciate the way that you have 
handled this. You know, most people who know me, know I have a 
bias--I grew up in the livestock industry. At the same time, I 
want it to be what it is--a supplier of high-quality beef to 
the marketplace, that is healthy and in all ways, desirous of 
the consumer.
    And I've watched over the years--with great frustration--
when something like this happens and these sweeping attitudes 
happen, or there's been a failure to clearly communicate what, 
in fact, was happening, did happen, and did it, in any way, 
impact the food supply. And, I think you've been as clear as 
possible in this. I think the American consumer was simply 
over-powered by a video--that's not to condemn it, at all--
that's simply the reaction.
    Your due diligence is going to be very important here, 
thank you.
    Secretary Shafer. Thank you.
    Senator Kohl. Thank you, Senator Craig.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman. I would just ask 
that my statement be made as part of the record.
    [The statement follows:]

                Prepared Statement of Senator Tom Harkin

    Thank you to Chairman Kohl and Ranking Member Bennett for holding 
this timely hearing on the Hallmark/Westland meat recall. The 
circumstances surrounding this particular recall are unique: the recall 
was triggered because of an undercover video released by a non-profit 
organization.
    Most people have seen the video in question, where Hallmark/
Westland employees are seen inhumanely handling cattle as well as 
forcing nonambulatory--or downer--cattle to stand, apparently to get 
these animals to pass inspections conducted by the Department of 
Agriculture (USDA). USDA regulations expressly prohibit downer cattle 
from entering the human supply because the inability to stand or walk 
can be a clinical sign of Bovine Spongiform Encephalopathy (BSE). This 
regulation, made permanent last year, is one of USDA's safeguards to 
keep cattle that may be infected with BSE out of the food supply. 
Because of the violations by this company of USDA regulations, the 
company was forced to recall 143 million pounds of beef, covering beef 
produced from February of 2006 through January of 2008. To make matters 
worse, about 50 million pounds of the recalled beef went to Federal 
nutrition programs such as the National School Lunch Program, the 
Emergency Food Assistance Program, and the Federal Distribution Program 
for Indian Reservations.
    This incident raises numerous questions that I hope the Department 
of Agriculture can answer for us today. I am especially concerned about 
whether our food safety inspections are adequate and if existing 
regulations are being enforced. It is frustrating for me to see that 
USDA's Food Safety and Inspection Service (FSIS) has many of the tools 
necessary to ensure the safety of our food supply, but in this case, 
did not adequately use them. I expect to learn more details about what 
happened at the Hallmark/Westland establishment, including actions that 
USDA is taking to prevent this from happening again, what kind of 
assurances USDA can provide that this is not a systemic problem in our 
food safety inspection system, and whether USDA's FSIS has the 
resources it needs to continue its mission of protecting public health.

    Senator Kohl. It will be done.
    Senator Harkin. And then, let me dissent a little bit from 
my friend from Idaho. If there was no safety problems, why did 
we destroy 143 million pounds of beef, Mr. Secretary?
    Secretary Shafer. I appreciate the question, Senator, and 
it's nice to see you in a different arena than the farm bill, 
by the way.
    But, the meat has been recalled----
    Senator Harkin. Yes.
    Secretary Shafer [continuing]. And has to be destroyed 
because the Federal law says that rule violated declared the 
meat ``adulterated,'' and adulterated meat is to be recalled.
    Senator Harkin. Right.
    Secretary Shafer. This is not--and that's why we have 
different classes of recalls. We have a Class I recall, which 
is a food safety issues, and we've certainly had that and 
overseen those at the agency, and at the Department. We have 
Class II recalls which say, ``Rule violations are important, 
there's no health risk, but we must pull it back,'' and there's 
a Class III recall, as well.
    Senator Harkin. But, the fact is----
    Secretary Shafer. So, that's why we have the different 
variations of the recall.
    Senator Harkin. But the fact is, that we don't know if 
these animals that were portrayed on this video were, indeed, 
sick or not. Do you know that?
    Secretary Shafer. I would submit, you know, Senator--I want 
to say Mr. Chairman----
    Senator Harkin. Not here.
    Secretary Shafer. Yeah, not here.
    I would submit, Senator, that we believe, and the USDA has 
deemed through the process that the food supply is safe.
    Senator Harkin. Listen, Mr. Secretary--I agree with you. 
But, the fact remains, there are rules in place to protect the 
safety of food.
    Secretary Shafer. Yes.
    Senator Harkin. Now, you do have Class II recalls for rule 
violations, but the fact is, unless you can inform me 
differently--or someone else, maybe Mr. Almanza or someone 
can--the fact is, we don't know if those animals that we saw 
that were being scooped up by a forklift and stuff, that 
couldn't stand--we don't know if they were sick or not. We 
don't know that. And because we don't know it, we had to recall 
143 million pounds of beef, because we don't really know.
    Secretary Shafer. Senator, what we do know is that the cows 
that go--went into processing facility that are suspect for 
being downer cows--were passed by a veterinarian and approved 
to go into the food supply. They did not----
    Senator Harkin. Was this before--was this before the 
animals were depicted on the video?
    Secretary Shafer. I would say from watching the video and 
I----
    Senator Harkin. Yes.
    Secretary Shafer [continuing]. You know, I wasn't there, I 
watched it, like you did. I would say that there were some cows 
on that video--this is my opinion----
    Senator Harkin. Yes.
    Secretary Shafer. There were some cows on that video that, 
when I saw them on the ground being rolled around with a 
forklift, I--my thought is, they were not approved by the 
veterinarian, and that there were cows that went down after the 
inspection. And we saw one cow, in the video, that was pushed, 
tugged, pulled, into the knock box right at the entrance--not 
laying in the field, not being rolled around, not being pushed 
or prodded--but it went right into the knock box, it went down. 
That was the violation, a veterinarian is supposed to be called 
there, and was not.
    So, I don't see any evidence to the effect that----
    Senator Harkin. Yes.
    Secretary Shafer [continuing]. There were sick cows that 
went into the food supply.
    Senator Harkin. But, I think the facts are--at least what 
we do know, already--I think what we know is that the company 
did not call any veterinarian, did not call for veterinarian 
inspections after that.
    Secretary Shafer. That's correct.
    Senator Harkin. Well, we know that, so therefore we don't 
know if they were sick or not.
    Now, faced with that, and faced with the possibility that 
people could become sick, the reason for the rule, as you know, 
on downer cattle, is because downer cattle are susceptible to 
salmonella, E. coli, who knows what else? And that's why we 
have these rules on downer cattle.
    It's nothing new, I remember something that happened on 
this back in Colorado 30 years ago, with the Stankey boys. 
Well, I won't get into that right now. Do you remember that?
    Secretary Shafer. Sure.
    Senator Harkin. So this is nothing really new. But you'd 
think we'd have learned our lesson from that--that was almost 
30 years ago, if I'm not mistaken. I went out there and held a 
hearing at the time, in Colorado on this. So, when I saw this 
again, I thought, ``Wait a minute, I thought we took care of 
this, 25 years ago. Here it comes back again.''
    But, look, I'm as strong as anyone, wanting to reassure the 
American people that our food supply is safe, but we cannot 
keep saying these things if we don't really know. And I think 
we do a disservice to our own honesty and truthfulness if we 
aren't level with the American people. That, in fact, there are 
rules, and the reason those rules are there is because downer 
cattle can be sick, and if they aren't inspected afterward, we 
don't know if that meat that got into the food chain was safe 
or not. And that's why 143 million pounds of beef was recalled.
    If you are there, Mr. Secretary, saying, ``Absolutely, that 
meat was all okay for everyone to eat,'' then I've got to ask, 
``Why was it recalled?''
    Secretary Shafer. Okay, and that's a fair question.
    First, let me point out that a downer cattle--and the 
reason for, to call a veterinarian for further inspection, is 
because some animals do go down after they've been inspected. I 
would point out to you, sir, that there are interlocking 
inspection services and procedures in place to make sure that a 
BSE concern--which is a downer cow concern--is not a factor to 
the American public.
    And I want to assure the people here that the specified 
risk materials are removed from carcasses as they go to the 
plant. Those have been deemed, maybe, possible for BSE, and we 
have inspectors that make sure they are removed properly from 
the meat supply.
    We have an FDA food ban in place, and the feed for cattle 
has been suspect as a BSE issue, and that has been in place. 
And also, that the cows going into this facility were younger 
cows, and the BSE symptoms and infections show up later in life 
in animals. So, with the interlocking concerns that are in 
place here, we have deemed this food supply as being safe.
    Now, my point with asking the slaughterhouse here, the 
Hallmark/Westland Plant, to pull back their beef for rule 
violations, is because I believe it's important. And as I 
mentioned in my opening statement, I believe that the 
schoolchildren who are eating this must know that rules count, 
that rules matter.
    And I had lunch with kids in California last week. So, you 
know, I think that's important. I think it's important for moms 
to know that their food supply is safe, and good, and that the 
rules are being enforced, and we are making sure that happens.
    Senator Harkin. Well----
    Secretary Shafer. And I think it's important for our 
consumers--both here and internationally--to know that we're 
going to enforce our rules very strongly, whether it's a health 
food risk, whether it's a downer cow risk, or whether these 
are--you know, whatever the rules are, they're there for a 
reason. And it's not a food safety case here, but we're going 
to follow the rules.
    Senator Harkin. Well, we can parse words and we can try to, 
but the fact is, downer cattle, the reason we have the rules is 
because downer cattle are more susceptible. And as I understand 
it, there was not a veterinarian called in to examine these 
cattle afterwards, so we don't know. Unless some evidence 
proves me wrong on this, we don't know, and therefore, for 
public safety and public health, we do a recall on this.
    I agree that recall ought to be done, but I don't know, I 
think we're parsing words to say, ``Well, it's done, not 
because it was a safety reason, just because someone violated a 
rule.''
    Secretary Shafer. That's a----
    Senator Harkin. When they violate a rule, and there is 
concern that violation could be harmful to the public health 
and public safety of people who eat that beef--we don't know 
then there is a recall. And that's why it's done. Better to be 
safe than to be sorry.
    But, my point is--so, I just want to make that clear. I 
dissent from just the fact that you say, ``Well, there was 
absolutely no risk to the public health at all,''--we don't 
know. And because we don't know, we act on the safe side.
    Now, now that gets me back to the--the whole inspection 
service itself, and I heard you say, Mr. Almanza, that you had 
a 4.1 percent vacancy rate. Well, I was told, as of September 
2007, the vacancy rate for in-plant inspectors was about 9 to 
10 percent nationwide--11 percent in the Alameda District, 
where this took place. Dr. Peterson told reporters on February 
21, the vacancy rate is 9 percent, and that to be at full 
employment, USDA would have somewhere north of 8,000 
inspectors. Well, you've got about 7,500 inspectors now. So, we 
have a shortage of about 500.
    The budget that you've sent down to us doesn't include any 
money for any new hires, so--is the vacancy rate 4.1 percent? 
Is it 9 percent? What is it?
    Mr. Almanza. When I was referring to 4.1 percent, Senator 
Harkin, I was talking about in the slaughter plant, the 
slaughter line positions. And even though those positions are 
vacant, we still fill them everyday, by taking offline 
inspectors, and we also have relief inspectors that are roving 
inspectors that fill those line positions. So, never do we have 
a line position that's not filled on a daily basis, but we have 
those backups to substitute when they're there.
    So, when I--and I'm sorry if I misled you--but the 4.1 
percent was just the slaughter vacancy rate. So, it is higher 
in the offline inspections positions, Consumer Safety inspector 
positions, but--that's why I thought we were focusing more on 
the slaughter end of it, and that's why I used that.
    Senator Harkin. I just don't know if I understand that. 
You're short 500 inspectors, but you say you're not short any 
inspectors in the slaughter lines, whatsoever. Is that what 
you're telling me?
    Mr. Almanza. Well, we have vacancies, yes sir, we have 
vacancies--but we fill those vacancies with offline and also 
inspection personnel that we have to back up when people go on 
vacation, when people--when some of our inspectors are off for 
other things. And we use those inspectors to substitute for 
them. So, we always have our slaughter lines fully staffed with 
USDA inspectors.
    Senator Harkin. Do you need 500 more inspectors, or not?
    Mr. Almanza. We'll--certainly if we can hire----
    Senator Harkin. Are you short 500 inspectors?
    Mr. Almanza. To be at 100 percent, yes, we are. However, 
we've never been at that level before.
    Senator Harkin. What's the highest level you've ever been 
at?
    Mr. Almanza. I think where we are today--at 7,500, today.
    Senator Harkin. Well, it would just seem that, lines being 
faster, more meat products--not just beef, but poultry, also, 
going through lines faster than we ever have before, and with 
the safety concerns that we've seen here, that perhaps we ought 
to take another look. And I don't know whether we have the 
money for it or not, but we ought to have more inspectors.
    The last thing I wanted to bring up is this case, here, 
about the video. And I think my staff told me that the chairman 
had recommended maybe a permanent type of a surveillance system 
or something like that out there, which seemed to make some 
sense to me, that we might do that.
    But, I just want to ask you, Mr. Secretary, if an 
inspector--if an inspector had seen these violations, what 
would have been the normal course of action to be taken by the 
USDA? Or maybe Mr. Almanza can answer that.
    Secretary Shafer. Go ahead.
    Mr. Almanza. We would suspend them immediately.
    Senator Harkin. You would have suspended?
    Mr. Almanza. Yes, sir.
    Senator Harkin. The plant?
    Mr. Almanza. Yes, sir.
    Senator Harkin. And stopped their operations right there?
    Mr. Almanza. Yes, sir. And we did that 12 times last year 
in other locations.
    Senator Harkin. Let me ask, let me delve a little further.
    Let's say an inspector had been out there and had seen 
this, and had stopped operations, would there have been a 
recall? Or would the company simply have been required to take 
corrective action, so it wouldn't happen again?
    Mr. Almanza. Actually, they would be required to submit 
preventative and corrective measures, in order for us to allow 
them to begin operations again. And then we would have set up 
some verification activities, which we would monitor on a daily 
basis, to make sure that they are adhering to those.
    Senator Harkin. One of the points I'm getting to here is if 
an inspector had been out there, and had seen this, and had 
stopped everything, we would have been assured that none of 
those downed animals went through the facility.
    Secretary Shafer. That's not--that's not totally correct.
    Senator Harkin. Oh.
    Secretary Shafer. Because a veterinarian is called after 
the ante mortem inspection. And if there's a downed cow, the 
rules say an inspector is called, and observes an animal, and 
either further approves it, or rejects it.
    Senator Harkin. But the company would have been shut down 
during this period of time, the line would have been shut down, 
Mr. Secretary, is that right?
    Secretary Shafer. That's my understanding.
    Senator Harkin. So, the inspector would have seen this 
happen, and he would have shut everything down--you've got to 
stop all of your operations. They would have called in a 
veterinarian. The veterinarian then would have done his 
inspection, and would have certified that the animal was not 
sick?
    Secretary Shafer. Correct.
    Senator Harkin. And could have gone through?
    Secretary Shafer. Correct.
    Senator Harkin. That's what did not happen here.
    Secretary Shafer. That's what did not happen here, the 
veterinarian was not called.
    Senator Harkin. No, what didn't happen here was, also, that 
the inspector wasn't outside to stop it, either.
    Secretary Shafer. What happened here is that, that the 
veterinarian was not called, the rules and regulations that the 
USDA set for that plant were not followed.
    Senator Harkin. But the inspector was not out there to stop 
it. If the inspector had been there, he would have stopped it.
    Secretary Shafer. The inspector was to be called, and was 
not.
    Senator Harkin. To be called by whom?
    Secretary Shafer. By anybody that saw the downed animal.
    Senator Harkin. But why isn't the inspector out there? 
There were four inspectors, I understand, at this plant.
    Secretary Shafer. Five, I believe, sir.
    Senator Harkin. What? Five?
    Secretary Shafer. Five, I believe.
    Senator Harkin. But not one was outside?
    Secretary Shafer. The--the process is, the ante mortem 
takes place and cows are rejected or approved for processing.
    Senator Harkin. Yeah?
    Secretary Shafer. The approved go into a facility after the 
veterinarian does that, and then the veterinarian goes onto 
other inspection services in the plant.
    Senator Harkin. So, you leave it up to the company, if they 
see a downer animal, to call the veterinarian or to get the 
inspector out there, I guess.
    Secretary Shafer. We don't leave it up to them, we require 
them to do so, and as seen here--you know, the penalties have 
been severe.
    Senator Harkin. Well, I think that's a very poor 
requirement. You know? Talk about the fox guarding the hen 
house, boy this is a classic case of it.
    I think what we've got to do, Mr. Chairman, is ensure--I'll 
work with you on this, as both authorizing and appropriating 
committee, to ensure that in these facilities, that we have on-
site inspectors. I think the public requires it. I think the 
safety of our food requires that. And we can't just rely upon 
the company, I mean, they--what the heck? They may not want to 
call them. They may say, ``Ah, it's okay, just shove it in 
there,'' you know how that goes.
    As I said, I saw this 20--what year was that thing there 
out in Colorado? That must have been about 1981 or 1982 or 
1983--somewhere in that timeframe out there.
    Mr. Almanza. That was that the Stanko----
    Senator Harkin. Stanko thing.
    Mr. Almanza. Yes, that was in about 1978.
    Senator Harkin. Okay, it was even before that. I was 
chairing the Livestock Subcommittee on the House side, on the 
Agriculture at that time.
    Mr. Almanza. Yes, sir.
    Senator Harkin. That's what they were doing.
    Mr. Almanza. Well, first----
    Senator Harkin. They were dragging in downer cattle, and 
slaughtering them, and stuff, at the same time. They actually 
went to jail for it.
    Mr. Almanza. Yes, they did.
    Senator Harkin. And I thought, you know, you'd think 
through the years we'd learned our lesson on that, but 
evidently we haven't. I just think that we've got to re-think 
about our inspection system, there have to be on-site 
inspectors that are there, and that they aren't just all in the 
building at one time. And I've heard all talk about, well, 
people did walkie-talkies, and warned people when they were 
coming out, and stuff like that--and you can't rely on the 
company to do it. You've got to have inspectors, and by the 
way, if I don't mind saying so right now--inspectors who are 
paid for by the taxpayers of this country, and not paid for by 
user fees put upon companies.
    I, to me, I've fought this all my life here, this idea--and 
every administration, you aren't the first, one before you 
tried it, too, so it's Democrats and Republicans both, so it's 
not one party or the other--they keep trying to put user fees 
on there. And I said, no. This is for the public health, and 
they ought to be public employees and paid for by the public, 
and not by the companies. Then you get back into that old fox 
in the hen house again. So, I just wanted to make that 
statement.
    But, I really think that we've got to reexamine the number 
of inspectors, and how those inspectors are assigned to do the 
ante mortem type of inspection. Post-mortem seems to be okay, 
the ante mortem, though, now I'm concerned about what's going 
on in other places.
    Mr. Almanza. If I may?
    Senator Harkin. Yes, sir.
    Mr. Almanza. I started my career as a slaughter inspector, 
and did ante mortem on thousands of animals, and so I 
understand where you're coming from.
    However, there is--the inspectors go out there with the 
veterinarian, they go out there and they do ante mortem 
inspection of 100 percent of the animals that are presented for 
inspection. So, every single animal that's going to come in, 
gets viewed by either an inspector, or a veterinarian.
    Now, what we were--what you're alluding to in that area of 
the alley way, as they refer to it in the meat establishments--
is the area between the pens and the knock box. And it's a very 
narrow passageway to keep the animals from being disturbed, and 
try to turn around in these areas. And so that area is where 
that cow went down, the cow that the Secretary was talking 
about. It was after it had received ante mortem inspection, in 
the pen, and it was being run through the alley, down to the 
knock box. And that animal went down in that area, which is in 
close proximity to the knock box.
    So, it had received inspection. And so what should have 
occurred was, someone from the plant should have come and 
notified the veterinarian that an animal went down, and then 
the veterinarian should have come out there and looked at the 
animal, and if it was an acute injury of some sort, then he 
would make the determination of whether it would go into the 
food supply, or not. That's the way it's supposed to work.
    Senator Harkin. Well, it obviously didn't work that way, 
because in the video I saw, there was no way you could get a 
four-wheel forklift in that narrow passageway.
    Secretary Shafer. Yes, and we should be clear that that 
video had animals in it that obviously would not have passed 
veterinary inspection for further processing. There were many 
animals that were shown here that were not approved by this 
veterinarian.
    We have evidence of, cows after the inspection, that went 
down in the alley way that Al talked about. But everything in 
that video did not----
    Senator Harkin. The animals I saw in that video were 
approved by the inspector before that, is that what you're 
saying?
    Secretary Shafer. No, no sir. That's not what I'm saying.
    Senator Harkin. Okay, then let's be clear, I think people 
need to know what we're talking about, I think there's some 
confusion.
    Before those animals, when they were in the holding pens, 
before they were sent down that chute, you just told me that 
each one of them was visually inspected by some inspector, each 
one of them, is that what you said?
    Secretary Shafer. Senator, Senator--I think the issue here 
is we are not aware, and we have The Humane Society here, and 
maybe could answer this question. We're not aware that every 
animal in that video went into the food supply. It's my 
contention that some of those animals that were being rolled 
around, did not--and were not passed by the veterinarian. Some 
that did, were passed, went into the alley way and went down 
before it went into the knock box.
    So, I think we have to investigate, and part of our 
investigation is to be clear about the video, and which animals 
did go into the food service, and did not.
    I believe that there were some efforts in The Humane 
Society's video that mixed cattle that were sick and 
inappropriate to go in, and cattle that were not sick, and were 
deemed, that would have been deemed to go in.
    So, I think--I think we have to be careful that everything 
on that video doesn't show animals that went into the food 
supply.
    Senator Harkin. Thank you.
    Senator Kohl. Thank you, Senator Harkin.
    Senator Harkin. I went over my time. Thank you very much.
    Senator Kohl. We're going to move on to the next panel. I 
just want to make this comment, I said to you about an hour 
ago--the last thing we want, I think, any of us, is to leave 
the impression with the American people that we don't have a 
serious problem. We need to be careful.
    Secretary Shafer. Thank you, Senator.
    Senator Kohl. A 143 million pounds of product were 
recalled. People across the country saw those pictures--they 
recoiled. They said, ``There's a problem, somewhere, somehow, 
that is serious.'' And we don't want this hearing to give the 
indication that the problem isn't a serious problem, that 
requires some strong action.
    Isn't that true, sir?
    Secretary Shafer. That is true, Mr. Chairman, and I think 
that we've shown that we are--it is a serious problem--and 
we're taking strong action.
    I also don't want to leave this hearing with the impression 
that this is not a Class II recall--which is not a public 
health issue. A Class II recall says there's a remote 
possibility of a problem----
    Senator Kohl. But isn't it also true that this whole 
problem was uncovered by a camera that wasn't even yours? It 
was from The Humane Society.
    Secretary Shafer. Absolutely.
    Senator Kohl. Shouldn't you be responsible for uncovering 
these situations yourself? Isn't that serious? Do we need an 
implant, or somebody who figures out a way to get in, and 
unnoticed, and then takes these pictures, and the American 
people see them?
    Secretary Shafer. I----
    Senator Kohl. Why don't you have a system that uncovers 
this kind of inhumane treatment of animals? Which is--what you 
call--a violation of rules, call it whatever you want. That's 
your responsibility to deal with, isn't it, sir?
    Secretary Shafer. It is, sir. And----
    Senator Kohl. That's all we're saying----
    Secretary Shafer. And the point is we have----
    Senator Kohl. We keep on coming back to the fact that this 
is not really a--this is a rule two violation, which means, 
``Hey, it's not all that serious.'' But, the American people 
don't feel that way.
    Secretary Shafer. Well, and neither does USDA. We've taken 
it seriously, which is why we asked the meat be recalled. But I 
would point out that it is a Class II recall. And the American 
people should not be concerned about the safety of their food 
supply.
    You are right. The Humane Society brought this to our 
attention, and that is inappropriate for USDA. We need to be on 
top of these inspections, we need to understand it, and I'm 
confident that our--now-investigation will lead us to finding 
out how it happened, why it happened, and what corrective 
measure we have to take for the future to make sure it doesn't 
happen again. And we are committed to doing that.
    Senator Kohl. That's great. Thank you, we appreciate your 
coming today.
    Secretary Shafer. Thank you.
    Senator Kohl. Thanks, Tom.
    Thank you so much.
    Secretary Shafer. Thank you, Mr. Chairman.
    Senator Kohl. And now we will, we will go to second panel, 
we'll take testimony from Wayne Pacelle, who is President of 
The Humane Society, and from Patrick Boyle, who is President of 
the American Meat Institute.
    Mr. Pacelle, go right ahead.

STATEMENT OF WAYNE PACELLE, PRESIDENT AND CEO, THE 
            HUMANE SOCIETY OF THE UNITED STATES
    Mr. Pacelle. Mr. Chairman, I want to thank you and your 
colleagues for not only having this hearing today but also for 
this committee's consistent--I want to thank this committee for 
its consistent attention to the issues of ante mortem 
inspection, and the humane treatment of animals at 
slaughterhouses.
    You--also full committee Chairman Byrd, Ranking Member 
Bennett--since 2001, have added $39 million to the budget for 
ante mortem inspections, because you've long been concerned 
about this, and we deeply appreciate that at The Humane Society 
of the United States.
    It was in 1956, 1957, and 1958 that Fred Myers, who was the 
founder, the first CEO of The Humane Society of the United 
States, first testified on the problem of cruelty in American 
slaughterhouses before congressional committees--including 
this, this same subcommittee.
    It was 50 years ago, this summer, that the Congress passed 
the Humane Slaughter Act, codifying the point that there are 
certain practices--at that time, the use of clumsy, long-
handled, pull-axe hammers--that are repugnant to the Nation's 
moral code, that were used.
    Half a century has passed, and we are once more before you, 
to draw your attention to certain other cruelties that, we 
believe, are not only repugnant to our Nation's moral code 
today, but also a threat to the safety of the food supply.
    Mr. Chairman, you spoke movingly about the video and the 
cruelty that occurred. And I won't regale the subcommittee with 
all of the details of all of this cruelty. But I will tell you, 
addressing the comments of the Secretary of Agriculture who, I 
think, has taken this matter very seriously, and it's very much 
appreciated by The Humane Society--that this notion that 
there's some great safety net here, that these veterinarians 
are doing very close inspections of these animals--is false.
    Let me tell you about this plant, according to our 
investigator. This was a small, to medium-sized, plant--really 
on the smaller side. They're doing 500 cattle a day, almost all 
of them were spent dairy cows.
    And the veterinarian would come at 6:30 in the morning, and 
then he would come back at 12:30 and he approved about 350 in 
the morning, and then 150 in the afternoon. He would make a 
visual inspection, at a distance, of 25-30 animals at a time. 
The idea that there's some, you know, very close scrutiny 
that's occurring with each individual animal, that we're really 
safeguarding the food supply is just not the reality of what is 
happening on these plants.
    And you can imagine, if we're talking about a higher volume 
of animals going to slaughter, and you have one ante mortem 
inspector who is there for 2 or 3 hours a day, making a distant 
visual inspection--we should not provide false assurances to 
the public of the food supply. Nor do we need to be alarmists, 
but we need to be cognizant of, really, the situation on the 
ground, and how the inspections are occurring.
    And that's why, you know, we are concerned--not about just 
exposing this particular company--but what this case 
illuminates about the larger circumstances in American 
slaughterhouses, and what's happening on the ground.
    Mr. Chairman, we heard--I think--real parsing of this 
issue, on the whole issue of downers, and I just wanted to make 
it clear what's going on, on the whole downer issue.
    For years, we were allowing downers into the food supply--
for years. Not only 30 years ago, in 1976, but just up until a 
few years ago. The only reason it changed is we had the first 
case of a BSE-positive cow in the United States. There have 
been several in Canada, but finally we had one in the United 
States. It was a downer cow, and it was precisely the 
circumstance that we had warned against for years, that the 
downer cows--as Senator Harkin has indicated--are more 
susceptible to certain pathogens than ambulatory, or walking 
cattle.
    So, this downer cow found its way into the food supply--44 
nations closed their markets to American-produce beef within a 
couple of weeks. The Nation was scared, then Agriculture 
Secretary Veneman passed a rule--an emergency rule--to ban any 
downer cows in the food supply. We supported that, it was the 
right policy--it would have been the right policy 10 years 
before, it would have been the right policy 30 years before. 
But it took a crisis to precipitate action.
    Yet, unbelievably, USDA didn't make that rule final until 
July 2007. Doing the math, that's 3.5 years later, after they 
published the emergency rule. They didn't finalize it, and when 
they finalized it, they weakened it.
    And they weakened it to allow this notion, which is still 
mystifying to me, that if the animal goes down later in the 
process--after the ante mortem inspection, which I mentioned, 
is not all that vigorous--that somehow the veterinarian can be 
called back, and make a judgment, again, with a visual 
inspection, not a lot of tests going on here, and then allow 
that animal to be slaughtered.
    Well, the animal is down for a reason. And the idea that 
somehow you can detect an acute physical injury by a broken 
leg, and say that's the sole reason that the animal is down--
Senator Bennett is not here, but he said he fell and, you know, 
one time, and went down.
    Well, people may fall because they're ill--they just don't 
fall out of nowhere. They may fall because they have a 
neurological problem, they may not be feeling well, they may be 
dizzy. The reason that they fall is because there's an 
underlying medical problem. And some animals may slip and fall, 
and maybe no medical problem at all with the animal, but you 
have many animals that may fall because they're injured. And 
you cannot separate the acute injury from a longer-standing 
illness, and that's why we need a ``no downer'' policy--as you 
said, Mr. Chairman, that's a bright-line policy that doesn't 
allow any of these animals into the food system, because we're 
being penny-wise, and pound-foolish.
    They want to squeeze these animals, they want to squeeze 
every last dime out of them, and what's the consequence? Our 
export markets are closed, consumer confidence is diminished, 
companies go out of business--does this make any economic 
sense, except in the narrowest terms?
    We need to strengthen enforcement in addition to dealing 
with the downer issue. We need more inspectors observing live 
animals, we need rotations of the inspectors, we need actual 
criminal penalties for forcefully striking an animal with an 
object, dragging an animal, ramming, or otherwise attempting to 
move an animal with heavy machinery, using electric shock, 
water boarding the animals--putting a hose in their mouth and 
their nostrils and attempting to simulate a drowning effect, to 
get these poor, hapless animals up, because they're in such a 
state of torment, that they will try to get away and get up? 
Those should be criminal penalties. We shouldn't just have to 
shut down the plant for an hour or two hours. These people 
should be subjected to criminal penalties.
    We also, we need a comprehensive animal welfare set of farm 
animal policies that we don't have. And I just wanted to say 
that this issue of isolated case--you know, if USDA had known 
about this, which obviously they did not, as Secretary Shafer, 
I'm sure, would have done something if he had known about it--
if they had known or the industry had known, they would have 
shut this plant down. Now, they're telling us that there are 
more than 600 other cattle slaughterhouses--while they didn't 
know about this one, in Chino, but they know about all of these 
others?
    This was a random selection. Our investigator chose this 
site at random. This was not some broad risk assessment of 50 
plants, and then we said, ``Okay, here's the highest-risk 
plant, let's do a deeper dive, and find out what's going on,'' 
we chose this at random. That is a troubling fact in this 
circumstance.
    And I'll also tell you--going to the point that it is 
probably not an isolated case--that it was the USDA's own 
Office of Inspector General that chastised the agency in 
January 2006, for its inconsistent application of policies and 
regulations related to downed animals, after observing downers 
processed at two facilities.
    I just wanted to remind you, it was January 2004--right 
after the mad cow case--Veneman passed the rule. Yet, FSIS 
issued this, this inspection guideline that told inspectors 
that they could approve animals that went down, after ante 
mortem inspection. FSIS was violating their own rule that USDA 
had publicly promulgated, and assured the public that the 
product was safe.
    So, it was the OIG that found this, so it's not isolated--
and we can submit the OIG report. I know that your staff has 
seen it.
    You know, we need a rigorous inspections program, because 
reckless behavior by a single company can have national and 
global implications. How many other crises, recalls and public 
scares will we tolerate, before we adopt an unambiguous policy 
banning downer cattle in the food supply?
    You know, we went through this with the mad cow case, and 
now are we going to fine-tune this again, we're going to allow, 
you know, a little more inspection of downers? But, we're still 
going to have them get into the food supply? We need a bright-
line on this.
    You know, we are pleased to work with the USDA, we'll offer 
honest criticism, when warranted, but at the end of the day we 
want the agency to do better in, an admittedly difficult 
assignment, of assuring humane handling of so many animals that 
go to slaughterhouses. That's why we worked hard with your 
committee to get more funding for this program.

                           PREPARED STATEMENT

    But today, we need a new commitment, and perhaps new 
approaches to handling the questions before us today. We need 
to apply innovations, such as surveillance cameras, and humane 
handling, because there's a moral imperative to do so. What 
happened to these animals is unconscionable. We should not 
tolerate this abuse of living, suffering, feeling creatures.
    These animals are killed so that people can eat them. And 
the least we can do is to see that their suffering and fear are 
minimized to the greatest extent possible.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Wayne Pacelle

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify in the wake of a hidden-camera investigation of 
a dairy cow slaughter plant in southern California conducted by The 
Humane Society of the United States. The Humane Society of the United 
States, as you know, is the Nation's largest animal protection 
organization with 10.5 million supporters nationwide, and I serve as 
president and CEO of the organization.
    Our undercover investigator worked at the Hallmark/Westland Meat 
Packing Company for approximately 6 weeks at the end of 2007. The 
investigator witnessed and documented egregious mistreatment of 
animals, particularly downed cows too sick or injured even to stand or 
walk. He filmed workers ramming cows with the blades of a forklift, 
jabbing them in the eyes, applying painful electrical shocks often in 
sensitive areas, dragging them with chains pulled by heavy machinery, 
and torturing them with a high-pressure water hose to simulate 
drowning, all in attempts to force crippled animals to walk to 
slaughter. In one case, he videotaped a cow who collapsed on her way 
into the stunning box. After she was electrically shocked and still 
could not stand, she was shot in the head with a captive bolt gun to 
stun her and then dragged on her knees into slaughter.
    This investigation has done more than expose one company's abusive 
practices. It has led us to the inescapable conclusion that there are 
serious shortcomings in the U.S. Department of Agriculture's (USDA's) 
policy on handling downer cattle and the agency's ante-mortem 
inspection program.
    Downed cattle are more likely to be infected with BSE--bovine 
spongiform encephalopathy or ``mad cow disease.'' Studies also suggest 
that they may be more likely to harbor foodborne bacteria, such as E. 
coli and Salmonella, which kill hundreds of Americans every year, as 
these non-ambulatory animals often lie in bacteria-laden waste and may 
have higher levels of intestinal pathogens due to stress. Children and 
the elderly are more likely to fall victim to severe illness requiring 
treatment and hospitalization as a result of both of these pathogens. 
For a more detailed discussion of the human health risks associated 
with the slaughter of downed cattle, please see the addendum to this 
testimony.

The Investigation
    In fall 2007, our investigator applied for a position with the 
Chino, California-based Hallmark Meat Packing Company, a federally 
inspected slaughter plant, which supplied carcasses to Westland Meat 
Company, which, in turn, processed the carcasses into ground beef. The 
companies were affiliated and essentially treated as one entity; they 
operated from the same building and shared the same USDA registration 
number. From USDA's own records, we learned that in 2007 Westland was 
the second-largest supplier of beef to USDA's Agricultural Marketing 
Service (AMS). As you know, AMS purchases beef for distribution to 
needy families, the elderly, and also to schools through programs, 
including the National School Lunch Program, administered by the Food 
and Nutrition Service. Westland was named the USDA ``supplier of the 
year'' for the 2004-2005 academic year.
    It is critical to point out that we did not do a broad risk 
assessment of a large number of plants and then conduct a more thorough 
examination of a high-risk facility. The plant was selected at random, 
and during the course of the investigation, we learned that Westland 
was the number-two beef supplier to the National School Lunch Program 
and to other USDA commodity distribution programs. We learned after the 
field portion of the investigation that Hallmark/Westland had 
previously been cited for mishandling animals.
    The investigator's job at Hallmark was to help drive cattle from 
transport trucks and holding pens into a chute that led to the killing 
floor. He regularly worked grueling 10-hour days, 5 or 6 days a week. 
The job of getting tired, bewildered, and hungry cattle to move is 
challenging and made even more difficult when the animals are primarily 
end-of-production, or ``spent,'' dairy cows, who are often sick, 
injured, and suffering.
    Every day, he witnessed blatant and commonplace cruelties inflicted 
on animals by employees who purposefully ignored regulations meant to 
prevent the torment and abuse of downed animals simply so they could 
get these cattle who could not even walk into the kill box. These were 
not isolated incidents of mistreatment of downed cattle, but deliberate 
acts that happened routinely at the plant. They were part of the 
culture of the operation.
    A USDA inspector was only present in the live animal area twice 
daily at 6:30 a.m. and 12.30 p.m.--predictable times at which he merely 
noted those animals who could not stand and then approved the remainder 
for slaughter. Let me emphasize the lack of rigor in the approval-for-
slaughter process. The veterinarian did not make an animal-by-animal 
inspection, but simply took a look at large groups of animals, 30 or 35 
at one time, as they passed by him, and if the animals could stand or 
walk, he would approve them. The inspector typically approved 350 
animals for slaughter in the morning and then about 150 animals in the 
afternoon inspection.
    The horrific treatment of animals we documented is being downplayed 
as an unconscionable aberration--the work of just a handful of rogue 
employees. We do not believe this is an accurate characterization. It 
has come to light that Hallmark/Westland had a long, documented history 
of abusing downed cattle. In fact, the Food Safety and Inspection 
Service (FSIS) cited Westland in 2005 for mishandling animals, and the 
local Pomona Valley Humane Society and SPCA notified USDA three times 
about possible violations in 1996 and 1997. In 1996, the Pomona Valley 
Humane Society sent a letter to Hallmark, with a copy to USDA, stating: 
``We have had numerous incidents with your facility in the past 
involving downer animals and loose animals creating public safety 
issues.'' In 1993, Farm Sanctuary produced undercover footage of 
downers being lifted by forklift at Hallmark, prompting introduction of 
a California downer cattle law the next year. Either management 
provided instructions to get the downers moving or was asleep at the 
wheel and let employees run wild--in either case, it's an indictment of 
management.

USDA Policy
    In terms of the larger picture of USDA oversight, we also know that 
slaughtering nonambulatory cattle was not isolated to this plant. It 
is, in fact, allowed under current USDA rules. A shift in policy to 
allow downed cattle in the food chain marks a retreat from a strict no-
downer policy that USDA had in place on the books since the beginning 
of 2004.
    Specifically, on December 30, 2003, USDA announced: ``Effective 
immediately, the USDA will ban all downer cattle from the human food 
chain.'' This announcement came 1 week after public disclosure of the 
first U.S. case of BSE--a dairy cow in Washington State who was 
identified by a USDA veterinarian as downed due to calving injuries and 
later tested positive for BSE.
    USDA has broadcast its no-downer policy as a key protective 
firewall against BSE. Most Americans had no idea that meat from animals 
too sick or injured to walk on their own could end up on their dinner 
plates. The agency's announcement helped ease public panic in the 
United States over the first domestic BSE case and maintain consumer 
confidence both in the safety of the food supply and in the basic 
humane treatment of animals at slaughter plants. The announcements were 
also widely publicized to provide assurances to America's trading 
partners, dozens of which had closed their markets to U.S.-produced 
beef after the BSE finding.

Unacceptable Loophole
    In January 2006, the USDA's own Office of the Inspector General 
(OIG) chastised the agency for its inconsistent application of policies 
and regulations related to downed animals after observing downers 
processed at two facilities. The use of a forklift was observed to 
transport the animals to the slaughter area. The OIG found that 29 
downer cattle were slaughtered for human food at a sample of 12 
slaughter plants checked during a 10-month period. If this were a 
representative sample it would suggest that more than 100 slaughter 
plants may be processing downed cattle across the country. The OIG 
audit noted the lack of documentation on the animals' fitness for 
consumption.
    For years, USDA has publicly boasted about its comprehensive no-
downer policy but circumvented it behind the scenes with a loophole 
that permitted slaughter of some cattle unable to walk. The agency has 
failed to follow its official interim policy published on January 12, 
2004, which specified that all downer cattle would be excluded from the 
human food supply, ``regardless of the reason for their nonambulatory 
status or the time at which they became non-ambulatory. Thus, if an 
animal becomes nonambulatory in route to the establishment due to an 
acute injury, it must be humanely removed from the truck, humanely 
euthanized, and the carcass properly disposed of. Likewise, cattle that 
become nonambulatory on the establishment premises, such as an animal 
that breaks its leg as it is unloaded from the truck, are also required 
to be humanely moved, humanely euthanized, and the carcass properly 
disposed of.''
    The agency's January 12, 2004 regulation defined ``nonambulatory 
disabled'' cattle as any who ``cannot rise from a recumbent position or 
. . . cannot walk, including, but not limited to, those with broken 
appendages, severed tendons or ligaments, nerve paralysis, fractured 
vertebral column, or metabolic conditions.'' \1\ Since BSE can result 
in an animal going down either directly, because of brain damage, or 
indirectly, by predisposing an animal to injury, these downed cattle 
were to be euthanized rather than slaughtered for human consumption.
---------------------------------------------------------------------------
    \1\ U.S. Department of Agriculture Food Safety and Inspection 
Service. 2004. Prohibition of the use of specified risk materials for 
human food and requirements for the disposition of non-ambulatory 
disabled cattle; meat produced by advanced meat/bone separation 
machinery and meat recovery (AMR) systems; prohibition of the use of 
certain stunning devices used to immobilize cattle curing slaughter; 
bovine spongiform encephalopathy surveillance program; interim final 
rules and notice. Federal Register 69(7):1861-74. http://
www.fsis.usda.gov/OPPDE/rdad/FRPubs/03-025IF.pdf. Accessed February 19, 
2008.
---------------------------------------------------------------------------
    The same day that the regulations were published, however, the USDA 
issued Notice 5-04 behind-the-scenes, instructing inspecting 
veterinarians how to carry out the regulations. In contrast to both the 
public claims by USDA and the interim rule itself, the agency 
instructed inspectors to allow downed cattle to be slaughtered for 
human consumption if they initially appeared otherwise healthy but went 
down within the slaughter plant itself due to an acute injury.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Agriculture Food Safety and Inspection 
Service. 2004. Notice 5-04. Interim guidance for non-ambulatory 
disabled cattle and age determination, January 12. http://
www.fsis.usda.gov/OPPDE/rdad/FSISNotices/5-04.htm. Accessed February 
19, 2008.
---------------------------------------------------------------------------
    In July 2007, USDA finally made permanent its so-called ``ban'' on 
slaughtering downer cattle. But instead of closing the loophole 
identified by the OIG, the agency codified it, acknowledging that some 
downer cattle have been, and will continue to be, processed for human 
food. USDA's final rule specifies that ``FSIS inspection personnel will 
determine the disposition of cattle that become non-ambulatory after 
they have passed ante-mortem inspection on a case-by-case basis.'' In 
other words, those who are able to walk when initially inspected by 
USDA but then keel over and cannot stand up again can nevertheless be 
slaughtered, and the meat can be sold.
    This loophole is reckless from a public health perspective and 
promotes the inhumane handling of downer cattle. It is unacceptable on 
both counts.
    A food safety system that relies on inspectors evaluating downers 
on a case-by-case basis is unworkable. Determining why an animal is 
down is challenging if not impossible for inspectors because injury and 
illness are often interrelated--e.g., a broken leg may simply be the 
observable result of the weakness, abnormal gait, or disorientation 
associated with an underlying disease. At least three of the documented 
cases of BSE in North America were identified as downers due to injury, 
not illness, showing how difficult it is for inspectors to reliably 
sort out which non-ambulatory animals are ``safe.'' The first case of 
BSE discovered in Canada was thought to be ``suffering from a broken 
leg.'' \3\ The first identified case in the United States similarly did 
not seem to display any BSE symptoms, but was reported down due to a 
calving injury.\4\ She was seemingly picked at random as one of perhaps 
less than 1 percent of the downed cattle tested for mad cow disease in 
the United States up until that time.\5\ Another Canadian case was 
suspected of injury rather than disease. The farmer reportedly ``didn't 
suspect anything was seriously wrong when one of his cows slipped on 
the ice and hurt itself . . . '' \6\
---------------------------------------------------------------------------
    \3\ Campbell D. 1993. Killer mad cow disease strikes in Alberta. 
Calgary Herald, December 9, p. D1.
    \4\ U.S. Department of Agriculture. 2003. USDA BSE update (press 
release), December 27. http://www.usda.gov/wps/portal/!ut/p/
    _s.7_0_A/7_0_1OB/.cmd/ad/.ar/retrievecontent/.c/6_2_1UH/.ce/
7_2_5JM/.p/5_2_4TQ/.d/7/_th/J_2_9D/_s.7_0_A/
7_0_1OB?PC_7_2_5JM_contentid=2003/12/0445.html&PC_7_2_
    5JM_navtype=RT&PC_7_2_5JM_parentnav=TRANSCRIPTS_SPEEC. Accessed 
February 19, 2008.
    \5\ Assuming an incidence of 500,000 nonambulatory cattle a year 
[Stull CL Payne MA Berry SL and Reynolds JP. 2007. A review of the 
causes prevention and welfare of nonambulatory cattle. Journal of the 
American Veterinary Medical Association 231(2):227-34] and that such 
cattle represent 75 percent of the those tested over the 14 years of 
USDA testing as was the case in 2002-2003 [USDA Release No. 0457.04 
Office of Communications 202 720-4623 BSE Update January 2 2004. 
www.usda.gov/wps/portal/!ut/p/_s.7_0_A/
7_0_1OB?contentidonly=true&contentid=2004/01/0457.html. Accessed 
February 19, 2008.].
    \6\ Johnsrude L and Richards G. 2005. Feed bought after ban fed to 
latest mad cow: 104 other calves had access to same feed in spring of 
1998, Innisfail-area farmer says. Edmonton Journal, January 14, p. A1.
---------------------------------------------------------------------------
    Even if ``only'' a broken leg is involved, dragging an animal with 
a fracture is just as cruel, if not more so. If you've ever suffered a 
broken bone, you can imagine the pain of being pulled by chains or 
rammed with a forklift in that condition.

Lack of Enforcement
    The problems engendered by USDA's loophole are exacerbated by its 
lax enforcement of the downer rules. As documented by our undercover 
investigation, USDA inspectors may only conduct cursory observations, 
coming to check on animals just once or twice a day and disregarding 
their condition for the remaining hours. While USDA inspectors are 
required to monitor and verify humane handling in connection with 
slaughter, including offloading, holding and driving animals in pens 
and chutes, a USDA inspector was rarely present during offloading and 
never observed by our investigator in the pens, except during the 
aforementioned predetermined twice-daily times of 6:30 a.m. and 12:30 
p.m., or by the chutes.
    Despite all the media attention surrounding our investigation and 
the subsequent beef recall and criminal charges against plant workers, 
sick and injured cattle can and likely will still be slaughtered and 
put into the American food supply unless changes are implemented to 
protect animal welfare and protect human health and that of the 
Nation's most vulnerable citizens.

Needed Steps
    --Close Loophole.--An unequivocal, truly comprehensive ban on the 
slaughter of downed animals for human consumption is needed to protect 
food safety and animal welfare. The current protocol that allows 
inspection personnel to ``determine on a case-by-case basis the 
disposition of cattle that become nonambulatory after they have passed 
ante mortem inspection'' is unrealistic and unworkable, and places an 
impossible expectation on the inspector. It also creates financial 
incentives for precisely those abuses that we witnessed in the 
undercover footage.
    A highly visible and vigorously enforced total no-downer rule is 
the right policy. For the animals, removing current incentives that 
encourage workers to try every cruel tactic imaginable to move downers 
to the kill box would alleviate suffering. If crippled animals cannot 
be sold for food, slaughter plants have no reason to prolong their 
misery to try to get them through the slaughter process. Closing the 
loophole would also help create an incentive for all involved in the 
production chain to minimize hazards that can cause animals to become 
downed in the first place.
    USDA can revise its rule immediately, restoring the language it 
promulgated in January 2004. And the Congress can pass the Downed 
Animal and Food Safety Protection Act (S. 394/H.R. 661) to codify a 
national no-downer policy.
    --Strengthen Enforcement.--The USDA must rework its inspection 
program to ensure meaningful compliance. We recommend a combination of 
measures. More inspectors observing live animals are needed, and all 
inspectors should be trained and directed to monitor the treatment of 
live animals to ensure that they are handled humanely. Inspectors must 
understand that their oversight responsibilities begin at the moment 
animals arrive at slaughter premises, including when the animals are on 
trucks at slaughter facilities. An inspector should meet each truck 
when it arrives on the premises and should order the immediate humane 
euthanasia and condemnation of any cattle who are non-ambulatory. 
Egregious conduct such as forcefully striking an animal with an object, 
dragging an animal, ramming or otherwise attempting to move an animal 
with heavy machinery, or using electric shock, water pressure, or other 
extreme methods, should be explicitly prohibited and those policies 
established in a formal rule to take effect immediately. Inspections 
should be unannounced and not on a predictable schedule. They should 
include undetectable inspections on hidden catwalks close enough to the 
animals to allow accurate observation or through video surveillance 
accessible for viewing by independent third parties. Slaughter plants 
should be encouraged to install video cameras that would allow for 
viewing of all of the animal handling prior to slaughter. Finally, it 
would be helpful to rotate inspectors to ensure that they do not become 
too close with plant personnel.
    --Establish Criminal Penalties.--Current Federal law does not 
provide for criminal penalties, even in cases of repeat or egregious 
offenses, for violations of humane handling standards.
    --Ensure Humane Federal Procurement.--H.R. 1726, the Farm Animal 
Stewardship Purchasing Act, would set basic animal welfare standards 
for producers who sell food to the National School Lunch Program and 
other Federal programs, including requiring veterinary treatment or 
humane euthanasia for downed animals.
    Thank you for the opportunity to testify here today on this 
important food safety and animal welfare issue.

                                Addenda

Timing of HSUS Contact with USDA on Case
    HSUS conducted a thorough investigation that took several months, 
with our investigator undercover at the plant for 6 weeks during 
October and November 2007, and then the investigation continuing after 
he left the site as we analyzed documents and compiled further 
evidence. These are long-term investigations, and we don't parachute in 
and know everything there is to know in a single day. If we are going 
to accuse a company of wrongdoing, with broader implications for the 
public, we want to make sure we collect as much evidence to support our 
claims as possible, and we want to be sure to present a fair and 
accurate picture of what went on at the plant.
    Because USDA has rarely taken action against slaughter plants for 
violating humane handling protocols, and also because few local law 
enforcement agencies have ever taken on animal cruelty cases involving 
the mistreatment of farm animals, we thought it essential to amass a 
preponderance of evidence at this plant before terminating the field 
portion of the investigation. There were fundamental humane treatment 
and food safety issues at issue, and we did not want to see the proper 
authorities dismiss the investigation as incomplete or inconclusive, 
and to decide not to take corrective action.
    As soon as the field portion of the investigation concluded and our 
team assessed and organized the enormous volume of video and other 
research materials, we met with staff from the San Bernardino District 
Attorney's office in mid-December. At that time, we provided them the 
evidence of criminal conduct and encouraged them to prosecute the 
perpetrators. Animal cruelty crimes are typically prosecuted by local 
and State law enforcement, and we knew the unacceptable abuses captured 
in the video footage showed that California animal cruelty and downer 
protection laws had been violated.
    The D.A.'s office asked for extra time to assess this information 
before we released it. Staff at that office indicated to us that they 
planned to take action but they were unable to provide a specific time 
line. Because of our history of working cooperatively with local law 
enforcement on animal cruelty cases, and the obvious intention of the 
personnel in the D.A.'s office, we acceded to their request. But at the 
end of January, we decided that we had an obligation to make the 
information public and could wait no longer, even if the D.A.'s office 
was about to take enforcement action and file charges against the 
perpetrators. Although the D.A.'s office had indicated that they 
planned to share the information with USDA, before we released the 
information to the press, I personally called a senior official at USDA 
to make sure the agency knew what was about to be brought to public 
attention.
    Frankly, we did not turn to the USDA first because the agency has 
too often ignored complaints about serious animal welfare abuses, even 
when they are associated with known public health risks. We didn't want 
to turn down a dead end with so much at stake. In fact, it's been 
reported during the past few weeks that other animal protection 
organizations had investigated downer cases at this same Hallmark plant 
and brought the information to USDA's attention on several occasions, 
yet the mistreatment persisted.
    Moreover, USDA was directly implicated in the problems we uncovered 
at this plant. The agency has day-to-day oversight responsibility, and 
was complicit in the failures there. Not only was USDA on site 
throughout every shift when these abuses occurred, the agency was a 
primary purchaser of meat from the plant and had awarded the company 
the honor of being named USDA ``Supplier of the Year'' for the 2004-
2005 academic year. Westland was the #2 beef supplier to the National 
School Lunch Program and to other USDA commodity distribution programs.
    We're glad that USDA is taking this matter seriously now, and we're 
cooperating fully with the agency as it considers this case and the 
broader implications for industry oversight. I also note that we have 
led the effort to marshal substantial congressional support each year 
since 2001 to increase funding for USDA to better enforce the Federal 
humane slaughter law and prevent this type of animal cruelty.
Human Health Risks Associated with the Slaughter of Downed Cattle
    The slaughter of downed cattle raises several serious food safety 
issues. Some studies have shown that nonambulatory cattle may suffer 
from higher rates of foodborne pathogens.\7\
---------------------------------------------------------------------------
    \7\ Stull CL, Payne MA, Berry SL, and Reynolds JP. 2007. A review 
of the causes, prevention, and welfare of nonambulatory cattle. Journal 
of the American Veterinary Medical Association 231(2):227-34.
---------------------------------------------------------------------------
    Texas A&M University researchers were among the first to alert the 
medical community of the potential for downed cattle to present a 
vehicle to contaminate the human food supply with bacterial pathogens. 
They studied 30 downed cattle who had no outward signs of illness, 
except for inability to rise, and had all passed ante mortem 
inspection. Even though these nonambulatory animals appeared otherwise 
healthy, when the researchers took bacterial cultures, they found cows 
infected with Salmonella and E. coli. The researchers concluded: 
``Results of this study of 30 cattle indicate that pathogens may be 
circulating in the blood of some recumbent cattle at the time of 
slaughter.'' \8\ Commenting on areas of concern, the scientists noted:
---------------------------------------------------------------------------
    \8\ Edwards JF, Simpson RB, and Brown WC. 1995. A bacteriologic 
culture and histologic examination of samples collected from recumbent 
cattle at slaughter. Journal of the American Veterinary Medical 
Association 207(9):1174-6.
---------------------------------------------------------------------------
    It should be remembered that much of the meat from recumbent cattle 
goes into the production of ground beef, which, because of the grinding 
process and extra time it spends at a temperature higher than the whole 
carcasses, usually attains a high bacterial cell count per gram by the 
time processing is finished. Contaminated meat used to make ground beef 
would also contaminate subsequent clean meat exposed to common 
machinery (e.g., grinders) and, thus, would increase the danger of 
contamination.\8\
    This research shows that even when downed animals appear otherwise 
healthy, they may be harboring dangerous pathogens.
    The majority of nonambulatory cattle are dairy cows.\7\ Virtually 
all dairy cows are ultimately slaughtered for human consumption in the 
United States.\9\ Annually, 6 million culled dairy cows enter the food 
chain as ground beef,\10\ accounting for at least 17 percent of the 
ground beef produced in the United States.\9\ Since the muscles of 
dairy cows have a lower fat content, they are commonly used in 
producing the more expensive ``lean'' hamburger.\11\
---------------------------------------------------------------------------
    \9\ Troutt HF and Osburn BI. 1997. Meat from dairy cows: possible 
microbiological hazards and risks. Revue Scientifique et Technique de 
l'Office International des Epizooties 16(2):405-14.
    \10\ Hussein HS and Sakuma T. 2005. Prevalence of shiga toxin-
producing Escherichia coli in dairy cattle and their products. Journal 
of Dairy Science 88(2):450-65.
    \11\ Spika JS, Waterman SH, Hoo GW, et al. 1987. Chloramphenicol-
resistant Salmonella newport traced through hamburger to dairy farms: a 
major persisting source of human salmonellosis in California. New 
England Journal of Medicine 316(10):565-70.
---------------------------------------------------------------------------
    According to a 2003 review, downed dairy cattle ``may harbor 
greater numbers of pathogens, and their slaughter may increase spread 
of pathogens at the slaughter establishment.'' \12\ In Meat & Poultry, 
research is cited to explain why nonambulatory cattle tend to have 
higher levels of bacteria on their carcasses: ``Lame animals spend more 
time lying down, which increases the likelihood they will be 
contaminated with fecal matter.'' \13\ In addition to the potential for 
contamination of the meat with fecal pathogens, when dairy cows are 
slaughtered, ``[k]nives, carcasses and the hands of personnel may be 
contaminated by contents of the mammary gland when this is removed from 
the cow during processing.'' \9\ Intramammary infections (mastitis) 
affect up to nearly two-thirds of cows in U.S. dairy herds \14\ and are 
one of the most common reasons dairy cows are sent to slaughter.\9\ 
Inappropriate excision of the udder during the slaughter process can 
contaminate the rest of the carcass with milk that could contain 
Listeria and other milk-borne pathogens. A 1997 review of the 
microbiological hazards of eating meat from culled dairy cows 
concluded: ``In the USA, dairy cattle are raised and managed with 
increasing intensification, and this intensification may promote the 
maintenance of a variety of micro-organisms which could be pathogenic 
to humans through food.'' \9\
---------------------------------------------------------------------------
    \12\ Vanbaale MJ, Galland JC, Hyatt DR, and Milliken GA. 2003. A 
survey of dairy producer practices and attitudes pertaining to dairy 
market beef food safety. Food Protection Trends 23:466-73.
    \13\ Grandin T. 1999. A.M.I. sponsors stunning and handling 
conference. Meat & Poultry, March, p. 48.
    \14\ Nickerson SC, Owens WE, and Boddie RL. 1995. Mastitis in dairy 
heifers: initial studies on prevalence and control. Journal of Dairy 
Science 78(7):1607-18.
---------------------------------------------------------------------------
E. coli O157:H7
    In 2003, a study funded by the USDA was published that investigated 
the ``potential impact to human health that may occur following 
consumption of meat derived from downer dairy cattle'' by measuring 
infection rates of one of the most virulent foodborne pathogens, E. 
coli O157:H7. The investigators found that downed cows were 3.3 times 
more likely to harbor the potentially deadly E. coli strain than 
walking culled dairy cows. The researchers concluded that ``downer 
dairy cattle harboring E. coli O157:H7 at slaughter may be an important 
source of contamination and may contribute to the health risk 
associated with ground beef.'' \15\ The results of this study led USDA 
Microbial Food Safety Research Unit Research Leader John B. Luchansky 
to question whether, based on E. coli alone, nonambulatory cattle 
should be excluded from the U.S. meat supply.\16\
---------------------------------------------------------------------------
    \15\ Byrne CM, Erol I, Call JE, et al. 2003. Characterization of 
Escherichia coli O157:H7 from downer and healthy dairy cattle in the 
upper Midwest region of the United States. Applied and Environment 
Microbiology 69(8):4683-8.
    \16\ Luchansky JB. 2002. Pathogen Reduction Dialogue Panel 4. 
Characterization and Control of Food Borne Pathogens. May 7.
---------------------------------------------------------------------------
    E. coli O157:H7 infects tens of thousands of Americans every year, 
causes dozens of deaths,\17\ and may be the leading cause of acute 
kidney failure in previously healthy U.S. children.\18\ Speculatively 
blamed in part on the increasing intensification of dairy farming,\19\ 
prevalence rates in U.S. dairy herds have ranged up to 100 percent.\20\ 
Quoting USDA researcher Caitriona Byrne and colleagues: ``Due to the 
ubiquity of E. coli O157:H7 among cattle, as well as its low infective 
dose and the severity of the resistant illness in humans, effective 
control of the pathogen may be possible only by eliminating this 
microorganism at its source rather than by relying on proper food 
handling and cooking thereafter.'' \15\
---------------------------------------------------------------------------
    \17\ Centers for Disease Control and Prevention. 2006. Escherichia 
coli O157:H7. National Center for Infectious Diseases Division of 
Bacterial and Mycotic Diseases, December 6. http://www.cdc.gov/ncidod/
dbmd/diseaseinfo/escherichiacoli_g.htm. Accessed February 19, 2008.
    \18\ Razzaq S. 2006. Hemolytic uremic syndrome: an emerging health 
risk. American Family Physician 74(6):991-6.
    \19\ Armstrong GL, Hollingsworth J, and Morris JG Jr. 1996. 
Emerging foodborne pathogens: Escherichia coli O157:H7 as a model of 
entry of a new pathogen into the food supply of the developed world. 
Epidemiologic Reviews 18(1):29-51.
    \20\ U.S. Department of Agriculture. 1997. An update: Escherichia 
coli O157:H7 in humans and cattle. www.aphis.usda.gov/vs/ceah/cei/taf/
emerginganimalhealthissues_files/ecoupdat.pdf. Accessed February 19, 
2008.
---------------------------------------------------------------------------
    A 2005 review in the Journal of Dairy Science likewise concentrated 
on the risk of contracting virulent strains of E. coli from eating 
ground beef from dairy cows that may be tainted with fecal material. 
These toxin-producing strains can cause hemorrhagic colitis and 
progress to kidney failure, coma, and death, particularly in young 
children.\18\ Dairy cattle ``enter the food chain as ground beef,'' the 
review reports, and ``[a]s a result, downer dairy cows harboring STEC 
[Shiga toxin-producing E. coli] at slaughter can be a health risk to 
humans.'' \10\ Meat from diseased and disabled cattle has also been 
implicated in a similar life-threatening disease in dogs.\19\

Salmonella
    Salmonella infection hospitalizes thousands of Americans every 
year, kills hundreds, and can lead to chronic conditions such as 
arthritis, bone infections, cardiac inflammation, and neurological 
disorders.\21\ According to the Centers for Disease Control and 
Prevention, Salmonella strains in the United States are growing 
resistant to nine different antibiotics.\22\ One strain, known as 
Salmonella Newport MDR-AmpC, is even growing resistant to ceftriaxone, 
a powerful antibiotic vital for combating serious infections in 
children.\22\
---------------------------------------------------------------------------
    \21\ D'Aoust JY. 1994. Salmonella and the international food trade. 
International Journal of Food Microbiology 24(1-2):11-31.
    \22\ Centers for Disease Control and Prevention. 2002. Outbreak of 
multidrug-resistant Salmonella newport--United States, January-April 
2002. Morbidity and Mortality Weekly Report 51(25):545-8.
---------------------------------------------------------------------------
    Multiple outbreaks of this new multidrug-resistant Salmonella 
strain have been tied to dairy farms,\23\ ground beef made from dairy 
cows,\24\ and dairy products.\25\ Investigating one deadly outbreak of 
antibiotic-resistant Salmonella involving hundreds of people, 
California public health officials traced the cases back to meat from 
infected dairy cows slaughtered for hamburger. In their report 
published in the New England Journal of Medicine, they were able to 
correlate risk of contamination with the slaughter plants that received 
the most moribund and dead cattle. The researchers noted: ``Stressed 
animals are more likely to shed Salmonella in large numbers.'' \11\
---------------------------------------------------------------------------
    \23\ Gupta A, Crowe C, Bolstorff B, et al. Multistate investigation 
of multidrug-resistant Salmonella serotype Newport infections in the 
Northeastern United States, 2000: human infections associated with 
dairy farms. Centers for Disease Control and Prevention, Atlanta, GA, 
Massachusetts Department of Public Health, and Vermont Department of 
Health.
    \24\ Gupta A, Fontana J, Crowe C, et al. 2003. Emergence of 
multidrug-resistant Salmonella enterica serotype Newport infections 
resistant to expanded-spectrum cephalosporins in the United States. 
Journal of Infectious Diseases 188(11):1707-16.
    \25\ McCarthy T, Phan Q, Mshar P, Mshar R, Howard R, and Hadler J. 
2002. Outbreak of multidrug-resistant Salmonella Newport associated 
with consumption of Italian-style soft cheese, Connecticut. 
International Conference on Emerging Infectious Diseases. Atlanta, GA, 
March. http://www.cdc.gov/enterics/publications/184-mccarthy_2002.pdf. 
Accessed February 19, 2008.
---------------------------------------------------------------------------
    In addition to the immunosuppressive effect of stress, 
nonambulatory animals may also be more likely to shed pathogenic 
bacteria, ``[s]ince animals going to slaughter are generally in a 
temporary state of starvation, and it is known that starvation causes 
E. coli and Salmonella to proliferate'' due to changes that occur in 
the animal's rumen. By the time most cattle are slaughtered, they have 
been starved for variable periods of time, in part because empty rumena 
are easier to eviscerate.\19\ This may be particularly relevant to 
downed cattle populations who may be left to starve for extended 
periods before they are finally slaughtered.
    Carolyn Stull of the University of California-Davis School of 
Veterinary Medicine has studied Salmonella infection in downed cows and 
reported results at a 2004 American Meat Institute conference. Fifty 
downed cows were sampled and seven were found to be infected with 
Salmonella. Despite infection, however, five of the seven infected 
cows, including at least one cow who was septicemic, were known to have 
passed USDA ante mortem inspection for human consumption.\26\ Stull and 
colleagues reportedly identified 6 out of 20 nonambulatory cattle sent 
to a slaughter facility to be fecal shedders of Salmonella.\27\
---------------------------------------------------------------------------
    \26\ Stull C. 2004. Handling non-ambulatory cattle. International 
Meat Animal Welfare Research Conference, February 17. http://
www.meatami.com/Content/PressCenter/IMAWRC/Presentation3STULL.pdf. 
Accessed February 19, 2008.
    \27\ Stull CL, Payne MA, Berry SL, and Reynolds JP. 2007. A review 
of the causes, prevention, and welfare of nonambulatory cattle. Journal 
of the American Veterinary Medical Association 231(2):227-34, citing: 
Maas J, Stull C, Oliver M, et al. 1995. Pilot study to determine the 
medical etiology of disabled dairy cattle at slaughter facilities. In: 
Proceedings: Production Food Safety Workshop, U.S. Animal Health 
Association.
---------------------------------------------------------------------------
Anthrax
    Anthrax is a farm animal disease that can infect, though very 
rarely, the human meat supply.\28\ In 2000, 32 farms were quarantined 
for anthrax in the United States.\29\ That summer, at least five people 
were exposed to meat ``highly contaminated'' with anthrax from a downed 
cow who was approved for slaughter and human consumption. These cases 
were reported by the Centers for Disease Control and Prevention as 
``Human Ingestion of Bacillus Anthracis-Contaminated Meat.'' \30\ Had a 
ban on the slaughter of downed cattle been in effect, these people may 
have been spared. Subsequently, a family stricken with 
gastrointestinal, oropharyngeal, and meningeal anthrax tied to the 
consumption of a sick sheep was reported,\31\ suggesting it may be 
prudent to exclude all nonambulatory animals--not just cattle--from the 
human food supply.
---------------------------------------------------------------------------
    \28\ Swartz MN. 2001. Recognition and management of anthrax--an 
update. New England Journal of Medicine 345(22):1621-6.
    \29\ Centers for Disease Control and Prevention. 2001. Human 
anthrax associated with an epizootic among livestock--North Dakota, 
2000. www.cdc.gov/mmwr/preview/mmwrhtml/mm5032a1.htm. Accessed February 
19, 2008.
    \30\ Centers for Disease Control and Prevention. 2000. Human 
ingestion of Bacillus anthracis-contaminated meat--Minnesota, August 
2000. Journal of the American Medical Association 284(13):1644-6.
    \31\ Babamahmoodi F, Aghabarari F, Arjmand A, and Ashrafi GH. 2006. 
Three rare cases of anthrax arising from the same source. Journal of 
Infection 53(4):e175-9.
---------------------------------------------------------------------------
    Frank Garry, the coordinator for the Integrated Livestock 
Management Program in the College of Veterinary Medicine and Biomedical 
Sciences at Colorado State University, reportedly suggests that the 
slaughter of nonambulatory farm animals may present a threat to 
national security:
    The threat of bioterrorism adds one more reason to end the use of 
nonambulatory animals in human food. An animal that is unable to walk 
because of illness should probably not be processed for human food 
consumption, regardless of whether the animal was intentionally or 
unintentionally contaminated. As long as the USDA continues to 
slaughter diseased livestock, it is possible that a bioterrorist attack 
could make people very sick and undermine confidence in American 
agriculture.\32\
---------------------------------------------------------------------------
    \32\ The Humane Society of the United States. 2002. HSUS calls on 
FDA, USDA and Congress to halt slaughter of diseased livestock (press 
release), January 31.
---------------------------------------------------------------------------
    Culled dairy cows may present particularly vulnerable agroterrorist 
targets as they are slaughtered and ground into hamburger. ``Given that 
only a single infected carcass can contaminate a large lot of ground 
beef,'' wrote USDA researchers in a 1996 review, ``it is possible that, 
whereas in the past an infected animal would produce only a small 
number of cases, such an animal could now cause a large, widespread 
outbreak.'' \19\ According to Robert Tauxe, Chief of the Foodborne and 
Diarrheal Diseases Branch of the Centers for Disease Control and 
Prevention, each burger may reportedly be made from the flesh of 
hundreds or even thousands of different cows.\33\ One hypothetical 
model suggests that a single downed cow infected with a pathogen such 
as E. coli O157:H7 could theoretically contaminate more than 100,000 
hamburgers with an infectious dose.\19\
---------------------------------------------------------------------------
    \33\ Public Broadcasting Service. 2002. Modern meat: interview Dr. 
Robert Tauxe. Frontline, April 18. http://www.pbs.org/wgbh/pages/
frontline/shows/meat/interviews/tauxe.html. Accessed February 19, 2008.
---------------------------------------------------------------------------
Bovine Spongiform Encephalopathy
    Bovine spongiform encephalopathy is a transmissible spongiform 
encephalopathy (TSE) of cattle that may manifest with behavioral 
symptoms, earning the disease its colloquial name ``mad cow disease.'' 
The rendering of sheep infected with an ovine spongiform encephalopathy 
(known as scrapie) into cattle feed may have led to the emergence of 
BSE.\34\ In modern animal agriculture, protein concentrates, or ``meat 
and bone meal''--terms that encompass ``trimmings that originate on the 
killing floor, inedible parts and organs, cleaned entrails, fetuses'' 
\35\--are fed to dairy cows, for example, to improve milk 
production.\36\ According to the World Health Organization, nearly 10 
million metric tons of slaughter plant waste is fed to farm animals 
every year.\37\
---------------------------------------------------------------------------
    \34\ Kimberlin RH. 1992. Human spongiform encephalopathies and BSE. 
Medical Laboratory Sciences 47:216-7.
    \35\ Ensminger ME. 1990. Feeds and Nutrition (Clovis, CA: Ensminger 
Publishing Co.).
    \36\ Flaherty M. 1993. ``Mad cow'' disease dispute: U.W. conference 
poses frightening questions. Wisconsin State Journal, September 26, p. 
1C.
    \37\ World Health Organization. 1999. WHO consultation on public 
health and animal transmissible spongiform encephalopathies: 
epidemiology, risk and research requirements with the participation of 
Office International des Epizooties, Geneva, Switzerland, December 1-3. 
http://www.who.int/csr/resources/publications/bse/
whocdscsraph20002.pdf. Accessed February 19, 2008.
---------------------------------------------------------------------------
    Although the first case of BSE was documented in the United Kingdom 
in 1986, there reportedly exists ``very sound'' evidence that a rare 
form of the disease was already circulating in the United States.\38\ 
One year before BSE was initially reported in Britain, Richard Marsh, 
chair of the Department of Veterinary Science at the University of 
Wisconsin-Madison, was alerting dairy producers of the possibility that 
a ``previously unrecognized scrapie-like disease in cattle'' existed in 
the United States \39\--a concern borne out of investigations of sick 
mink.
---------------------------------------------------------------------------
    \38\ McNair J. 1993. BSE: a ticking time bomb in downer cows? Agri-
View (Iola, WI), June 17.
    \39\ Marsh RF and Hartsough GR. 1985. Is there a scrapie-like 
disease in cattle? Proceedings of the United States Animal Health 
Association Eighty-Ninth Annual Meeting (p. 8).
---------------------------------------------------------------------------
    Mink have proven to be sentinel animals, like canaries in coal 
mines. They were reportedly the first, for example, to show toxicity 
from the vaginal cancer-causing synthetic estrogen diethylstilbestrol 
(DES) and the industrial carcinogens polychlorinated biphenyls 
(PCBs).\40\ Since 1960, there have been four outbreaks of mink 
spongiform encephalopathy known as transmissible mink encephalopathy 
(TME) on U.S. fur farms.\41\ This was perplexing, as researchers had 
been unable to orally infect mink with scrapie-infected sheep 
brains.\42\
---------------------------------------------------------------------------
    \40\ 1992. BSE risk seen in rendered cow protein used in cattle 
feed. Food Chemical News 15:13-4.
    \41\ Robinson MM, Hadlow WJ, Huff TP, et al. 1994. Experimental 
infection of mink with bovine spongiform encephalopathy. Journal of 
General Virology 75(9):2151-5.
    \42\ Marsh RF and Bessen RA. 1993. Epidemiologic and experimental 
studies on transmissible mink encephalopathy. Developments in 
Biological Standardization 80:111-8.
---------------------------------------------------------------------------
    A clue to the origin of the disease came in 1985, when TME 
devastated a population of farmed mink in Wisconsin who had reportedly 
not been fed any sheep.\43\ The meat portion of their diet evidently 
consisted almost exclusively of downed dairy cows.\44\ Marsh 
hypothesized that there was a form of BSE in the United States that 
manifested itself as more of a ``downer'' cow disease than a ``mad'' 
cow disease.\42\
---------------------------------------------------------------------------
    \43\ Beardsley TM. 1990. Tainted feed, mad cows: could a British 
cattle disease infect U.S. herds? Scientific American 262(5):34.
    \44\ Marsh RF. 1991. Risk assessment on the possible occurrence of 
bovine spongiform encephalopathy in the United States. In: Bradley R, 
Savey M, and Merchant B (eds.), Sub-Acute Spongiform Encephalopathies 
(Dordrecht: Kluwer Academic Publishers, pp. 41-6).
---------------------------------------------------------------------------
    Mink were found to be experimentally susceptible to BSE; when mink 
were fed BSE-infected brains from British cattle, they died from a 
spongiform encephalopathy.\41\ The disease was experimentally spread 
from mink to cows and from cows back to mink.\44\ The critical 
experiments, though, involved inoculating the brains of U.S. sheep 
infected with scrapie into U.S. cattle.\45\ In England, scrapie-
infected cows go ``mad,'' twitching and kicking. But, in the United 
States, the ``real surprise,'' \38\ as Marsh recounted, was that 
scrapie-infected cattle instead developed difficulty in rising and 
terminal recumbancy \46\ like downed cattle do.\45\ ``The signs that 
these cattle showed were not the widely recognized signs of BSE--not 
signs of mad cow disease,'' Marsh reportedly said. ``What they showed 
was what you might expect from a downer cow.'' \47\ Scientists have 
identified multiple strains of scrapie.\48\ Marsh posited that one of 
the U.S. strains may have jumped to cattle, creating a form of BSE 
native to the United States.\40\ Said Marsh to a reporter: ``That's the 
only conclusion you can draw.'' \38\
---------------------------------------------------------------------------
    \45\ Cutlip RC, Miller JM, Race RE, et al. 1994. Intracerebral 
transmission of scrapie to cattle. Journal of Infectious Diseases 
169(4):814-20.
    \46\ Hourrigan JL. 1990. Experimentally induced bovine spongiform 
encephalopathy in cattle in Mission, Tex, and the control of scrapie. 
Journal of the American Veterinary Medical Association 196(10):1678-9.
    \47\ Bleifuss J. 2004. How now mad cow? In These Times, February 
16.
    \48\ Lasmezas CI, Fournier JG, Nouvel V, et al. 2001. Adaptation of 
the bovine spongiform encephalopathy agent to primates and comparison 
with Creutzfeldt-Jakob disease: implications for human health. 
Proceedings of the National Academy of Sciences of the United States of 
America 98(7):4142-7.
---------------------------------------------------------------------------
    Every year in the United States, estimates range from 195,000 \49\ 
to 1.8 million \50\ cattle who collapse for a variety of metabolic, 
infectious, toxic, and/or musculoskeletal reasons and are too sick or 
injured to rise.\7\ Extrapolating from the proportion of nonambulatory 
cattle found in European \51\ and United States \7\ surveys, the number 
of nonambulatory cattle in the United States may be on the order of 
500,000 a year. A governmental survey of dairy producers across 21 
States reportedly found that 78.2 percent of dairy operations had 
nonambulatory cows during 2004.\52\ Though these animals may not have 
been fit enough to stand, a limited investigation of USDA slaughter 
plant records between January 1999 and June 2001 showed that most were 
still ruled fit for human consumption.\53\
---------------------------------------------------------------------------
    \49\ U.S. Department of Agriculture Office of Inspector General. 
2004. Animal and Plant Health Inspection Service and Food Safety and 
Inspection Service: bovine spongiform encephalopathy (BSE) surveillance 
program--phase I, August 18. www.oig.usda.gov/webdocs/50601_9-
final.pdf. Accessed February 19, 2008.
    \50\ Livestock mortalities: methods of disposal and their potential 
cost. http://nationalrenderers.org/Economic_Impact/
MortalitiesFinal.pdf. Accessed February 19, 2008.
    \51\ European Commission. 2002. Report on the monitoring and 
testing of bovine animals for the presence of bovine spongiform 
encephalopathy (BSE) in 2001. http://ec.europa.eu/food/food/biosafety/
bse/bse45_en.pdf. Accessed February 19, 2008.
    \52\ Stull CL, Payne MA, Berry SL, and Reynolds JP. 2007. A review 
of the causes, prevention, and welfare of nonambulatory cattle. Journal 
of the American Veterinary Medical Association 231(2):227-34, citing: 
U.S. Animal Health Association. 2006. Report of the Committee on Animal 
Welfare. In: Proceedings of the 110th Annual Meeting of the U.S. Animal 
Health Association, pp. 137-43.
    \53\ Farm Sanctuary. 2001. A review of USDA slaughterhouse records 
for downed animals (U.S. District 65 from January 1999 to June 2001). 
Farm Sanctuary, October.
---------------------------------------------------------------------------
    Based on findings in Europe \51\ and the speculative evidence of a 
rare form of mad cow disease striking downed cows for decades in the 
United States,\54\ nonambulatory cattle should considered to be a 
particularly high-risk population. According to the Food and Drug 
Association (FDA): ``Experience has shown that nonambulatory disabled 
cattle . . . are the population at greatest risk for harboring BSE.'' 
\55\ The FDA cites Swiss data showing a 49-58 times higher chance of 
finding BSE in downed cattle than in cattle reported to veterinary 
authorities as BSE-suspect under passive surveillance.\56\ Indeed, 12 
of the 15 BSE-infected cattle discovered in North America by February 
1, 2008, have reportedly been nonambulatory.\3\ And the 16th BSE-
infected case found in North America, a cow in Canada reported on 
February 26, 2008, was reported to the HSUS as being a downer.
---------------------------------------------------------------------------
    \54\ Marsh RF, Bessen RA, Lehmann S, and Hartsough GR. 1991. 
Epidemiological and experimental studies on a new incident of 
transmissible mink encephalopathy. Journal of General Virology 
72(3):589-94.
    \55\ U.S. Food and Drug Administration. 2004. Use of materials 
derived from cattle in human food and cosmetics; and recordkeeping 
requirements for human food and cosmetics manufactured from, processed 
with, or otherwise containing, material from cattle; final rule and 
proposed rule. Federal Register 69(134):42255-74. www.fas.usda.gov/
info/fr/2004/071404BSEFDA1.htm. Accessed February 19, 2008.
    \56\ Doherr MG, Heim D, Fatzer R, Cohen CH, Vandevelde M, and 
Zurbriggen A. 2001. Targeted screening of high-risk cattle populations 
for BSE to augment mandatory reporting of clinical suspects. Preventive 
Veterinary Medicine 51(1-2):3-16.
---------------------------------------------------------------------------
    Though the riskiest tissues--the brains, eyes, and spinal cords--of 
most cattle are now excluded from most food items in the United 
States,\57\ there may be contamination of muscle meat via aerolization 
of the spinal cord during carcass splitting.\58\ Significant amounts of 
central nervous system debris found accumulating in the splitting saws 
used to halve the carcasses may have the potential to then transfer 
contagion from one carcass to the next.\59\ Although, technically, 
processors are instructed to knife-trim ``material grossly identifiable 
as brain material, spinal cord, or fluid from punctured eyes,'' \60\ 
researchers have reported finding nervous tissue contaminating muscle 
in a commercial slaughter plant.\61\ Contamination of meat derived from 
cattle cheeks with brain tissue can also occur if the cheek meat is not 
removed before the skull is fragmented or split.\62\
---------------------------------------------------------------------------
    \57\ Federal Register. Docket No. 03-038IF. http://
www.fsis.usda.gov/OPPDE/rdad/FRPubs/03-038IF.htm. Accessed February 19, 
2008.
    \58\ Harvard Center for Risk Analysis and the Center for 
Computational Epidemiology. 2001. Evaluation of the potential for 
bovine spongiform encephalopathy in the United States, November 26.
    \59\ Helps CR, Fisher AV, Harbour DA, O'Neill DH, and Knight AC. 
2004. Transfer of spinal cord material to subsequent bovine carcasses 
at splitting. Journal of Food Protection 67(9):1921-6.
    \60\ U.S. Department of Agriculture Food Safety and Inspection 
Service. 2004. Questions and answers for FSIS Notice 4-04 regarding 
FSIS's BSE regulations, January 14. http://www.fsis.usda.gov/OPPDE/
rdad/FSISNotices/7-04.pdf. Accessed February 19, 2008.
    \61\ Prendergast DM, Sheridan JJ, Daly DJ, McDowell DA, and Blair 
IS. 2004. Dissemination of central nervous system tissue during the 
slaughter of cattle in three Irish abattoirs. Veterinary Record 
154(1):21-4.
    \62\ U.S. Department of Agriculture Food Safety and Inspection 
Service. 2002. Current thinking on measures that could be implemented 
to minimize human exposure to materials that could potentially contain 
the bovine spongiform encephalopathy agent, January 15. http://
www.fsis.usda.gov/oa/topics/BSE_thinking.htm. Accessed February 19, 
2008.
---------------------------------------------------------------------------
    Captive bolt stunning, the predominant method used to render cattle 
insensible before exsanguination,\1\ may blow a shower of embolic brain 
tissue into the animals' bloodstream. In one experiment, a biological 
marker applied onto a stunner bolt was later detected within the muscle 
meat of the stunned animal. The researchers concluded:
    This study demonstrates that material present in . . . the CNS 
[central nervous system] of cattle during commercial captive bolt 
stunning may become widely dispersed across the many animate and 
inanimate elements of the slaughter-dressing environment and within 
derived carcasses including meat entering the human food chain.\63\
---------------------------------------------------------------------------
    \63\ Daly DJ, Prendergast DM, Sheridan JJ, Blair IS, and McDowell 
DA. 2002. Use of a marker organism to model the spread of central 
nervous system tissue in cattle and the abattoir environment during 
commercial stunning and carcass dressing. Applied and Environmental 
Microbiology 68(2):791-8.
---------------------------------------------------------------------------
    Captive bolt stunning may also lead to ejection of brain tissue 
into the abattoir from the hole made by the captive bolt onto slaughter 
plant equipment, as well as the hands and aprons of workers removing 
the animals' heads.\61\ A follow-up study published 2004 in the Journal 
of Food Protection determined that ``this method of slaughter of an 
animal infected with bovine spongiform encephalopathy would be likely 
to contaminate edible parts of the carcass with infective material.'' 
\64\ Texas A&M University researchers found bodily brain fragments as 
large as 14 cm (5.5 in). The researchers concluded that it was likely 
that BSE pathogens could potentially be ``found throughout the bodies 
of animals stunned for slaughter.'' \65\
---------------------------------------------------------------------------
    \64\ Coore RR, Love S, McKinstry JL, et al. 2004. Dissemination of 
brain emboli following captive bolt stunning of sheep: capacity for 
entry into the systemic arterial circulation. Journal of Food 
Protection 67(5):1050-2.
    \65\ Garland T, Bauer N, and Bailey M Jr. 1996. Brain emboli in the 
lungs of cattle after stunning. Lancet 348(9027):610.
---------------------------------------------------------------------------
    Despite the potential for CNS contamination and the fact that 
peripheral nerves \66\ and blood \67\ found in all muscles may carry 
infection, the USDA \68\ and the National Cattlemen's Beef Association 
\69\ have attempted to assure consumers that beef is safe to eat, 
arguing that the infectious agent is not found in muscle meat. However, 
Stanley Prusiner, the director of the Institute for Neurodegenerative 
Diseases at the University of California, San Francisco, and winner of 
the Nobel Prize in Medicine for his discovery of prions, the cause of 
the BSE and other TSEs, proved in mice that muscle cells themselves 
were capable of forming the potentially infectious agent.\70\ ``I found 
prions in the hind limb muscles of mice,'' Prusiner stated, ``at a 
level approximately 100,000-fold higher than that found in blood.'' 
\67\ Prusiner reportedly described the studies relied upon by the 
Cattlemen's Association as ``extraordinarily inadequate,'' \71\ and 
follow-up studies in Germany confirmed his findings, showing that 
animals who are orally infected may indeed end up with prion 
contamination throughout the muscles of their bodies.\72\
---------------------------------------------------------------------------
    \66\ Herzog C, Sales N, Etchegaray N, et al. 2004. Tissue 
distribution of bovine spongiform encephalopathy agent in primates 
after intravenous or oral infection. Lancet 363(9407):422-8.
    \67\ Prusiner SB. Declaration of Stanley B. Prusiner, M.D. United 
States District Court for the District of Montana Billings Division 
Cause No.CV-05-06-BLG-RFC.
    \68\ 2003. First US case of mad cow disease found in WA. The 
Bulletin's Frontrunner, December 24.
    \69\ National Cattlemen's Beef Association. 2003. National 
Cattlemen's Beef Association Statement. December 23.
    \70\ Bosque PJ, Ryou C, Telling G, et al. 2002. Prions in skeletal 
muscle. Proceedings of the National Academy of Sciences of the United 
States of America 99(6):3812-7.
    \71\ 2003. Mad cow disease in Canada. KQED forum hosted by Angie 
Coiro on May 23 at 9:00 a.m.
    \72\ Thomzig A, Kratzel C, Lenz G, Kruger D, and Beekes M. 2003. 
Widespread PrPSc accumulation in muscles of hamsters orally infected 
with scrapie. EMBO Reports 4(5):530-3.
---------------------------------------------------------------------------
    Although the risk of contracting BSE appears vanishingly small in 
the United States given how few cattle have tested positive, the 
neurodegenerative disease it can cause in the consumers of contaminated 
beef is likely invariably fatal. Because cooking temperatures do not 
adequately destroy prions, the onus of responsibility must rest with 
the beef industry or, if unable or unwilling to police itself, the 
Federal Government, to ensure infected cattle are not slaughtered for 
human consumption. There is evidence that the infectious proteins that 
cause BSE can survive incineration \73\ at temperatures hot enough to 
melt lead.\74\ In response to a question from Cornell University's Food 
Science Department asking what food preparation methods could eliminate 
the risk of contracting BSE, then National Institutes of Health 
Laboratory of Central Nervous System Studies chief Joseph Gibbs 
remarked tongue-in-cheek that one of the only ways to ensure a BSE-free 
burger would be to marinate it in a concentrated alkali such as Drain-
O<SUP>TM</SUP>.\75\
---------------------------------------------------------------------------
    \73\ Brown P, Liberski PP, Wolff A, and Gajdusek DC. 1990. 
Resistance of scrapie infectivity to steam autoclaving after 
formaldehyde fixation and limited survival after ashing at 360 degrees 
C: practical and theoretical implications. Journal of Infectious 
Diseases 161(3):467-72.
    \74\ Bentor Y. 2008. Chemical Element.com: Lead. http://
www.chemicalelements.com/elements/pb.html. Accessed February 19, 2008.
    \75\ Gibbs CJ. 1994. BSE and other spongiform encephalopathies in 
humans and animals: causative agent, pathogenesis and transmission. 
Fall 1994 Food Science Seminar Series, Department of Food Science, 
Cornell University, December 1.

    Senator Kohl. Good job.
    Mr. Boyle.

STATEMENT OF J. PATRICK BOYLE, PRESIDENT, AMERICAN MEAT 
            INSTITUTE
    Mr. Boyle. Thank you, Mr. Chairman, Senators Harkin, and 
Senators Craig. I want to say at the outset, I found a number 
of aspects of Mr. Pacelle's testimony to be quite compelling, 
particularly the final concluding remarks, relating to the 
moral imperative. Forget the regulatory and the economic 
imperative, but the moral imperative, and I would agree with 
that aspect of his remarks before the committee.
    Since HSUS released its undercover video last month, I've 
met and spoken to dozens of leaders from the American Meat 
Institute and from all segments of our livestock supply chain. 
Universally, they agree that the images of animal abuse are 
shocking, gruesome, and atypical in the extreme.
    Proper and humane handling of livestock is not just a 
priority for AMI and its members, it is part of our culture. 
Nearly 20 years ago, AMI created an Animal Welfare Committee, 
which began working with the country's recognized animal 
welfare expert, Dr. Temple Grandin.
    With Dr. Grandin, the Institute developed animal handling 
guidelines and an audit guide, for packing houses. These 
guidelines not only meet regulatory requirements, they exceed 
them, they are utilized throughout our industry, we recommend 
them to our members, and they are frequently required of our 
customers with whom we do business.
    In addition, they have been endorsed by the American Humane 
Association, and been certified humane, in fact, HSUS 
International outreach programs have relied upon the AMI 
guidelines, although they refer to them as ``Dr. Grandin's 
guidelines,'' which from our perspective, is fine. We don't 
care how they're characterized, but as long as progress is 
being made, we don't really care who gets the credit.
    Despite the industry's record of measurable progress, we 
confront the tragic reality of Hallmark/Westland Plant, and we 
must ask ourselves how this happened, and what steps we can 
take to ensure that it does not happen again.
    First, failures occurred at many levels, here. The first of 
the failures occurred in the livestock production and 
transportation system that supplied cattle to this plant. Our 
industry must lead efforts to minimize the arrival of downers 
at plants, by enrolling all beef and dairy producers, as well 
as livestock dealers into existing quality assurance programs. 
And we must audit the results on those farms and in those feed 
lots, against the standards contained in the audits.
    Secondly, failures occurred at the slaughter facility. 
Plant personnel did not comply with the Humane Slaughter Act, 
and the Federal Meat Inspection Act. In the future, all 
processing plant employees handling live animals should be 
certified for proficiency in proper animal handling procedures, 
and have a thorough knowledge of the regulations. To that end, 
we strongly recommend that plants use our AMI Handling 
Guidelines, and our audit program.
    Thirdly, failures occurred within USDA's Food Safety and 
Inspection Service. USDA must require that every inspector 
performing ante mortem inspection, be certified for proficiency 
in animal handling, have a thorough knowledge of the Humane 
Slaughter Act and other FSIS guidance materials.
    I also believe that a failure occurred in The Humane 
Society of the United States, despite its efforts to document 
the practices and bring them to our attention. Its failure to 
alert, immediately, Federal authorities to the practices 
captured on their video, in a federally-inspected plant, in 
violation of Federal laws, only prolonged, for a period of 
time, an illegal, inhumane practice.
    One can reasonably ask, how could such gross abuse could go 
on, unnoticed by so many, for so long? And in that regard, I 
commend HSUS for exposing it. But one could also ask The Humane 
Society, how could it allow this abuse to continue for almost 4 
months, while it edited its video for release--not to the 
Federal investigatory authorities, but to the Washington Post.
    Finally, I feel compelled to comment upon USDA's record-
setting recall request. The Department classified it as a Class 
II recall, which Secretary Shafer has said, on previous 
occasions and reaffirmed today, carries a very, very remote 
risk.
    USDA also reports that the plant had effective food safety 
interventions, and that all products distributed to the school 
lunch program tested negative for pathogens.
    That being said, and as Senator Harkin asked of the 
Secretary--how do we find ourselves in the midst of the largest 
beef recall in the history of our country?
    Well, the impact on Hallmark/Westland will be profound, the 
recall will have effect on their customers who use the meat as 
an ingredient in further process products, which were also 
inspected, and passed, by USDA. So, these middlemen--many 
small, family-owned businesses--will bear a large part of the 
economic cost of this recall.
    And the American consumer, and our foreign trading partners 
are needlessly alarmed, and understandably confused by the 
anomaly of this large recall of safe product. In the face of 
higher food prices in America, the ongoing need for food 
donations to help feed the hungry, and the rationing of food 
aid through international relief organizations--I'm astonished 
at the specter of hundreds of millions of pounds of safe food 
being destroyed.
    Having said that, there is no doubt that rules and 
regulations matter, and violations should have consequences. 
For Hallmark/Westland, there are severe consequences, indeed, 
and to Mr. Pacelle's point, there are potential criminal 
sanction, as well, that could portend jail time.

                          PREPARED STATEMENTS

    But from a public health perspective, risks should matter, 
too. In the future, under these circumstances, I believe USDA 
would be better advised to conduct an appropriate risk 
assessment before determining whether it should require a 
nationwide recall of a product when, again, according to 
Secretary Shafer, and I'll quote, ``There is no reason to 
believe that there is anything wrong with the beef.''
    Thank you very much.
    [The statements follow:]

                 Prepared Statement of J. Patrick Boyle

    Mr. Chairman, Ranking Member, and Members of the Committee, thank 
you for the opportunity to appear before this Committee. My name is 
Patrick Boyle and I am the President and CEO of the American Meat 
Institute (AMI). AMI has provided service for more than 100 years to 
America's meat and poultry industry--an industry that employs more than 
500,000 individuals and provides more than $100 billion in sales to the 
Nation's economy.
    AMI's members include America's most well-known meat and poultry 
manufacturers. Collectively, they produce more than 90 percent of the 
beef, veal, pork and lamb food products and 75 percent of the turkey 
food products in the United States. Among AMI's member companies, over 
60 percent are small family-owned businesses employing fewer than a 
hundred individuals and some are publicly traded and employ tens of 
thousands. These companies operate, compete, sometimes struggle and 
mostly thrive in one of the toughest, most competitive and certainly 
the most scrutinized sectors of our economy--meat and poultry packing 
and processing.
    I have spoken over the past 10 days with dozens of industry leaders 
from all segments of our supply chain. Universally they agree that the 
images of animal abuse shown in an undercover video taken at the 
Hallmark/Westland facility in California are shocking and unacceptable. 
The gruesome treatment of animals depicted in the video stands in sharp 
contrast to the humane animal handling standards that are practiced in 
slaughter plants every day across the United States. Our members 
condemn the practices the video projects.
    Proper and humane handling of livestock is not just a priority for 
AMI--it is part of our culture. I believe that our Institute's Animal 
Welfare Committee has been an unquestionable force for change. Their 
business cards may carry the brands of many meat products you enjoy, 
and their titles may say plant manager or vice president of operations, 
but they are as much animal activists as any of the groups with 
``humane'' in their name that try to discredit these businesses.
    Beginning in 1991, our animal welfare committee had the foresight 
to recognize the unique abilities of a rising star in the field of 
animal welfare: Dr. Temple Grandin of Colorado State University. Dr. 
Grandin's autism provides her the unique ability to understand the 
world from an animal's perspective and we have learned much from her 
insights. Dr. Grandin has crawled through our chutes and alleys, 
designed and sat in our cattle holding pens, ridden our trucks and seen 
the world and our plants as animals do. There is nothing she will not 
do to improve welfare and there is no recommendation from her that we 
don't take seriously.
    In partnership with Dr. Grandin, we sought not only to meet 
regulatory requirements, but to exceed them. Grandin authored the first 
ever industry-specific ``Recommended Animal Handling Guidelines'' in 
1991. They are distributed throughout our industry in both Spanish and 
English.
    In 1997, after Dr. Grandin audited plants for USDA, she proposed an 
idea that was at the time considered radical, though it is now routine. 
She argued that welfare could be measured objectively using criteria 
like vocalizations, slips and falls, prod use and stunner accuracy. She 
declared that we could ``manage what we measure.'' I will confess that 
at the time, the idea of ``counting moos'' sounded almost silly. Still, 
our forward-thinking Animal Welfare Committee agreed that the idea had 
merit, and Dr. Grandin again did a first for us: she wrote the first 
animal welfare audit ever developed.
    Today, self audits and third party audits are part of our routine 
operations. Our audit guide is endorsed by groups like the American 
Humane Association and Certified Humane and is widely used as a 
condition of business by major restaurant and retail chains for their 
suppliers.
    The meat industry's commitment to animal welfare was underscored 
when AMI's members voted to make animal welfare a non-competitive issue 
in 2002. As a result, AMI member plants share good ideas and assist 
each other in developing and refining animal handling programs and 
solving challenges. I have seen staunch competitors exchange plant 
visits to share best practices and I am proud that we help each other 
in this way. All of our ideas, our guidelines and our audits are 
available free on our dedicated web site www.animahandling.org.
    Both ethical and economic imperatives exist to handle animals 
humanely. Study after study shows that optimal animal handling results 
in better quality products. However, most importantly, it's simply 
``the right thing to do.'' Dr. Grandin's own data shows dramatic and 
measurable improvements in animal handling in federally inspected meat 
plants since our audit was developed.
    Despite this industry track record of proven progress, we confront 
the tragic reality of the Hallmark/Westland incident, and we must take 
necessary steps to ensure this does not happen again. Federal and State 
investigations are still underway and I will refrain from prejudging 
their outcome or any judicial proceeding, but it certainly appears that 
multiple failures occurred at many levels.
  --First, failures occurred in the livestock production and/or 
        transportation system that supplied livestock to the plant. All 
        efforts must be taken to minimize the arrival of non-ambulatory 
        animals, or so-called ``downers,'' at the slaughter facility. 
        Livestock producers must recommit to culling animals from their 
        herds before they become ill or disabled, and would 
        unnecessarily suffer. They must market only those animals from 
        their dairy and beef operations that will meet Federal meat 
        inspection requirements, and they have an ethical 
        responsibility to euthanize on the farm those who are not able 
        to be transported.
  --Secondly, failures occurred at the slaughter facility. Plant 
        personnel apparently did not comply with the Humane Slaughter 
        Act and the Federal Meat Inspection Act. Humane animal handling 
        violations caused USDA to withdraw Federal inspectors from the 
        plant, which resulted in the plant being closed on January 30, 
        2008. After further investigation by Federal authorities, a 
        Class II recall of beef products was initiated on February 17, 
        2008. This recall stemmed from the plant not being in full 
        compliance with Federal meat inspection procedures when it 
        processed cattle.
  --Third, failures occurred within USDA's Food Safety and Inspection 
        Service. A total of eight Federal inspectors were stationed at 
        the Hallmark/Westland facility. By Federal law, Federal 
        inspectors must be present for the plant to operate. 
        Apparently, Federal inspectors failed to observe or ignored 
        animal handling violations and failed to enforce agency meat 
        inspection policies and procedures.
  --And finally, failures occurred at The Humane Society of the United 
        States by not immediately alerting Federal authorities to the 
        practices captured on their video. Months of delays in 
        notifying Federal authorities prolonged a bad practice, 
        complicated the Federal investigation and created weeks of 
        uncertainty and needless concern for school districts and 
        consumers nationwide. When AMI became aware of the incident on 
        January 5 after Dr. Grandin received the tape, we tried to 
        identify the plant based upon her description, but we were 
        unable to do so. Inquiries to AMI members who handle cows 
        asking them if they used fork lifts to move non-ambulatory 
        livestock were greeted with responses of ``You must be kidding. 
        No one does that.'' One can reasonably ask how such gross abuse 
        could go unnoticed by so many for so long. But one can also ask 
        of The Humane Society how it could stand idly by and allow this 
        abuse to continue for almost 4 months.
    These multiple failures surrounding the Hallmark/Westland incident 
have severely damaged the beef industry. Strong action is needed to 
right the ship and reassure customers that everything possible is being 
done to establish safeguards that will prevent such a deplorable 
incident from occurring ever again. AMI is considering several 
improvements that make it clear that animal welfare is a shared 
responsibility, and only a systems approach will ensure that all proper 
procedures are followed.
    Producers.--Our industry must lead an effort to enroll all beef and 
dairy producers in the Beef Quality Assurance and Dairy Quality 
Assurance Programs to maintain herd health and assure that only those 
animals that will pass Federal inspection requirements are sent to 
slaughter. The use of audits to measure welfare at these points should 
be encouraged.
    Handlers.--Sellers of livestock to slaughter facilities, including 
livestock dealers and brokers, should be required to provide documented 
training for employees in proper animal handling and transportation of 
animals.
    Processing Plants.--Employees handling live animals in federally 
inspected slaughter facilities should be certified for proficiency in 
proper animal handling procedures and a thorough knowledge of the 
Humane Slaughter Act.
    USDA.--The Department should require that all FSIS inspectors 
performing ante mortem inspection be certified for proficiency in 
animal handling and have a thorough knowledge of the Humane Slaughter 
Act and other FSIS guidance material.
    Congress, the regulatory agencies and the industry must carefully 
evaluate all proposals that can prevent a problem like this from 
occurring in the future. Changes should not be made for political or 
cosmetic reasons. The improvements must focus on process design and 
changes that rely on sound animal handling practices throughout the 
chain.
    It is important to remember that the recall is a Class II recall, 
and not a Class I recall that is implemented when a clear public health 
risk exists. Federal officials have said that the beef supply is safe 
and there have been no illnesses associated with the recalled meat.
    As one who has overseen the evolution--perhaps better described as 
a revolution--in our approach to animal welfare since 1990, I want to 
offer my personal assurance that the members of this industry abhor 
what has happened and are committed to optimal animal welfare because 
it is both ethically appropriate and economically beneficial. 
Unfortunately, the media have not reported the story this way, and 
there have been numerous baseless linkages made to food safety.
    I understand that high profile stories are upsetting, but I assure 
you that I remain confident in the safety of the U.S. beef supply, of 
our children's school lunches, and in the welfare of animals in our 
care.
    Thank you for allowing me the opportunity to present our views 
before this distinguished committee.
                                 ______
                                 

Prepared Statement of Temple Grandin, Ph.D., Professor, Animal Science, 
                       Colorado State University

    Thank you for the opportunity to provide testimony. I've committed 
my life's work to livestock welfare in the meat industry. The Hallmark/
Westland video was atrocious and made me sick.
    I have some thoughts about what lessons can be learned from this 
situation. I'd like to share the practical knowledge that I've gained 
by working in meat plants in the United States and around the world 
since the 1980s.
    I have stressed for three decades the importance of working with, 
and not against, an animal's natural instincts. By understanding animal 
behavior, you minimize stress. This approach improves animal welfare 
and meat quality. For example, animals, by their nature, are curious. 
Circular chutes encourage them to move forward to see what is around 
the curve. This minimizes the need to drive animals. Designing lighting 
so it does not shine in an animal's eye and ensuring that animals walk 
into well lighted spaces instead of what looks to them like a dark hole 
helps move an animal in a less stressful way.
    I visit many different plants in the United States and estimate 
that 50 percent of the cattle and 25 percent of the hogs are 
slaughtered in a plant that use my designs. I also have conducted a 
survey for the USDA, trained commercial auditors and do audits for 
clients like major restaurant chains.
    The American Meat Institute Guidelines that I wrote have helped the 
industry and their customers measure welfare consistently. They were 
developed in 1997 and later came to be required as a condition of doing 
business by major restaurant chains beginning in 1999. Since that time, 
I have seen dramatic changes. People in the industry focus much more 
heavily on animal welfare as part of the daily routine. Plants invest 
time in training on site and by sending people to the AMI Animal Care & 
Handling Conference each year in February. Some plants use the American 
Meat Institute videos to train their workers and other companies have 
developed their own.
    Federal inspectors could use the same level of training as the 
industry provides. In my experience, USDA inspectors are not well-
trained and are very inconsistent in how they enforce the humane 
slaughter regulations. One person is super strict and unreasonable, 
another is just right, and another is totally lax. The inspectors 
working in the field often do not get clear directions on what is 
acceptable and what is not acceptable. You only need to look at the NRs 
written for Humane Slaughter violations to see inconsistencies even 
when they come from the same plant but different shifts with different 
inspectors.
    In my view, you manage what you measure and know to be true--not 
what your opinion or interpretation tells you is true. Welfare must be 
measured over time so that you can evaluate plants in the big picture. 
You cannot look at a single failure on a given day--like a missed 
stun--and make sweeping conclusions that plant is a failure when it 
comes to welfare. That's a snapshot in time, not a complete picture. 
Shutting a plant down won't undo the rare stun that goes wrong.
    The criteria I developed recognize that no one can be perfect all 
the time. Equipment fails despite the best maintenance programs. 
Animals move when you want them to stand still. Thunderstorms scare 
cattle and make them hard to handle some days. Animals that haven't had 
a lot of human interaction at the farm may arrive at a plant and be 
fearful and difficult to move. Electricity fails. New and inexperienced 
employees may invade an animal's flight zone and cause it to balk. And 
the list goes on.
    Along the same lines, if pigs are slipping and falling on a ramp, 
does a plant take actions to regroove the floor? If a handler is 
prodding an animal at a level that exceeds what the standards I 
developed allow, is the plant offering additional training and teaching 
that handler how to use a less stressful driving tool? The important 
factor when these problems occur is how a plant responds. Responses to 
problems speak volumes about a plant. The effectiveness of these 
responses can be determined by collecting more data to see if it 
worked.
    And the data show that animal welfare is better than it has been at 
any time since I've been measuring it. They are endorsed by the 
American Humane Association and by Certified Humane. My first graduate 
student, Dr. Jennifer Lanier, used the guidelines while employed by The 
Humane Society of the United States, and these were part of her 
training of the Central American meat industry through HSUS' 
international outreach program. McDonald's, Burger King, Wendy's and 
many other chains use them to evaluate suppliers.
    Given their widespread support, I strongly recommend that the USDA 
use the American Meat Institute guidelines as a measurement of welfare. 
This would help make enforcement more uniform.
    The AMI guidelines have a zero tolerance for the worst practices 
and use numerical scoring to assess animal handling and stunning. 
Dragging non-ambulatory animals has a zero tolerance on both USDA 
regulations and the AMI guidelines. Acts of animal abuse that are 
outlined in the AMI guide are also automatic failed audits. There is an 
absolute zero tolerance for starting dressing procedures such as 
scalding, leg removal, and skinning on an animal showing signs of 
return to sensibility. Hanging a sensible animal on the rail is also an 
automatic failed audit.

                      NUMERICAL OBJECTIVE SCORING

    For variables such as stunning efficacy and electric prod use, 
doing everything perfectly every time is impossible. This is a concept 
that some people have a hard time understanding because they do not 
work in the world of practical things. I developed the AMI scoring 
system from data I collected during a survey I conducted for the USDA 
in 1996. The numerical objective scoring system was developed from my 
USDA funded research. That report is on www.grandin.com in the survey 
section.
    Plant managers know that they have to score specific hard numbers 
to pass. People manage the things that they measure. A plant can be 
held to a high standard, but perfection is impossible. To download the 
complete AMI guide and audit forms, go to www.animalhandling.org
    The present system of USDA inspection is like having traffic police 
giving out speeding tickets when they think cars are speeding. Our 
traffic laws work to ensure the police MEASURE a car's speed with radar 
and the drivers know what the speed limit is because it is posted on 
signs.
    The following variables are scored with numerical scoring on the 
AMI guideline.
  --Percentage of animals stunned with one captive bolt shot.
    --95 percent acceptable
    --99 percent excellent--missed animals are IMMEDIATELY shot again 
            before hanging on the rail.
  --Percentage of animals with correct placement of an electric stunner
    --99 percent to pass
  --Percentage rendered insensible before hanging on the rail must be 
        100 percent.
  --Percentage of animals moved with electric prod.
    --25 percent acceptable
    --5 percent excellent
  --Percentage of animals slipping and falling.
    --3 percent slipping
    --1 percent falling acceptable
  --Percentage of animals vocalizing (squeal, moo, bellow) during 
        handling and stunning.
    --Cattle 3 percent acceptable
    --Pigs 5 percent in the restrainer acceptable
    Vocalization is a sensitive indicator of aversive or distressing 
events such as missed stuns, sharp edges sticking into them and 
excessive pressure from restraint equipment. In my original USDA 
survey, the worst plant had 35 percent of the cattle vocalizing.
    People who care about animals are concerned that many animals will 
suffer because mistakes are allowed. Even though the guidelines allow 1 
percent of the animals to fall, most plants have less than one in a 
thousand falling. Numerical scoring is going to reduce suffering 
because inspectors will do a more uniform job of enforcement
    There is a reality in meat production. The process involves (1) 
people (2) who handle animals and (3) who use equipment and (4) all 
this is overseen by more people in the form of Federal inspectors. 
Without thorough training, and without clear measurable criteria, 
people, whether they are inspectors or employees, are prone to make 
subjective and inconsistent judgments.
    The Chino video is shocking and abusive. It is truly one of the 
worst things I've ever seen. But it is not representative of what I 
have observed in meat plants. It is simply not ``typical,'' though some 
groups and some media reports have tried to say it is.
    I received the tape showing this handling on January 5. I 
immediately alerted industry officials that horrible handling was 
happening at a plant but I didn't know where. I know that AMI officials 
called plants to try to figure out who was using a forklift to move 
live cows, which is appalling, a violation of the law and a violation 
of industry guidelines. In the week after I received the video, I 
called HSUS and asked them to name the plant so I could stop it. They 
would not tell me because they were working with the State to bring 
charges.
    I was very angry that the plant was not identified until January 30 
and then, it was because the Washington Post had the video. When the 
Post reported the story, I learned that the abuse was observed starting 
in October. I live in a practical world outside the beltway. Inside the 
beltway, too many people are focused on how they might lose or win in 
certain situations. I care about animals, and I see and think in plain 
terms. I'm sick that this went on for as long as it did in a federally 
inspected plant and that people who knew about this behavior waited 
until January 30 to announce it publicly.
    This has got to stop. We need to measure animal welfare objectively 
throughout the industry without exception, show no tolerance for bad 
actors, train our inspectors and commit ourselves to welfare in its 
truest sense and report abuse when we see it.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 

        [From the Riverside Press Enterprise, February 21, 2008]

Chino Meat Plant Drew Inland Humane Society Scrutiny Years Before Video

                   (By Janet Zimmerman and Ben Goad)
    Inland animal welfare officers alerted government officials to the 
inhumane treatment of cows at Hallmark Meat Co. in Chino more than a 
decade before a recent undercover investigation led to the plant's 
closure and the largest beef recall in U.S. history, records show.
    The Inland Valley Humane Society and the Society for the Prevention 
of Cruelty to Animals in Pomona investigated 13 cases between 1996 and 
2004--11 of them substantiated--involving Hallmark's treatment of 
``downer'' cows, which are those too sick or injured to stand up or 
walk on their own.
    ``It tells you they have a long, ongoing history of not tending to 
downer animals in a prompt and humane manner,'' said Brian Sampson, the 
society's supervisor of animal services. The Inland Valley group 
provides animal control services for the city of Chino.
    The U.S. Department of Agriculture was notified three times about 
possible violations of regulations regarding treatment of downer cows, 
twice in writing and once verbally, in 1996 and 1997, according to The 
Humane Society's file on Hallmark.
    ``We forwarded a lot of stuff to the USDA of our findings, but what 
action they took I don't know,'' said Sampson, who was a field officer 
at the time.
    Agriculture Department officials said they would not be able to 
comment on the Inland Valley Humane Society's assertions until today.
    A woman who answered the phone at Hallmark on Thursday said the 
company has no comment.
    Steve Mendell is president and a current owner. Donald Hallmark, of 
Ontario, said Thursday that he sold the plant 5 years ago and that 
earlier problems with the handling of downer cows were corrected.

Federal Investigation
    Hallmark and its affiliated meat-packing operation, Westland Meat 
Co., have been under fire since The Humane Society of the United States 
released an undercover video last month showing plant workers ramming 
downer cows with forklifts, shooting water up their noses and 
repeatedly zapping them with electric prods to get them upright to pass 
USDA inspection.
    The two Humane Society organizations are not affiliated.
    The meat company, which shut down operations early this month, is 
under Federal investigation, and the San Bernardino County district 
attorney's office has filed animal cruelty charges against a Hallmark 
supervisor and an employee.
    On Sunday, Hallmark/Westland recalled 143 million pounds of beef 
processed at the Chino plant from February 2006 through this month.
    Just over 50 million pounds of the recalled beef went to Federal 
nutrition programs, including the National School Lunch Program, said 
Eric Steiner, associate administrator of the USDA's Food and Nutrition 
Service. Of that meat, 19.6 million pounds has been eaten, 15.2 million 
has been located and is ``on hold'' and officials are still working to 
track down an additional 15.5 million pounds, Steiner said.
    The whereabouts of the other 93 millions pounds have not been 
traced.
    Hallmark/Westland Meat Co. produced roughly 20 percent of the beef 
that went into the school lunch program, said Bill Sessions, associate 
deputy administrator for the USDA's Agricultural Marketing Service.
    The agency has no plans to test any of the recalled meat, said Ken 
Petersen, assistant administrator for the department's Food Safety and 
Inspection Service.
    Petersen said the meat already is being removed from the food 
supply, so there is no reason to test it.
    ``Testing it isn't going to tell me anything,'' he said.
    Petersen and other officials said the chance that people became ill 
from eating the meat is ``very remote.''
    ``There's been no reported illness, and we certainly don't envision 
any illness,'' Petersen said.
    Cows are inspected before slaughter. The Humane Society of the 
United States investigation revealed that some cows were not re-
inspected after they went down. That revelation--not a concern that the 
beef was dangerous--prompted the recall, Petersen said.
    Non-ambulatory animals are not to be used in the human food supply 
to prevent the spread of bovine spongiform encephalopathy, commonly 
called mad cow disease, a neurological disorder that can be fatal to 
humans.
    California law enacted in January 1994 prohibits non-USDA inspected 
facilities from receiving downer animals. It requires that downers be 
immediately euthanized and not dragged or pushed with equipment. The 
USDA banned non-ambulatory cattle from the human food chain in 2003.
    Petersen, in a telephone briefing Thursday, said both that 
violations were a ``very rare occurrence'' at the plant and that they 
happened ``with some frequency going over a course of 2 years.''
    He declined to elaborate, citing the ongoing investigation. He also 
declined to say exactly how the on-site inspectors missed the 
violations.

Cows Seen Suffering
    Inland Valley Humane Society documents reveal a history of 
problems. Sampson said the agency's then-supervisor did not seek 
charges because it was assumed the USDA would address the problems. At 
most, there may have been failure to quickly euthanize, which is a 
misdemeanor, he said.
    On May 20, 1998, a humane society investigator found three downers 
not signed off by the USDA official on site for an hour. One of the 
cows was ``semiconscious and hyperventilating'' and the other two, 
though apparently uninjured, ``were breathing with difficulty,'' 
according to the report.
    A week later, the officer returned and inspected 5 days of logs on 
downers. He found that the average time span for them to be euthanized 
was 2 to 3 hours, a violation of the State law, Sampson said.
    On a spot check on May 11, 1998, a humane society officer found a 
cow with its right hoof ``hanging by a thread,'' wandering in the 
parking lot for 15 minutes before the euthanasia was signed off by a 
USDA vet. The officer recommended installing a bar across the downer 
shed when no one was around to prevent future escapes.

Handled Too Roughly
    A week later, the field supervisor checked the plant again. She 
noted that she spoke to USDA brand inspector David Wall about 
``unloading problems and mishandling of animals generally at the 
plant.''
    ``Cows are handled too roughly,'' she wrote.
    Oct. 8, 1996, a citizen complained about workers repeatedly 
prodding downer cows in the face and allowing other cows to trample 
them. The USDA veterinarian on site refused to speak to The Humane 
Society investigator, who was ordered to leave by the owner when he 
refused to divulge who made the complaint, according to the report.
    That incident prompted an Oct. 10, 1996, letter from The Humane 
Society's then-supervisor of field services, Marsha Wyatt, to the 
plant's owners. It said: ``We have had numerous incidents with your 
facility in the past involving downer animals and loose animals 
creating public safety issues. There is not another slaughterhouse in 
this area that has created more problems for the police department and 
our agency than yours.''
    The letter was copied to the USDA and the city.
    A December 16, 1997, letter followed up a meeting with The Humane 
Society and the two owners, Donald W. and Donald R. Hallmark, detailing 
conditions they agreed to. Among them, that any downer in distress--
marked by vocalization, panting, teeth grinding, broken legs, serious 
wounds or split pelvises--will be reported to the USDA vet or inspector 
for immediate euthanasia.
    The letter, copied to the USDA, concluded: ``We all know that 
continued mishandling of downers is unethical and will only lead to 
further complaints from the public and possibly interference from the 
media.''
                                 ______
                                 

                          [February 21, 2008]

                Inspectors Say Meat Safety is Threatened

                          (By Gillian Flaccus)
    Los Angeles (AP)--Sometimes, government inspectors responsible for 
examining slaughterhouse cattle for mad cow disease and other ills are 
so short-staffed that they find themselves peering down from catwalks 
at hundreds of animals at once, looking for such telltale signs as 
droopy ears, stumbling gait and facial paralysis.
    The ranks of inspectors are so thin that slaughterhouse workers 
often figure out when ``surprise'' visits are about to take place, and 
make sure they are on their best behavior.
    These allegations were raised by former and current U.S. Department 
of Agriculture inspectors in the wake of the biggest beef recall in 
history--143 million pounds from a California meatpacker accused of 
sending lame ``downer'' cows to slaughter.
    The inspectors told The Associated Press that they fear chronic 
staff shortages in their ranks are allowing sick cows to get into the 
Nation's food supply, endangering the public. According to USDA's own 
figures, the inspector ranks nationwide had vacancy rates of 10 percent 
or more in 2006-2007.
    ``They're not covering all their bases. There's a possibility that 
something could go through because you don't have the manpower to check 
everything,'' said Lester Friedlander, a former USDA veterinary 
inspector at a plant in Wyalusing, Pennsylvania.
    Amanda Eamich, a spokeswoman for the USDA's Food Safety and 
Inspection Service, acknowledged that the department has been 
struggling to fill vacancies but denied the food supply is at risk.
    ``Every single animal must past ante mortem inspection before it's 
presented for slaughter, so only healthy animals are going to pass,'' 
she said. ``We do have continuous inspection at slaughter facilities.''
    Similarly, Janet Riley, a spokeswoman for the American Meat 
Institute, defended the meatpacking industry's safety record. ``It is 
interesting to keep in mind how heavily regulated we are,'' she said. 
``Nobody has this level of inspection.''
    The current and former inspectors and other industry critics 
charged that the staff shortages are also resulting in the mistreatment 
of animals on the way to slaughter, and may have contributed to the 
recall announced earlier this week.
    U.S. Sen. Herb Kohl, D-Wisconsin, said Thursday that his Senate 
Agriculture, Rural Development and Related Agencies Appropriations 
Subcommittee will hold a Feb. 28 hearing on the recall.
    Secretary of Agriculture Ed Schafer and the presidents of The 
Humane Society and the American Meat Institute, among others, will 
testify, he said in a printed statement.
    The USDA recalled the beef after The Humane Society of the United 
States released undercover video that showed slaughterhouse workers at 
the Chino-based Westland/Hallmark Meat Co. kicking and shoving sick and 
crippled cows and forcing them to stand with electric prods, forklifts 
and water hoses.
    Wayne Pacelle, The Humane Society's president and chief executive, 
said the video was filmed over a 6-week period last fall and all the 
abuse happened when USDA inspectors were not present.
    ``The inspection system obviously has enormous gaps if these 
routine abuses could happen,'' he said. ``The inspector would show up 
and if there were downed animals, the workers would try to get them up 
before the inspectors got there.''
    Generally, downer cows--those too sickly to stand, even with 
coaxing--are banned from the food supply under Federal regulations. 
Downer cows carry a higher risk of mad cow disease. And because sickly 
animals typically wallow in feces and have weakened immune systems, 
downer cows are more likely to carry E. coli and salmonella, too.
    Veterinary inspector looks for such symptoms as an unsteady gait, 
swollen lymph nodes, sores and poor muscle tone.
    Industry critics say the staff shortages are compounded by a change 
in USDA regulations in the late 1990s that gave slaughterhouses more 
responsibility for devising their own safety checklists and for 
reporting downer cows to the USDA when inspectors are not present.
    That policy places slaughterhouses on an honor system that can lead 
to abuse in an industry that thrives on close attention to costs, said 
Stan Painter, chairman for the National Joint Council of Food 
Inspection Locals, which represents 6,000 inspectors nationwide.
    ``The fox is guarding its own henhouse,'' said Painter, who also 
works as a part-time inspector at hog and poultry packing plants in the 
South. ``If you throw a 3-pound chicken away, so what? But if you throw 
a cow away that's 300 pounds of meat, and you can't get any money out 
of it, that's a big issue.''
    Inspectors whose job is to make sure that the cattle are treated 
humanely said staff shortages mean they are forced to adopt routine 
hours for their checks, removing the element of surprise.
    USDA numbers show anywhere between 10 and 12 percent of inspector 
and veterinarian positions at poultry, beef and pork slaughterhouses 
nationwide were vacant between October 2006 and September 2007. In some 
regions, including Colorado and Texas, a major beef-producing State, 
the rate hovered around 15 percent. In New York, vacancy rates hit 
nearly 22 percent last July.
    To bolster its ranks, the department is offering big signing 
bonuses of at least $2,500 to inspectors willing to relocate to 15 
States. The agency has 7,800 inspectors covering 6,200 federally 
inspected establishments, 900 of which slaughter livestock.
    USDA's Eamich blamed the vacancies on competition with private-
sector wages, high costs of living and the often-undesirable rural 
locations of many slaughterhouses.
    The agency hired 200 new inspectors in the past year, bringing 
staffing levels to their highest point since 2003, and cut veterinarian 
vacancies by half through hiring incentives, the spokeswoman said.
    Felicia Nestor, a policy analyst with Washington-based Food and 
Water Watch, said the food supply may be at risk.
    ``I have talked to so many inspectors who used to work for the 
industry, and part of the training is how to get around the inspection. 
They've got alkies-talkies to alert each other to where the inspector 
is, they double-team the inspector,'' she said.
    At two packing houses in Nebraska, veterinarians monitor up to 700 
head of cattle at a time for signs of illness--just enough to make sure 
all the cows are standing, said one veteran inspector who spoke on 
condition of anonymity for fear of losing his job.
    The inspector has worked for 15 years as an inspector at two plants 
in Lexington and Grand Island, Neb. One-quarter of the inspection 
positions at one of his plants have been vacant now for 2 years, he 
said.
    ``There are so many vet shortages out in the field right now, they 
can't keep it properly staffed,'' the inspector said. ``When they come 
into these big slaughter facilities, they'll put 200 head in a pen. All 
you can tell is they're moving.''
    Friedlander, who left the USDA in 1995, said he recalled checking 
up to 220 cows an hour by standing on a catwalk above a pen of hundreds 
of animals. He would also check to see if cows could walk by having 
workers drive them from one pen to another, six or seven cows abreast.
    ``If you're a vet, you see the first cow, you might see the second 
cow, but the fourth, fifth, sixth, seventh cow you might not see,'' he 
said. ``How can we tell if there's any facial paralysis or droopy ears? 
You can't tell.''
    USDA's Eamich said that there is no limit to the number of animals 
an inspector is allowed to look at one time, ``but they have to look at 
every single one.''
                                 ______
                                 

          Prepared Statement of the Weston A. Price Foundation

    The recent revelation of cruel treatment to downer cows at the 
Hallmark/Westland Meat Company has brought important focus on the flaws 
in our industrial food system.
    Many individuals and agencies will be requesting that USDA put an 
end to the practice of cruelly prodding downer cows to make them stand 
up so that they can be slaughtered for human food. It is good to close 
this loophole but in so doing, USDA will not be addressing the 
fundamental problem, namely, the policies that favor the industrial 
production of animal foods and the effects of this system not only on 
the health and well-being of animals but also on the health and well 
being of human beings. (The downer cow that we have all seen on 
television and the Internet, by the way, was a dairy cow. It is 
unfortunate that the resultant publicity has focused on the safety of 
beef. Shouldn't we be looking into the safety and nutrient levels of 
milk from confinement dairy facilities?)
    The Weston A. Price Foundation promotes the restoration of 
nutrient-dense foods to the American diet, and puts particular emphasis 
on the fat-soluble vitamins A, D and K2. The research of nutrition 
pioneer Weston A. Price, DDS, revealed that the diets of healthy non-
industrialized peoples contained very high levels of these vitamins. 
Food sources include certain types of seafood (shell fish, fish eggs, 
fish livers and certain oily fish) and the organ meats, fat and butter 
fat of grass-fed animals. When our cattle, sheep, goats, pigs and 
poultry are raised outdoors in the sunlight, their fat, butterfat, 
yolks and organ meats will provide vitamin D; and when their main food 
is green grass, their fat, butterfat, yolks and organ meats will 
provide vitamins A and K2. These vitamins are essential for numerous 
roles including growth, learning capacity, immunity, fertility and 
protection against cancer, heart disease, diabetes, osteoporosis and 
auto-immune disease.
    Through its 400 local chapters worldwide, the Foundation 
facilitates the direct purchase of these animal foods from farmers 
engaged in pasture-based agriculture. Through our resource guides, 
buying groups and food co-ops, we have brought 11-hour rescue, and 
indeed prosperity, to hundreds of small farms and in so doing have 
provided nutrient-dense animal foods to tens of thousands of 
individuals seeking optimal health for themselves and their families.
    The reason that most Americans do not have access to nutrient-dense 
animal foods from pastured animals today, as they did until the middle 
of the 20th century, has to do with a USDA farm policy that favors 
centralized agriculture and the confinement system. Public policy that 
includes subsidies for large operations, lax environmental laws, 
closing down of small meat processing plants, misleading agenda-driven 
nutrition advice and health and labeling laws that strongly 
discriminate against the direct sales of farm product--these policies 
have led to the current system. USDA's proposed National Animal 
Identification System (NAIS), promoted under the spurious guise of 
animal and human health, would, if implemented, even further 
discriminate against small farmers in favor of large confinement 
operations. Proponents claim these policies necessary to control the 
increasing risk of food-borne illness, the major source of which is the 
industrial confinement food system; yet these one-size-fits-all 
policies militate against the very practices that can solve the 
problem, namely small, grass-based farms.
    The Weston A. Price Foundation strongly urges the Senate 
Agriculture Committee to examine the policies that have led to 
industrial agriculture's current hegemony. This system has led to an 
enormous increase in food-borne illness--not only from the animals 
themselves, but also from produce contamination due to runoff water 
from confinement facilities--as well as the proliferation of chronic 
disease, including our biggest killer, heart disease.
    Researchers in Holland have discovered that vitamin K2 protects 
against atherosclerosis, and they are predicting that in 20 years, 
heart disease will be defined as a deficiency of vitamin K2. We also 
now know that vitamin D protects against heart disease. The great 
increase in heart disease in this country has exactly paralleled the 
trend to confinement agriculture and the disappearance of vitamins D 
and K2 from the traditional animal foods that formerly supplied them--
liver, butter, cheese, egg yolks and meat fat. Vitamins D and K2 are 
also essential for neurological development and fertility.
    The confinement animal system is not only cruel to animals and hard 
on the environment; not only does this system deplete our animal foods 
of vital nutrients; not only does the centralization of animal 
production make our food supply vulnerable to terrorism; but it also 
raises the specter of actual starvation. The genetic pool of animals 
used for industrial food production is extremely narrow and many 
veterinarians have expressed concern about the possibility of a kind of 
``animal dust bowl'' in which this limited genetic range is wiped out 
by an opportunistic organism for which these animals have no natural 
immunity. Several years ago the confinement poultry operations in the 
Shenandoah were obliged to remove 1,000 tractor trailer loads of 
chickens wiped out by bird flu; and as the average lifespan of dairy 
cows declines (now at about 42 months, compared to 12 years for a cow 
on pasture), the dairy and industry will continue to feel the economic 
pressures that allow increasing numbers of sick animals into the food 
chain.
    These examples are harbingers of greater dangers to come. 
Antibiotics and arsenic added to feed can only stave off a mass die-off 
for so long, a die-off that could have drastic consequences for 
everyone in the country, including your own children and grandchildren. 
The only protection against mass animal die-off is a transition back to 
small pasture-farms raising a genetically diverse range of animals that 
have natural immunity thanks to healthy, traditional animal husbandry 
practices. Our farm policy should favor these types of farms as a 
matter of human survival.
    I would be happy to testify on this subject and request that the 
Weston A. Price Foundation be included at future hearings.
    The Weston A. Price Foundation is a 501C3 nutrition education 
foundation with the mission of disseminating accurate, science-based 
information on diet and health. Named after nutrition pioneer Weston A. 
Price, DDS, author of Nutrition and Physical Degeneration, the 
Washington, DC-based Foundation publishes a quarterly journal for its 
10,000 members, supports 400 local chapters worldwide and hosts a 
yearly conference. (202) 363-4394, www.westonaprice.org <http://
www.westonaprice.org/>,<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5831363e37182f3d2b2c373639282a313b3d76372a3f76">[email&#160;protected]</a>
    Sally Fallon, MA, is founding president of the Weston A. Price 
Foundation and author of the best-selling nutritional cookbook 
Nourishing Traditions (with Mary G. Enig, PhD). An articulate 
communicator, she is a widely quoted expert on traditional diets and a 
frequent contributor to holistic health publications.

    Senator Kohl. Thank you.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for being with us today.
    Mr. Pacelle, you mentioned in your testimony that the 
videoing that went on and the observation by a member of The 
Humane Society was a random selection at Hallmark?
    Mr. Pacelle. That's correct.
    Senator Craig. Would you expand on that for us? Is that a 
practice that The Humane Society gets involved in on a regular 
basis? They select different slaughter environments, and video 
for that purpose?
    Mr. Pacelle. We've--we've been very concerned, I mean, the 
organization has always been concerned, and as I mentioned, the 
founder of the organization, in the 1950s, focused on 
slaughterhouse abuse and helped stimulate the passage of the 
Humane Slaughter Act.
    But we have a big charge, at The Humane Society, to protect 
pets, and wildlife, and many other creatures, and I'd say we've 
re-doubled our commitment to address concerns about the 
mistreatment of animals in industrial agriculture. So, we were 
putting more resources into that, and this investigation was a 
bit of a novel one for us.
    Senator Craig. That does not help me in--oh, so--maybe it 
does help me, help me understand it. So, the randomness of the 
particular action was that, on this day you chose a 
slaughterhouse, whereas you might not choose other 
slaughterhouses over a period of time, you would look at other 
opportunities--or I should say, situations--where there might 
be inhumane treatment of animals?
    Mr. Pacelle. Our investigators are busy looking at puppy 
mills----
    Senator Craig. Yes.
    Mr. Pacelle [continuing]. Looking at the trade in dogs and 
cats in the Philippines for meat--for so many different 
reasons, they're spread thin. We chose to take a look at a 
place in the Southwest United States, and again, we didn't do a 
broad risk assessment and say, ``Okay, let's zero in on this 
one,'' our guy just applied for a job at that facility and got 
it, they were happy he didn't leave after 4 or 5 days, because 
a lot of the employees do. He stuck around for 6 weeks, and he 
stuck around because he did see terrible things going on.
    But, because there are very few cases made on farm animal 
cruelty, and because it is rare for USDA to take serious action 
on an animal-welfare related issue, we felt we had to amass a 
preponderance of evidence before we released this publicly. And 
when we did release it, we gave it to the District Attorney of 
San Bernardino County.
    Senator Craig. That is my next question, if what you saw, 
or what your personnel saw to be so egregious--and a clear 
violation of current rules and regulations of USDA--why did you 
not immediately come to USDA or the U.S. Attorney General? You 
chose a local, elected law enforcement officer, who had no 
jurisdiction over that slaughterhouse?
    Mr. Pacelle. The District Attorney of San Bernardino County 
does have jurisdiction in the sense that California does have a 
strong animal cruelty statute----
    Senator Craig. That's a local, not a State official, then 
why did you not go to the State officials?
    Mr. Pacelle. The way enforcement occurs in California is at 
a county level.
    Senator Craig. Okay, all right.
    Mr. Pacelle. The State Attorney General doesn't really have 
much authority. We believe that the most serious penalties 
could be meted out with the prosecution of individuals who 
perpetrated these crimes, through the Office of the District 
Attorney. Obviously--and we work on a lot of dog fighting, and 
cock fighting, animal cruelty cases--we work with D.A.'s all 
the time. Generally speaking, and this one is no different, 
they want to keep the information quiet, while they conduct an 
investigation. We support----
    Senator Craig. No, I appreciate that. But, what this has 
spiraled into is a very real question of the quality and safety 
of the food supply. And if you are simply working over months 
to make a case, and you are only going to choose to prosecute, 
and not to stop the food supply from being contaminated by 
downer cows, was there not a sense of urgency, here?
    Mr. Pacelle. Senator Craig, we have a great sense of 
urgency, and that's why we----
    Senator Craig. But it isn't demonstrated by the period of 
time----
    Mr. Pacelle. Well, I'm going to----
    Senator Craig [continuing]. You took to expose this.
    Mr. Pacelle. I'm going to tell you why--I'm going to tell 
you why it's urgent, and why this case is not so unusual.
    We have been demanding to this Senate--and the Senate has 
passed it several times, it's really a House issue--to stop the 
processing of downer cows in the food supply. That's happening 
right now, the OIG demonstrated it in 2006. It's been happening 
every week, and every month, and every year--downer cows are 
going into the food supply, and it is a risk--it's a terrible 
humane handling issue, it's an issue of animal cruelty--but is 
the risk here----
    Senator Craig. Okay.
    Mr. Pacelle [continuing]. Worse than what's going on----
    Senator Craig. I'm not sure you and I have a dispute over 
that. As long as we understand why that is a downer cow, that 
she was not physically injured, but there's an illness, or a 
disease or a problem. I used to ship cattle. I was very 
cautious on how they got onto trucks, how they were handled, 
because I wanted them handled in a humane fashion. I know that 
mistreating of animals, packing them into trucks can produce 
downers, simply by the crush and the impact of numbers of 
livestock.
    But, let's go back--if this is a food chain issue, if this 
is a worry about the contamination of a food chain, you just 
told me you turned it over to a prosecutor to prosecute people, 
not to stop the action, and correct the quality of the food 
chain. I mean----
    Mr. Pacelle. That correction occurred. And it may not have 
occurred on the timeframe that USDA wanted--I understand their 
interest in getting the information right when the 
investigative materials were ready. We turned them over, right 
away, to the San Bernardino District Attorney, but I just 
wanted to underscore this--that the threat is every day.
    Senator Craig. Well----
    Mr. Pacelle. The threat is now, and until this policy is 
changed, we are playing Russian roulette with the American food 
supply.
    Senator Craig. So--and I'll close, I'm out of time, and 
I'll go to a second round, if necessary.
    There is a reality here. One of the first things I heard in 
the recall was, from the time it had occurred and been 
documented, until the time action was taken--which now appears 
to be, in part, a result of your failure to report it to the 
right people, immediately--because you were ``attempting to 
make a case''--food was consumed, meat was consumed, that might 
have been at risk. People could have been injured by that food 
that was at risk.
    Mr. Pacelle. And that's the USDA's responsibility, to 
ferret that out, we----
    Senator Craig. But, if you knew a law was being violated 
and contaminated animals were going into the food chain, there 
is a responsibility on your part, too, is there not?
    Mr. Pacelle. The responsibility squarely rests with this 
plant that violated the law.
    Senator Craig. You and I both agree on that. No question 
about that.
    Mr. Pacelle. The responsibility from a regulatory and 
oversight perspective rested with USDA--we cannot--please don't 
take--I'm very confident about the work of The Humane Society, 
and I love my staff--but we cannot protect the safety of the 
food supply in America. We wanted to make sure there was no 
whitewash of this case----
    Senator Craig. Okay.
    Mr. Pacelle [continuing]. We had a strong case, it needed 
to develop. We thought that there were clear violations of 
criminal statutes in California--the States prosecute most 
animal cruelty, that's why we went there.
    Senator Craig. Thank you. My time is up. But there is a 
reality of timing that you have not effectively, and 
responsibly addressed.
    Thank you.
    Senator Kohl. Senator Harkin.
    Senator Harkin. Should, Mr. Boyle, should all downer cattle 
be removed from the food chain? Regardless?
    Mr. Boyle. Well, first off, the vast majority of them are, 
but not because downers are per se unhealthy animals and unfit 
for human consumption, as Mr. Pacelle noted--until we had our 
first case of BSE, we did not have the prohibition of the vast 
majority of downer animals, that are not allowed to be 
inspected ante mortem.
    And the reason for that, is that an inspector cannot make a 
determination regarding the central nervous system disorders, 
or the BSE-related health or illness of an animal while it's in 
a reclining position. That determination can only be made when 
that animal is ambulatory.
    Hence, the prohibition on presenting non-ambulatory animals 
for ante mortem inspection. Because you cannot determine 
whether there's a BSE risk there.
    There is a narrow exception that the Department explained, 
that after an animal is presented, and passed for ante mortem 
inspection, if that animal subsequently goes down in the 
ensuing brief period of time, it does not necessarily mean, 
once again, you have a BSE-related issue. It does not suggest 
that it has not been appropriately inspected by the inspector.
    What is required, under the regs, and what has not happened 
here, is that it was not represented as the plant should have. 
And that is a significant plant failure, with significant plant 
consequences.
    Just because an animal is down--as Senator Craig intimated 
when he was engaging in the last round of questions--there are 
a lot of reasons why an animal may go down. It's always painful 
to see, it's extremely regrettable, the industry works very 
hard to avoid it, but it is not, per se, a food safety, or a 
BSE-related issue. That is why the Department exercised the 
discretion in the rulemaking, in the final regulation, in this 
very narrow parameter, to allow the inspector to re-inspect the 
downed animal to verify that it is safe for harvest for beef.
    Mr. Pacelle. I mean, this is the charade of this rule. That 
somehow you can parse these cases of illness and acute injury--
the veterinarians cannot, even if they're an outstanding, 
fantastic veterinarian--they don't have the tools, there are 
too many animals, they don't have the tools, the testing--even 
for BSE--is a post-mortem test--there's not some fast test 
that's going on.
    We also know that downer cows are three times more likely 
to have E. coli, they're more likely to have salmonella--
they're wallowing in manure, it's all over their hides.
    This persisted for years. The only reason we have this rule 
is because we pushed for it, and we had the mad cow case. It 
takes a crisis, sometimes, for USDA to act--let's get ahead of 
this. Let's have this Congress codify a no-downer ban, and 
let's have the USDA go back to the Veneman rule and implement 
it properly. They undercut it with guidelines that 
countermanded it.
    Mr. Boyle. Thank you very much, Senator Harkin.
    I'd like to shift back, at least away from the rhetoric, 
and the impassioned emotions here, and focus, for a moment, on 
the science, and the economics, here.
    Mr. Pacelle just said that downed animals in a chute in 
that narrow window have a greater likelihood of generating E. 
coli-contaminated, and salmonella-contaminated beef. 
Theoretically, that's possible. But if you look at the 
microbiological test results of the finished product coming out 
of that plant, the AMS records will show that all of the lots 
they tested--and there was extensive testing, on school lunch 
program product, even above and beyond the normal amount of 
testing that occurs, which is quite extensive in and of its own 
right--none of them were positive for E. coli. And only two 
lots--out of 2 years production--were positive for salmonella.
    So, the suggestion that we have an increased risk of 
pathogen contamination in this situation is not supported by 
the test results.
    Also, yesterday The Humane Society filed a lawsuit against 
USDA, focused upon this issue--to preclude the use of re-
inspection of downed animals in that narrow circumstance to see 
if they are healthy for the purpose of harvesting the beef. And 
they cited a statistic that--that didn't suggest, they said--
there is a 50 times greater likelihood of BSE in that animal 
that, moments earlier, had been inspected and passed during the 
ante mortem inspection process. And now that it's gone down, 
there's a 50 times greater likelihood that it's now suddenly a 
positive animal for BSE? That data is drawn from the experience 
in the European Union and the United Kingdom, where they had an 
epidemic of BSE, where they had hundreds of thousands of cases 
of BSE.
    And the findings suggest there's a 20 to 50 times greater 
percentage--in that context, in the United Kingdom, in the late 
1980s and the early 1990s. But, if you ask the scientists, 
given our BSE status, given the fact that we've had three--only 
two of them indigenous to our native herd, despite significant, 
enhanced testing--a rate of one in a million positive for BSE, 
based upon the results of that survey program--the scientists 
will tell you there is zero risk, when that animal passes ante 
mortem inspection, and then subsequently in the brief period 
thereafter, before processing, goes down.
    And then, finally, the whole economic implication that the 
company wants to do whatever it can to derive whatever profit 
by whatever means. I am not familiar with a business school in 
the United States of America that would suggest to its students 
that violating Federal regulations is a long-term strategy for 
economic success. And clearly, the folks at Hallmark/Westland 
today, have to be of the same point of view.
    Mr. Pacelle. May I--I'm sorry, it's your control.
    Senator Harkin. My time is out.
    Senator Kohl. Go ahead, go ahead, Mr. Pacelle.
    Mr. Pacelle. I just wanted to say that yes, it is the data 
from Europe, that's the best data pool to draw from, and that's 
why we invoke it, that's why experts invoke it, that's why USDA 
invoked it in its Federal Register Notice on the issue, 
extensively documented in the USDA rule on the downer issue. 
Because it's relevant, and pertinent.
    But if we look at the North American experience, we've had 
15 BSE-positive animals turn up. Thirteen in Canada, two in the 
United States. Thirteen of the 15 were downers. That's a pretty 
strong correlation to me.
    Senator Harkin. Well, I don't--I thank you, Mr. Chairman--I 
don't know how I feel about that issue, I just--I'm going to go 
back now, again, and find out--what did we do after the Stanko 
incident in Colorado? I actually chaired those hearings out 
there, and those guys--both brothers were sent to jail, and 
that's what they were doing, they were dragging downer cattle 
into the slaughtering room.
    That was, I don't know, I got a little confused at the 
time--maybe it was the late-seventies. But I was chairing the 
Livestock, Dairy and Poultry Subcommittee in the House at that 
time and I swear that, after that, we took action, Pat, to do 
something about it--I can't remember what it was.
    Mr. Boyle. Actually, Senator, that incident in the late 
seventies?
    Senator Harkin. Yeah?
    Mr. Boyle. While it involved downer animals, the violation 
was extremely egregious--they were processing animals without 
any ante mortem inspection, outside of the inspection 
regulations. Not an isolated downer in a chute, or----
    Senator Harkin. Well, maybe that was before we had the rule 
on ante mortem--I don't, I can't--I don't remember when that 
all came in. But, I thought we took care of that, but----
    So, I'm not certain about this. That's something we've got 
to think about.
    Mr. Pacelle. You may have tried diligently, Senator Harkin, 
but the effect is that we've had downers, day after day, week 
after week, year after year----
    Senator Harkin. But, certainly, Mr. Pacelle, you would also 
agree that if a cow is going down a chute and trips, and goes 
down on his knees--and we see that happen all of the time--
surely, you don't say that that--and that cow is able to get 
back up--that somehow you can't go ahead and slaughter that 
cow, can you?
    Mr. Pacelle. If the cow can get back up?
    Senator Harkin. Yeah, if the cow can get back up.
    Mr. Pacelle. Oh yeah, no--the definition of a downer is an 
animal that can't get up once they're down. They're in a 
recumbent position, and they stay in a recumbent position.
    But I do dispute the notion--and this is really the crux of 
the debate in Congress on the downer issue--that the 
veterinarians can distinguish between illness and injury. You 
may go down because you have a neurological problem--that's why 
you stumble and fall. And it puts too much of a burden on the 
veterinarian to make that distinction, and why try to do it, 
when it represents a fraction of the animals that are going to 
slaughter.
    There are 35 million cattle slaughtered in the United 
States, a couple of hundred thousands were estimated to be 
downers, before the rule was passed by Veneman in 2004--why are 
we trying to get these few animals into the system, 
compromising their welfare, and threatening the food supply, 
because all of the data is overwhelming, and USDA put it in its 
rule?
    Senator Harkin. But, again, I say, Mr. Pacelle, if the cow 
went down, broke its leg, it can't get back up----
    Mr. Pacelle. Yes, but how do we know----
    Senator Harkin. That doesn't mean it has a neurological 
problem.
    Mr. Pacelle. But how do we not know that the broken leg was 
the consequence of a larger illness. Animals who are ill 
stumble and fall.
    If you or I had a terrible sickness, as compared to being 
perfectly healthy--we would be more likely to fall, if we were 
ill.
    Senator Harkin. So, you're saying, just because we don't 
know. Well, that's probably a legitimate point, maybe. I don't 
know, I'll have to think about it.
    Senator Kohl. Just to point, Senator Harkin, back in 2004, 
Secretary Veneman put in that ``no downer, no exceptions,'' you 
know, they thought it was the right thing to do then.
    Mr. Boyle.
    Mr. Boyle. As an interim final rule, that was the scope of 
the interim final rule. When they looked more--and that was a 
rule adopted in the wake of our first BSE. And I don't 
criticize the Department for promulgating those particular, 
responsive rules to that first case.
    But upon further reflection, looking at the science 
involved, the expertise of the veterinarians, the role they can 
play, the Department concluded that in a very narrow 
circumstance, the fact that an animal that was ambulatory was 
inspected, was passed, and subsequently--in the short period of 
time thereafter, before processing, went down--should not 
automatically preclude it from going into the food supply. 
Instead, the inspector who passed it originally should be 
called to conduct a subsequent inspection.
    That was the Department's determination, it seems 
reasonable. And when it's enforced--as it is throughout the 
country--it makes sense, from our perspective, as an industry.
    But when it is ignored, it has terrible consequences, and 
it should be punished. And I think, in this case, it has been.
    Mr. Pacelle. Let's be clear, Mr. Chairman, that if an 
animal falls and breaks a leg, that animal may not have 
illness. I mean, the broken leg's a problem and it's certainly 
not very humane to move an animal with a broken leg--how are 
they going to get the animal in there? But the issue is not 
that--our argument is not that all animals who break a leg have 
the problem--it's that the veterinarian doesn't have the tools 
to make an accurate assessment.
    And that it's a small pool of animals--why are we risking 
so much--we had the mad cow case that cost the industry 
hundreds of millions of dollars in 2003. Now, this one is 
costing the industry extraordinary sums of money. Why are we 
fooling around with this? Why are we messing around with this? 
It doesn't make economic sense.
    I mean, the science, we think, is all on our side, the 
humane issues are all on our side, but the economics--these 
guys should be leading the fight? They should be working hard 
for this.
    Senator Kohl. He's fighting good, Mr. Boyle?
    Mr. Boyle. And, my friend, we are. And we're pleased that 
you're using our Animal Handling Guidelines, and the audit 
tools, as well.
    Let me elaborate, briefly, on the standard that applies for 
the veterinarian that looks at that animal that has passed ante 
mortem inspection, and subsequently goes down.
    If the inspector can see an acute injury--if it's plain, 
upon visually viewing that animal that it has broken a leg, 
then that animal is allowed to proceed. If the veterinarian 
cannot physically see an acute injury that can explain clearly 
why that previously ambulatory animal is now down, that animal 
is not allowed to proceed.
    And even with the acute injury, once that animal enters the 
chain, there are special procedures that apply at post-mortem 
inspection, to reassure and reaffirm that the veterinarian's 
initial decision--that it was the acute injury, not some other 
disease that caused it to go down--is actually a correct one 
that can be verified at post-mortem inspection.
    Senator Kohl. All right, Senator Craig--anything more?
    Senator Craig. No, I think my next line of questioning was 
going to be with Mr. Boyle, as it relates to the industry 
guidelines. I think you've already walked us through those.
    We've had a bad actor, here. And there's no question about 
it. And there is concern about the quality of meat coming out 
of that particular slaughterhouse, and there's every reason for 
us to be anxious about it, there's every reason for this 
committee to hear, and to see if there can't be some way to 
improve it.
    And I go back to what Senator Bennett said earlier, and 
instill with the industry a culture. And I thank The Humane 
Society for their due diligence--to a degree. I'm a little 
concerned when the hand-wringing occurs that this sense of 
urgency that was displayed because of the risk of human injury, 
because you were trying to make a legal case, I'm not quite 
sure that I can be as responsive to the righteousness of the 
argument.
    I am going to be very responsive, to make sure that the 
industry does it right. And I thank The Humane Society for 
their due diligence, in regard to the overall kind of oversight 
that you do.
    Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Kohl. Gentlemen, you've been great. You've shed a 
lot of light on a serious issue, and we will see what we can do 
to make things better, with your support.
    Mr. Boyle. Thank you, Mr. Chairman.
    Thank you, Senator Craig.
    Mr. Pacelle. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Herb Kohl

    Question. The Agricultural Marketing Service (AMS) had been 
purchasing meat from the Hallmark/Westland plant for the School Lunch 
Program and others. Under current law, does AMS allow any downer 
animals, regardless of whether or not they went down after their ante-
mortem inspection, to be used for the foods they purchase?
    Answer. No. The specification and contractual requirements are very 
clear in this regard. Meat products derived from non-ambulatory 
disabled livestock are not permitted in AMS purchases. The Hallmark/
Westland recall resulted from deliberate non-compliances with FSIS 
regulations and AMS contract requirements.
    Question. Can you state with any assurance that what was occurring 
at Hallmark/Westland is not occurring at other plants? If so, how can 
you confirm that?
    Answer. We believe the non-compliances with FSIS regulations and 
AMS contract requirements at the Hallmark/Westland facility is an 
isolated event. However, we are not waiting for the completion of the 
investigation to act.
    FSIS has already taken a number of steps to strengthen our 
inspection system. As announced on February 28, 2008, FSIS has 
implemented a series of interim actions to verify and thoroughly 
analyze humane handling activities in all federally inspected 
establishments.
    FSIS has increased the amount of time allocated per shift by 
inspection program personnel to verify humane handling activities and 
to verify that animals are handled humanely in ante-mortem areas. FSIS 
is also conducting surveillance activities to observe the handling of 
animals outside the approved hours of operation from vantage points 
within and adjacent to the official premises. A notice has been issued 
to all FSIS inspection program personnel to reinforce the work methods 
for conducting humane handling verification activities at all levels 
and to ensure the greatest utility of the Humane Activities Tracking 
System (HATS) Program.
    Surveillance and inspection activities are prioritized and focused 
based on existing data such as the category of livestock handled at the 
facility, humane handling data, observations made at the facility 
during regular inspection and a plant's operating schedule.
    FSIS will continue to collect information in HATS, which provides 
an accounting of the time spent by FSIS inspection program personnel 
performing specific tasks and the results of that inspection related to 
humane handling and slaughter. Starting on March 3, 2008, FSIS 
inspection program personnel assigned to federally inspected livestock 
slaughter establishments increased the amount of time that they spend 
conducting HATS activities from anywhere between 50 and 100 percent. 
This increased HATS inspection will continue for 60 days and will be 
closely measured during that time.
    Prioritization will help to ensure the optimal use of resources to 
ensure humane handling and food safety. FSIS is focusing surveillance 
and inspection activities at establishments where older or potentially 
distressed animals are slaughtered, such as facilities that handle 
dairy or veal cattle. At these facilities, the time spent performing 
HATS activities will be doubled. At facilities with contracts from the 
AMS for nutrition assistance programs, regardless of the type or class 
of the animal slaughtered, HATS verification time is being doubled. At 
facilities where non-ambulatory livestock are infrequently presented, 
such as in slaughter facilities that handle young market classes 
including steers, heifers, market hogs, and lambs, an additional 50 
percent of HATS verification time may be required.
    At least once every 2 weeks, a District Veterinary Medical 
Specialist or a district analyst is verifying that inspection personnel 
at each official livestock slaughter establishment are conducting the 
appropriate increase in HATS verification time. Any plant found not to 
be in compliance will be reported to the in-plant supervisor and the 
frontline supervisor.
    Meanwhile, FSIS will begin reviewing the HATS to determine what, if 
any, adjustments are needed to maximize its utility as a tracking tool 
to improve compliance.
    FSIS has audited the 18 beef slaughter establishments that contract 
with AMS for Federal nutrition assistance programs. This is the first 
in a set of audits we will be conducting. AMS has also increased audit 
frequencies and oversight at slaughter establishments that supply raw 
materials to our purchase programs as a corrective and preventative 
measure. Additionally, we are cooperatively working with FSIS on cross-
utilizing AMS employees to provide an enhanced surveillance program for 
the livestock holding and movement areas of slaughter establishments.
    The investigation being led by OIG with support from FSIS and AMS 
is ongoing. Once the investigation has concluded, we will have 
additional information that, along with the results of the additional 
verification activities, will determine the actions for FSIS oversight, 
inspection and enforcement that may be required.
    Question. Can you tell us how much time FSIS inspectors spent each 
day, on average, ensuring that this plant was following USDA's rules on 
downed animals and humane slaughter?
    Answer. At this facility, on average, 90 minutes throughout the day 
were spent verifying humane handling activities in the ante-mortem 
area. The number of inspectors assigned to an establishment is 
dependent upon the size of the facility, the type of products produced 
as well as their production volume. Hallmark/Westland Meat Packing 
Company had five FSIS inspection program personnel at the facility each 
day of operation. There were three on-line inspectors, one public 
health veterinarian and one off-line inspector. FSIS veterinarians and 
other inspection personnel are not stationed in the ante-mortem area 
for the entire day, although they do return randomly to conduct humane 
handling verification activities. Other inspection activities are 
conducted off-line when ante mortem inspections have been completed. 
These inspectors were present at the slaughter facility every day for 
the entire 8-hour shift.
    Question. How many plants have cameras or other ways for FSIS 
inspectors to observe slaughter operations undetected by plant 
personnel?
    Answer. FSIS does not track the voluntary use of this type of 
equipment by the plant. FSIS inspection program personnel verify that 
humane handling requirements are being met through unannounced 
inspections.
    The Federal Meat Inspection Act (FMIA) and implementing regulations 
provide for 24/7 access to all facilities and access to all plant 
recordings, including video records/recordings.
    Question. Do you have the authority to require plants to either 
install cameras in slaughter areas or otherwise make certain that 
inspectors can know at all times what is happening in all parts of the 
plant without tipping off the plant personnel?
    Answer. The Federal Meat Inspection Act (FMIA) and implementing 
regulations provide for 24/7 access to all facilities and access to all 
plant recordings, including video records/recordings.
    Question. Will you support the ability of inspectors to improve 
their surveillance methods either through the use of cameras or other 
means?
    Answer. The investigation being led by OIG with support from FSIS 
and AMS is ongoing. Once the investigation has concluded, we will have 
additional information that, along with the results of the additional 
verification activities, will determine the actions for FSIS oversight, 
inspection and enforcement that may be required.
    Question. Can you please provide a brief explanation of the 
measures you are using to ensure that meat used in the School Lunch 
Program is safe?
    Answer. All meat and meat products purchased for Federal food and 
nutrition assistance programs must be produced in a facility operating 
under FSIS inspection. AMS, like other large-volume buyers of high 
quality products, imposes additional requirements in accordance with 
the Federal Acquisition Regulation to ensure products are produced in 
accordance with best industry practices and meet the needs of the end-
user. To establish the specification and contractual requirements, AMS 
used the best science available and benchmarked against other high 
quality purchasers. The requirements for ground beef include full 
trace-back capability; pathogen intervention at slaughter; statistical 
process control evaluation for pathogens, indicator microbes, and fat 
content; strict temperature and processing controls; and, tamper-proof 
packing. Each contractor is required to provide a detailed technical 
document that describes how each specification requirement will be met. 
Contractors are subject to routine audits and an AMS employee is 
present when the product is processed.
    Question. Since much of the Hallmark/Westland products were 
provided through USDA programs to the States, how much is this recall 
going to cost them? Will USDA see that these States are properly 
reimbursed?
    Answer. At this time, we are still compiling the costs related to 
the recall and precise figures are not available. USDA will reimburse 
States in accordance with established procedures for costs associated 
with the replacement and destruction of the recalled products.
    Question. What do you think the eventual total dollar value of this 
recall will be, and how many products will be involved?
    Answer. USDA doesn't estimate the dollar value of recalls or 
recalled products outside of the Federal nutrition assistance programs. 
At this time, we are still compiling costs related to the recall and 
precise figures are not available. Any estimate would be premature at 
this point. Approximately 50.3 million pounds of coarse and fine ground 
beef were purchased from Hallmark/Westland during the period of the 
recall. All of the 50.3 million pounds have been accounted for and we 
are in the process of destroying those products that remain on hold.
    Question. Did this plant have a history of humane handling and 
slaughter violations? If so, please provide relevant details.
    Answer. In December 2005, an FSIS District Veterinary Medical 
Specialist conducted a routine humane handling audit and issued 
Hallmark/Westland Meat Packing Company a humane handling related non-
compliance record (NR) because of overly aggressive driving of animals 
and multiple structural inadequacies in the pens. The plant promptly 
implemented appropriate corrective measures. In May 2007, FSIS 
conducted another audit that noted no excessive use of electric prods, 
or any other regulatory non-compliance.
    FSIS inspection program personnel conduct carcass-by-carcass 
inspection and verify that establishments follow all food safety and 
humane handling regulations. FSIS inspection program personnel also 
verify that the establishment maintains proper sanitation procedures; 
it follows its Hazard Analysis and Critical Control Point (HACCP) plan 
and complies with all FSIS regulations pertaining to slaughter and 
processing operations. This requires continuous inspection of slaughter 
and processing operations. Furthermore, offline FSIS personnel conduct 
random humane handling inspections at intermittent times during the 
day.
    If the establishment fails to maintain sanitation, does not follow 
its HACCP plan or violates other regulations, FSIS inspection program 
personnel will issue a citation to the establishment in the form of a 
noncompliance record to document the noncompliance. If necessary, they 
could also take regulatory control action, such as a Notice of Intended 
Enforcement or a Suspension of Inspection.
    Question. Does USDA have the authority to adopt objective standards 
and guidelines similar to those adopted by the American Meat Institute?
    Answer. USDA can issue objective humane handling criteria through 
the public rulemaking process, as the current statute allows. 
Additionally, AMS can, through contractual requirements, impose 
objective animal welfare requirements for its purchase programs. At 
this time, we are working with academia, industry leaders, animal 
welfare experts and others to determine the scope and extent of any 
additional requirements that may be implemented for future purchase 
seasons.
    Question. Can you please explain the penalties, both civil and 
criminal that USDA and the Federal Government has available for 
companies in situations like this?
    Answer. The Federal Meat Inspection Act provides for criminal 
penalties and civil injunctive relief.
    Question. How many cattle each year are approved by USDA at ante-
mortem inspection, then (a) subsequently go down and are condemned, and 
(b) subsequently go down and are approved for slaughter? If you don't 
have an exact number, please provide an estimate and explain how it was 
derived.
    Answer. There are approximately 600 cull cattle that pass ante-
mortem inspection then suffer an acute injury and after additional 
inspection by the Public Health Veterinarian are allowed to proceed to 
slaughter of the 6.3 million cull cattle slaughtered per year. Of the 
27.4 million steers and heifers slaughtered per year, approximately 350 
initially passed ante-mortem, were reinspected and then passed for 
slaughter. Overall, less than 1,000 of the 34 million cattle 
slaughtered per year initially passed ante-mortem, were reinspected and 
then passed for slaughter.
    Question. What specific humane handling violations would constitute 
an immediate shutdown of a plant?
    Answer. When inspection program personnel observe animals being 
injured or treated inhumanely, they are to take immediate enforcement 
action. As stated in FSIS Directive 6900.2, Revision 1, if animals are 
being treated inhumanely or injured, inspection program personnel are 
to take a regulatory control action (i.e., apply a retain/reject tag) 
as set out in 9 CFR 500.2(a)(4), Inhumane handling or slaughter of 
livestock.
    However, if the observed inhumane treatment is of an egregious 
nature, the regulations at 9 CFR 500.3(b) apply. The regulations state, 
``FSIS also may impose a suspension without providing the establishment 
prior notification because the establishment is handling or 
slaughtering animals inhumanely.'' Therefore, the inspector in charge 
(IIC) is to orally notify plant management of the suspension and 
immediately notify the District Office (DO) and the District Veterinary 
Medical Specialist (DVMS) for prompt documentation of the suspension 
action. The IIC is also to document the facts that serve as the basis 
of the suspension action on a memorandum of interview (MOI) and 
promptly provide that information to the DO and the DVMS for their use 
in documenting the Notice of Suspension. The DO and the DVMS will make 
an official assessment of the suspension, take any action with respect 
to it that they deem appropriate, and notify the Executive Associate 
for Regulatory Operations designated for the District.
    An egregious situation, which would lead to immediate shutdown of 
the plant, is any act that is cruel to animals or a condition that is 
ignored and leads to the harm of animals such as: making cuts on or 
skinning conscious animals, excessive beating or prodding of ambulatory 
or non-ambulatory disabled animals, dragging conscious animals, driving 
animals off semi-trailers over a drop off without providing adequate 
unloading facilities (animals are falling to the ground), running 
equipment over animals, stunning of animals and then allowing them to 
regain consciousness, multiple attempts, especially in the absence of 
immediate corrective measures, to stun an animal verses a single blow 
or shot, dismembering live animals, such as removing feet from live 
animals, leaving disabled livestock exposed to adverse climate 
conditions while awaiting disposition, or otherwise causing intentional 
unnecessary pain and suffering to animals, including situations on 
trucks.
                                 ______
                                 

               Questions Submitted by Senator Tom Harkin

                              DOWNER RULE

    Question. According to the Food Safety and Inspection Service's 
(FSIS) final rule regarding the slaughter of non-ambulatory animals, if 
an animal is downed after it passes ante-mortem inspection, it is the 
responsibility of the plant to notify the FSIS inspector that the 
animal was downed after the inspection. The rule prohibits the 
slaughter of cattle that are unable to stand or walk upon inspection 
because the inability to stand or walk can be a clinical sign of BSE. 
Given that ante-mortem inspectors are not outside watching the animals 
in the pens at all times, it appears that there is a loophole in this 
FSIS regulation which places the burden on the establishment to call 
the inspector.
    What can USDA do to better enforce this regulation?
    Answer. The investigation being led by OIG with support from FSIS 
and AMS is ongoing. Once the investigation has concluded, we will have 
additional information that, along with the results of the additional 
verification activities, will determine the actions for FSIS oversight, 
inspection and enforcement that may be required.
    Question. What assurances does USDA have that this rule of 
contacting the Department if an animal is downed after ante-mortem 
inspection is being complied with?
    Answer. FSIS has already taken a number of steps to strengthen our 
inspection system and verify that plants are following proper 
procedures. As announced on February 28, 2008, FSIS has implemented a 
series of interim actions to verify and thoroughly analyze humane 
handling activities in all federally inspected establishments.
    FSIS has increased the amount of time allocated per shift by 
inspection program personnel to verify humane handling activities and 
to verify that animals are handled humanely in ante-mortem areas. FSIS 
is also conducting surveillance activities to observe the handling of 
animals outside the approved hours of operation from vantage points 
within and adjacent to the official premises. A notice has been issued 
to all FSIS inspection program personnel to reinforce the work methods 
for conducting humane handling verification activities at all levels 
and to ensure the greatest utility of the HATS program.
    Surveillance and inspection activities are prioritized and focused 
based on existing data such as the category of livestock handled at the 
facility, humane handling data, observations made at the facility 
during regular inspection and a plant's operating schedule.
    FSIS will continue to collect information in HATS, which provides 
an accounting of the time spent by FSIS inspection program personnel 
performing specific tasks and the results of that inspection related to 
humane handling and slaughter. Starting on March 3, 2008, FSIS 
inspection program personnel assigned to federally inspected livestock 
slaughter establishments increased the amount of time that they spend 
conducting HATS activities from anywhere between 50 and 100 percent. 
This increased HATS inspection will continue for 60 days and will be 
closely measured during that time.
    Prioritization will help to ensure the optimal use of resources to 
ensure humane handling and food safety. FSIS is focusing surveillance 
and inspection activities at establishments where older or potentially 
distressed animals are slaughtered, such as facilities that handle 
dairy or veal cattle. At these facilities, the time spent performing 
HATS activities will be doubled. At facilities with contracts from the 
AMS for Federal nutrition assistance programs, regardless of the type 
or class of the animal slaughtered, HATS verification time is being 
doubled. At facilities where non-ambulatory livestock are infrequently 
presented, such as in slaughter facilities that handle young market 
classes including steers, heifers, market hogs, and lambs, an 
additional 50 percent of HATS verification time may be required.
    At least once every 2 weeks, a District Veterinary Medical 
Specialist or a district analyst is verifying that inspection personnel 
at each official livestock slaughter establishment are conducting the 
appropriate increase in HATS verification time. Any plant found not to 
be in compliance will be reported to the in-plant supervisor and the 
frontline supervisor.
    Meanwhile, FSIS will begin reviewing the HATS to determine what, if 
any, adjustments are needed to maximize its utility as a tracking tool 
to improve compliance.
    FSIS has audited the 18 beef slaughter establishments that contract 
with AMS for Federal nutrition assistance programs. This is the first 
in a set of audits we will be conducting.
    Question. What incentive is there for a plant to report that an 
animal is downed after it passes ante-mortem inspection?
    Answer. FSIS regulations require that establishment personnel 
notify an FSIS Public Health Veterinarian when livestock became non-
ambulatory after passing ante-mortem inspection and before the animal 
proceeds to slaughter. If an establishment violates this or other 
regulations, FSIS inspection program personnel will take regulatory 
control or enforcement action as warranted. In the case of Hallmark/
Westland Meat Packing Company, this action led to a recall of 143 
million pounds and the ongoing suspension of their operations.
    Question. Please describe the additional measures taken by AMS to 
ensure that meat and poultry products purchased by Federal nutrition 
programs are safe.
    Answer. AMS, like other large-volume buyers of high quality 
products, imposes additional requirements in accordance with the 
Federal Acquisition Regulation. To establish the specification and 
contractual requirements, AMS used the best science available and 
benchmarked against other high quality purchasers. The requirements for 
ground beef include full trace-back capability; pathogen intervention 
at slaughter; statistical process control evaluation for pathogens, 
indicator microbes, and fat content; strict temperature and processing 
controls; and, tamper-proof packing. Each contractor is required to 
provide a detailed technical document that describes how each 
specification requirement will be met. Contractors are subject to 
routine audits and an AMS employee is present when the product is 
processed.
    Question. Should these additional measures be required for all meat 
and poultry inspected by USDA?
    Answer. No. The specification and contractual requirements for AMS 
purchases are designed to ensure products meet specific end-user needs. 
These requirements would not always be appropriate for across the board 
deployment for products entering commerce.
    Question. Were there AMS inspectors at the Hallmark/Westland 
facility? If so, could they have played a role in reporting violations 
of regulations?
    Answer. An AMS meat grader was present at the Hallmark/Westland 
facility when ground beef was being processed for delivery under 
Federal contracts. Additionally, an AMS auditor periodically audited 
the grinding and slaughter processes. The AMS meat grader monitoring 
the processing operation would not routinely have performed 
surveillance activities in the cattle holding and movement areas. We 
have increased AMS audit frequencies and oversight at slaughter 
establishments that supply raw materials to our purchase programs as a 
corrective and preventative measure. Additionally, we are cooperatively 
working with FSIS on cross-utilizing AMS employees to provide an 
enhanced surveillance program for the livestock holding and movement 
areas of slaughter establishments.

                 FOOD-BORNE PATHOGENS AND DOWNER CATTLE

    Question. A 2003 study led by USDA's Agricultural Research Service 
(ARS) suggests that downer cattle have a higher prevalence of E. coli 
O157:H7 than healthy cattle.
    Has ARS performed additional research to investigate this 
correlation?
    Answer. ARS was a collaborator in the Downer Cattle/E. coli O157:H7 
study published in 2003. The project was funded through a Specific 
Cooperative Agreement from ARS to University of Wisconsin-Madison 
through the auspices of the National Alliance for Food Safety and 
Security. ARS has not conducted or funded any further research in this 
area.
    Question. Will USDA's FSIS use the information from this study and 
subsequent studies to take additional measures and improve current 
regulations to keep downer cattle out of the food supply?
    Answer. FSIS uses the best available science to continually improve 
its regulations, policies, and programs.
    Question. Does USDA have plans to test any of the recalled meat for 
pathogens that cause food-borne illness, such as E. coli O157:H7? Why 
or why not?
    Answer. No. The product is already tested for pathogens as required 
by the AMS contract. The recall was not due to pathogens. It occurred 
due to noncompliance with a FSIS regulation.

                               INSPECTORS

    Question. Mr. Alfred Almanza, Administrator of USDA's Food Safety 
and Inspection Service, stated at the hearing that USDA is able to 
handle staffing shortfalls by having off-line inspectors fill 
shortfalls in on-line positions. One of the primary functions of off-
line inspectors is overseeing the humane handling of live animals and 
compliance with the downer rules.
    By using off-line inspectors to fill staffing shortfalls for on-
line inspections, is USDA able to ensure the humane handling of animals 
and compliance with the prohibition on the slaughter of downed cattle?
    Answer. We utilize our HATS, which provides FSIS with an accurate 
and complete accounting of the time spent by FSIS inspection program 
personnel performing specific tasks and the results of that inspection 
related to humane handling and slaughter under the requirements of the 
Humane Methods of Slaughter Act (HMSA).
    Under HATS, FSIS Public Health Veterinarians and other in-plant 
program personnel report their time and data for specific humane 
handling activities into HATS. District Veterinary Medical Specialists 
(DVMS) routinely verify the accuracy of the data entered. DVMS also 
conduct in-plant verifications of humane handling and slaughter, and 
are in regular contact with FSIS in-plant inspection program personnel 
regarding humane enforcement issues.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

    Question. Secretary Schafer, I would like to turn your attention to 
another matter, the President's budget proposal for fiscal year 2009. I 
was disappointed that the fiscal year 2009 budget proposed to close the 
Grand Forks Human Nutrition Research Center. What was USDA's 
justification for proposing to close the Grand Forks center?
    Answer. The Grand Forks Human Nutrition Research Center is one of 
six USDA Human Nutrition Research Centers. The past and current program 
at Grand Forks has addressed dietary requirements for mineral 
nutrition, an undertaking that is considered largely complete and no 
longer associated with a severe national health problem or research 
priority. In light of this success, the Department is recommending the 
consolidation of resources and the redirection of nutrition research to 
address the more critical obesity problem, which has become a serious 
national concern.
    Question. Under the Administration's proposal, the Federal 
employees and lab equipment at the Grand Forks Human Nutrition Research 
Center would move to nutrition labs in Davis, California and 
Beltsville, Maryland. According to an analysis by the University of 
North Dakota (UND), the cost to close the Grand Forks Human Nutrition 
Research Center and move its personnel and equipment to Davis and 
Beltsville would exceed $30 million. Most of this expense would be for 
new construction and remodeling at Davis and Beltsville to accommodate 
the Grand Forks equipment and employees. Did USDA evaluate the cost of 
moving the Grand Forks employees and equipment to the other two 
locations? What did it find? Did USDA consider the fact that the two 
other locations may not have the facility space to house the 
transferred employees and equipment? If so, how much do you expect it 
will cost to either renovate or build new space at both Beltsville and 
Davis?
    Answer. The closure of the Grand Forks center and the consolidation 
of its resources with other ARS Nutrition Research Centers located in 
California and Maryland will provide a more efficient and effective 
research program. Funds for new construction and remodeling would not 
be required. The state-of-the-art Nutrition Research Centers in Davis 
and Beltsville have the capacity required to accommodate the staff and 
resources at Grand Forks. The main cost incurred would be to relocate 
the scientists at Grand Forks to Davis and Beltsville, estimated at 
$960,000 but upwards of $3.5 million if all employees--scientists and 
support staff--opt to relocate. While there will be up-front costs 
associated with the move, the avoidance of operating, renovation, and 
maintenance costs at Grand Forks will result in substantial savings 
over the long term. USDA estimates a one-time deferred-maintenance cost 
savings of $2.9 million as well as $1.7 million annual savings in 
operating costs.
    Question. In addition, the University of North Dakota estimates 
that it will cost taxpayers about $4 million more a year for salaries 
because the transferred Federal employees would receive an automatic 
location pay increase because the Davis and Beltsville labs are located 
in urban areas. Did USDA take into consideration location pay rates and 
the fact that it will cost USDA more to employ the same scientist in 
Davis or Beltsville than it did when that scientist was located in 
Grand Forks? What did USDA learn? Where are the cost savings in closing 
the Grand Forks center?
    Answer. USDA does recognize the fact that locality pay rates in 
Davis and Beltsville are higher than in Grand Forks, North Dakota, and 
estimates an annual total increase in salary costs of approximately 
$50,000. Nevertheless, USDA believes that the long-term cost savings 
associated with the Grand Forks center closing will far outweigh the 
higher salary costs and will provide the resources necessary to focus 
on higher-priority research areas as well as allow the agency to 
function more efficiently and effectively.
    Question. Were you aware that obesity prevention is already a major 
component of the
    Grand Forks research portfolio? If so, why would USDA propose to 
transfer that research to higher-cost urban areas?
    Answer. The past and current program at Grand Forks has addressed 
dietary requirements for mineral nutrition, an objective that is 
considered largely complete and no longer reflective of a critical 
national health problem or research priority. Although a modest level 
of new research at the Grand Forks center has begun to address dietary 
issues in Native American communities in recent years, ARS has proposed 
the redirection and consolidation of this work at Davis and Beltsville 
in order to more effectively use available resources to meet the needs 
of all at-risk populations.
    Question. Mr. Secretary, I applaud the efforts by ARS to focus more 
attention on obesity prevention research. Obesity has become a national 
epidemic. The problem is particularly prevalent among rural and Native 
American populations. The Grand Forks Human Nutrition Research Center 
is the only Agricultural Research Service nutrition lab located in 
rural America and near Native American reservations. Can you explain 
why USDA would remove a major nutrition and obesity research resource 
located in rural America when obesity rates among rural and Native 
American populations are among the highest in this country?
    Answer. It is important for the ARS obesity research program to 
study a broad sample of the U.S. population at all risk levels in order 
to understand the causes of and solutions to obesity. Consolidated ARS 
obesity research programs and resources at Beltsville, Maryland, and 
Davis, California, in concert with other ARS Nutrition Research 
Centers, will address in a coordinated way the required broad sample of 
the U.S. population, including representative research segments in 
North Dakota and elsewhere that have significant rural and Native 
American populations. The moving of the program will not change the 
extent to which ARS research addresses obesity in rural and Native 
American populations.
                                 ______
                                 

            Questions Submitted by Senator Dianne Feinstein

    Question. Given the many millions of dollars the appropriations 
committee has given to USDA since 2003, specifically for humane 
slaughter oversight, can you tell me how this money has been spent?
    Answer. Please be assured that USDA shares Congress' concerns about 
humane handling and slaughtering and appreciates the Committee's 
support for providing resources for humane slaughter oversight. FSIS 
inspection program personnel are trained in humane handling, and are 
obligated to take immediate enforcement action when a humane slaughter 
violation is observed. Our Humane Activities Tracking System (HATS) 
provides FSIS with an accurate and complete accounting of the time 
spent by FSIS inspection program personnel performing specific tasks 
and the results of that inspection related to humane handling and 
slaughter under the requirements of the Humane Methods of Slaughter Act 
(HMSA).
    Under HATS, FSIS Public Health Veterinarians and other in-plant 
program personnel report their time and data for specific humane 
handling activities into HATS. District Veterinary Medical Specialists 
(DVMS) routinely verify the accuracy of the data entered. DVMS also 
conduct in-plant verifications of humane handling and slaughter, and 
are in regular contact with FSIS in-plant inspection program personnel 
regarding humane enforcement issues.
    There are nine specific HATS humane handling categories: adequate 
measures for inclement weather, truck unloading, water availability 
(and feed, if applicable), handling during ante-mortem inspection, 
handling of suspect and disabled livestock, electric prod/alternative 
object use, observations for slips and falls, stunning effectiveness, 
and checking for conscious animals on the rail prior to processing.
    In 2007, FSIS issued a total of 66 suspensions to federally 
inspected establishments, 18 percent (12 suspensions) of which were for 
egregious humane handling violations witnessed by inspection program 
personnel. Of the 6,200 federally inspected establishments, 
approximately 800 slaughter livestock and are therefore subject to the 
Humane Methods of Slaughter Act. In 2007, FSIS conducted approximately 
167,540 humane handling verification activities which resulted in 691 
noncompliance records (0.41 percent noncompliance rate) at these 
facilities. Noncompliance records for humane handling can be issued 
when the violation is less than egregious, such as not having water 
available in pens.
    The DVMS serves as the primary contact in each district for humane 
handling and good commercial practice issues and is the liaison between 
the district office and headquarters on all humane handling and good 
commercial practice matters.
    DVMS personnel provide training for new veterinary employees on 
agency humane handling and slaughter regulatory responsibilities, 
including ante-mortem inspection (before slaughter). Additionally, 
these specialists are responsible for on-site coordination of 
nationally prescribed humane slaughter procedures, verification of 
humane handling activities, good commercial practices and correlation 
(or assessing their knowledge) of information in directives, notices, 
and other information from headquarters through the district office to 
Public Health Veterinarians in the field.
    In fiscal year 2007 approximately 600 DVMS correlation visits 
occurred at slaughter plants. Correlation visits are used to make an 
assessment of a plant's humane handling activities and to determine 
FSIS personnel's knowledge and appropriate application of humane 
handling verification procedures.
    Question. Is it true, as the inspectors union has charged, that in-
plant staffing shortages are causing inspection officials to be pulled 
from ante-mortem and other inspection activities, including humane 
slaughter? Are the humane slaughter inspectors being used for other 
than this task in violation of our directive?
    Answer. In-plant staffing shortages are not causing inspection 
officials to be pulled from ante-mortem and other inspection 
activities.
    When FSIS received its final appropriation from Congress last year, 
an aggressive effort was already underway to hire a significant number 
of new inspectors. As of October 19, 2007, FSIS had hired more than 600 
new in-plant personnel and, as a result, achieved a net gain of 
approximately 160 in-plant personnel. On October 27, 2007, FSIS 
achieved a net gain of 194 in-plant personnel, surpassing the goal of 
184. By December 22, 2007, we had achieved a net gain of more than 220 
in-plant personnel, or food inspectors and consumer safety inspectors.
    HATS provides FSIS with an accurate and complete accounting of the 
time spent by FSIS inspection program personnel performing specific 
tasks and the results of that inspection related to humane handling and 
slaughter under the requirements of the Humane Methods of Slaughter 
Act.
    Question. Food safety and animal welfare advocates suggest that 
humane slaughter violations may be more systemic, occurring in many 
other plants, in part because plant workers know exactly when an 
inspector will visit live holding pens, and can ``clean up'' before 
they arrive. What is USDA doing to address this--either the charge or 
the fact that it's happening?
    Answer. The investigation being led by OIG with support from FSIS 
and AMS is ongoing. Once the investigation has concluded, we will have 
additional information that, along with the results of the additional 
verification activities, will determine the actions for FSIS oversight, 
inspection and enforcement that may be required. In the meantime, FSIS 
is conducting surveillance activities to observe the handling of 
animals outside the approved hours of operation from vantage points 
within and adjacent to the official premises. This is augmented by our 
audits and increased humane handling inspection activities.
    In 2007, FSIS reported that 66 ``actions to suspend'' were issued 
to federally inspected facilities--in effect closing them until a 
corrective action plan was approved. Twelve of these suspended 
facilities were suspended for egregious humane handling violations.
    Question. Were any of these facilities repeat offenders? If so, 
where would you draw the line and refuse to allow these facilities 
Federal inspection?
    Answer. Of the twelve facilities that were suspended in 2007, four 
had been suspended more than once: Nicholas Meats, Inc., suspended in 
2004 and 2007; Preferred Beef Group, suspended in 2006 and 2007; 
Cabrito Market, suspended twice in 2007; and H and P Meats, suspended 
in 2007 and 2008.
    Noncompliance by establishments is judged on a case-by-case basis. 
If a plant is repeatedly involved in enforcement action, FSIS would 
work with USDA's Office of the General Counsel to draft a complaint to 
withdraw inspection.
    Question. As you know, the Federal Nutrition Programs serve many of 
our Nation's most vulnerable populations--low income school children 
and the elderly. Did any of the suspended facilities supply meat to the 
Federal Nutrition Programs? If so, how many?
    Answer. Of the 12 facilities suspended for humane handling 
violations in 2007, none were contractors or subcontractors for AMS 
purchases.
    Question. Does USDA have sufficient authority to close a facility 
and assess civil penalties when sick or downed animals are found to 
have been processed?
    Answer. Yes. USDA has sufficient authority to enforce our 
regulations regarding non-ambulatory disabled livestock.
                                 ______
                                 

               Questions Submitted by Senator Ben Nelson

    Question. In your testimony, you state that Hallmark/Westland ``did 
not consistently involve the FSIS public health veterinarian in 
situations in which the cattle became non-ambulatory after passing 
ante-mortem inspection, as required by FSIS regulation.'' Can you 
quantify this or give us a better indication of how often this 
happened, how many non-ambulatory cattle were slaughtered or some other 
idea of the scope and magnitude and its direct relation to the recall?
    Answer. This evidence is part of the ongoing investigation.
    Question. Additionally, you mention in your testimony that 
``evidence demonstrates that the FSIS public health veterinarian was 
not consistently involved.'' Can you give us a better idea of what 
exactly this evidence is and how extensively it occurred and was 
documented?
    Answer. This evidence is part of the ongoing investigation.
    Question. Is there any evidence that any of the cattle depicted in 
The Humane Society's publicly-released video were slaughtered and/or 
entered the human food supply? Has USDA discovered any evidence at this 
point that any ``downer'' cattle were slaughtered and entered the food 
supply via Hallmark/Westland's operation?
    Answer. This evidence is part of the ongoing investigation.
    Question. You note that FSIS regulations require re-inspection by a 
public health veterinarian if a cow becomes non-ambulatory after 
passing ante-mortem inspection, but you also testify that Hallmark/
Westland did not consistently ``involve'' a public health veterinarian: 
does USDA have any indication as to why Hallmark/Westland failed to 
follow these procedures and how often they did?
    Answer. This evidence is part of the ongoing investigation.
    Question. Is it solely the responsibility of the plant being 
inspected to notify and request a public health veterinarian in this 
situation?
    Answer. Yes, it is the plant's responsibility to notify the FSIS 
Public Health Veterinarian when cattle become non-ambulatory after 
ante-mortem inspection.
    Question. When did this regulation go into affect and what was the 
reason for it?
    Answer. On July 12, 2007, FSIS announced a permanent prohibition on 
the non-ambulatory disabled or ``downer'' cattle from the food supply, 
except otherwise normal, healthy animals that become non-ambulatory 
after passing ante-mortem inspection. The rule, published in the July 
13, 2007, Federal Register, made permanent what had been an interim 
final rule from January 2004. The final rule became effective on 
October 1, 2007.
    In case an otherwise normal, healthy animal that has passed ante-
mortem inspection and that is on its way to the knock box suffers an 
acute injury (e.g., when an animal falls or when an animal has a leg 
that gets trapped and broken), the Public Health Veterinarian must 
verify that the animal suffered such an acute injury in order for the 
animal to proceed to slaughter and post-mortem inspection. However, to 
help better track the occurrence of such situations and the disposition 
of such animals, public health veterinarians are directed to tag these 
cattle as ``U.S. Suspect.''
    Question. Finally, has there been any review by the agency of the 
effectiveness of this system--in other words, do you have a sense of 
whether or not it is a good practice to rely on the plant to notify?
    Answer. The investigation led by OIG with support from FSIS and AMS 
is ongoing. However, we are not waiting for the completion of the 
investigation to act.
    FSIS has already taken a number of steps to strengthen our 
inspection system. As announced on February 28, 2008, FSIS has 
implemented a series of interim actions to verify and thoroughly 
analyze humane handling activities in all federally inspected 
establishments.
    Question. In your testimony, you refer to this recall as a 
``recall'' a ``voluntary recall'' and a suspension. What specifically 
is USDA's action on this matter and is it based primarily on food 
safety concerns or humane treatment of the cattle to be slaughtered?
    Answer. Certain cattle, while ambulatory when they pass ante-mortem 
inspection, may later become non-ambulatory from an acute injury or 
another circumstance. If such a situation occurs, FSIS regulations 
require the Public Health Veterinarian to inspect the animal again and 
determine that the animal did indeed suffer from an acute injury before 
the animal is permitted to go to slaughter. This failure by Hallmark/
Westland, based on the evidence from the ongoing investigation, led to 
the company's February 17, 2008, voluntary recall of 143 million pounds 
of fresh and frozen beef products produced at the establishment since 
February 1, 2006.
    While it is extremely unlikely that these meat products pose a risk 
to human health, the recall action was deemed necessary because the 
establishment did not comply with FSIS regulations. The recall was 
designated Class II because the probability is remote that the recalled 
beef products would cause adverse health effects if consumed. This 
recall designation is in contrast to a Class I recall, which is a 
higher-risk health hazard situation where there is a reasonable 
probability that the use of the product will cause serious, adverse 
health consequences or death.
    Question. You've mentioned that this matter has ``delayed'' 
negotiations with Japan and Korea; can you be more specific about how 
much damage this has done to the progress we have made and what you 
think it will take to repair the damage and get the negotiations back 
on track?
    Answer. USDA does not believe that negotiations to reopen our beef 
markets in Japan and Korea have been negatively impacted. While our 
negotiations with Korea were intensive, and sometimes difficult, we did 
ultimately come to an agreement that allows for U.S. beef imports into 
South Korea consistent with World Organization for Health (OIE) 
standards. We continue to be engaged with Japanese officials and we 
have indicated to them that we expect them to move quickly to resume 
beef trade consistent with the World Organization for Health (OIE) 
standards just as Korea, the Philippines, Indonesia, and Barbados have, 
all within the last several months.
    Question. What assurances are you able to give at this point to the 
Japanese and Koreans about the effectiveness of our food safety system 
and inspections?
    Answer. We have been providing extensive information about our food 
safety system to both Japan and Korea. As I have indicated, although 
the Hallmark/Westland incident was regrettable, it was categorized as a 
Class II recall, which means that there is a remote possibility of 
adverse health consequences. In addition to the information that has 
been provided on our BSE measures, we believe that Japan and Korea 
understand that there is no serious food safety issue associated with 
this recall.
    Question. Before issuing this recall, did you consult with your 
trade staff and with USTR about the implications for the Japan and 
Korea negotiations? Did you or anyone at USDA or at USTR reach out to 
Japan or Korea in advance of the recall?
    Answer. Once it became clear that a recall was appropriate, USDA 
focused on providing detailed information about our actions to the 
public and all interested parties.
    None of the recalled product was shipped to either Korea or Japan. 
USDA offices in Japan were fully informed of all actions and provided 
information upon request to Korean and Japanese officials.
    Question. What is the breakdown of personnel at FSIS both on a 
national level and on a plant-by-plant basis, such as how many public 
health veterinarians, line inspectors, other inspection or 
``frontline'' personnel and how many non-inspection or oversight 
personnel?
    Answer. FSIS program personnel form the backbone of FSIS' public 
health infrastructure in establishments, laboratories, and import 
houses throughout the country. In fiscal year 2007, the agency employed 
over 9,000 personnel, including 7,800 full-time in-plant and other 
front-line personnel protecting the public health in approximately 
6,200 federally-inspected establishments nationwide.
    FSIS assigns inspectors based on a plants current production rates 
and in accordance with the national method of assigning work, which was 
implemented in 2004. If production and processes change, the number of 
inspectors may also change. FSIS has collected in-plant personnel data 
by district, since plant-by-plant personnel numbers change daily, and 
some establishments do not operate on a daily basis. On-line positions 
at FSIS-inspected slaughter establishments are covered daily when the 
establishments operate and, as necessary, relief inspectors, inspectors 
hired on an intermittent basis, and in-plant off-line inspectors cover 
the on-line duties. We use other-than-permanent employees to fill 
positions when other employees are on sick leave, annual leave, or are 
in training, to make sure assignments are covered each day.
    Breakdowns of FSIS in-plant personnel by district as of March 1, 
2008, and a history of in-plant personnel by position from 2001 to 
2008, are attached for the record.
    Question. Aside from the investigations of this particular 
instance, what specific reviews or investigations are being undertaken 
within the agency to determine whether there are more systemic 
problems, where the problems are and what plans are being made to 
correct them? What timeframe are you looking at for being able to 
report back to Congress on your findings?
    Answer. The investigation being led by OIG with support from FSIS 
and AMS is ongoing. Once the investigation has concluded, we will have 
additional information that, along with the results of the additional 
verification activities, will determine the actions for FSIS oversight, 
inspection and enforcement that may be required.
    Question. What is the current vacancy rate at FSIS and what are you 
doing to get those positions filled, and what is the vacancy breakdown 
among the various positions (public health vets; line inspectors, etc.) 
in the food safety and export inspection system? Please provide a 
detailed breakdown of the vacancies.
    Answer. When FSIS received its final appropriation from Congress 
last year, including a budget increase of $27.4 million that we 
requested to reduce vacancy rates and meet increased demand for front-
line personnel, an aggressive effort was already underway to hire a 
significant number of new inspectors. On October 27, 2007, FSIS 
surpassed the goal of an additional 184 in-plant personnel, including 
food inspectors and consumer safety inspectors. As of February 16, 
2008, our vacancy rate in slaughter establishments was 4.25 percent, 
and our vacancy rate in processing plants amounted to 10.23 percent and 
our overall in-plant vacancy rate was 6.9 percent.
    Attached is a detailed breakdown of vacancy rates among on-line 
inspectors (public health veterinarians and field inspectors) and off-
line inspectors (consumer safety inspectors) by district, as of 
February 16, 2008.
    Question. In a world of budgetary problems where we all may have to 
tighten our belts some, have you begun looking at ways to better 
allocate limited USDA resources to make sure that the frontline 
positions are funded and filled?
    Answer. Our employees are our greatest asset. We are only as strong 
as that committed workforce. Just as they are committed to keeping the 
Nation's food supply safe, we are committed to them. When FSIS received 
its final appropriation from Congress last year, an aggressive effort 
was already underway to hire a significant number of new inspectors. As 
of October 19, 2007, FSIS had hired more than 600 new in-plant 
personnel and, as a result, achieved a net gain of approximately 160 
in-plant personnel. On October 27, 2007, FSIS achieved a net gain of 
194 in-plant personnel, surpassing the goal of 184. By December 22, 
2007, we had achieved a net gain of more than 220 in-plant personnel, 
or food inspectors, and consumer safety inspectors.
    FSIS has employed the aggressive use of existing and new staffing 
authorities to fill mission-critical positions, especially for in-plant 
and other frontline positions, where 85 percent of FSIS employees are 
located. A comprehensive human capital strategy was developed to 
improve hiring and retention efforts, to better match resources to 
needs, and to develop new skills sets needed by the workforce. As a 
testament to those efforts, the agency received a Presidential Quality 
Award for Management Excellence for its dedication, hard work, and 
outstanding leadership in advancing the President's Management Agenda 
through the strategic management of human capital. FSIS received one of 
six awards given to Federal agencies for excellence in quality and 
productivity.
    Question. It appears that in fiscal year 2008, Congress fully 
funded the Administration's request for FSIS and that in the 2 previous 
fiscal years Congress actually provided more funding than requested. 
Are these funding levels sufficient to meet the needs on the ground?
    Answer. Yes, the funds are sufficient to meet FSIS' staffing needs.
    Question. Looking over the past 4-5 fiscal years, has the agency 
reviewed its allocation of funding detailing how much money is spent 
for on-the-ground inspectors versus how much is spent on national-level 
or non-inspection positions? Can you please provide a breakdown of this 
spending information?
    Answer. For fiscal year 2008, 80 percent of FSIS' total salaries 
and benefits went to the agency's Office of Field Operations for 
inspection program personnel and other front-line personnel. Attached 
is a detailed breakdown of the spending on salaries and benefits for 
in-plant and non-in-plant personnel for fiscal year 2003 through fiscal 
year 2007.
                                 ______
                                 

            Questions Submitted by Senator Robert F. Bennett

    Question. Secretary Schafer, this is obviously an emotional issue 
for many people. The treatment of the livestock at this facility is 
shocking and people are very concerned that the Hallmark/Westland 
company was a major supplier of beef to the National School Lunch 
Program. In addition, many people wonder how it is possible that downer 
cattle made it past Food Safety and Inspection Service inspectors and 
into the food supply.
    It has been suggested that we enhance USDA inspection and increase 
oversight of humane handling at slaughter facilities, perhaps by 
enacting new legislation or more effectively targeting resources. If 
changes are made to the current USDA inspection processes or humane 
handling rules, what would you consider changing and why?
    Answer. The investigation being led by OIG with support from FSIS 
and AMS is ongoing. Once the investigation has concluded, we will have 
additional information that, along with the results of the additional 
verification activities, will determine the actions for FSIS oversight, 
inspection and enforcement that may be required.
    The recall was initiated because it became apparent to the Food 
Safety and Inspection Service (FSIS) that Hallmark/Westland was 
occasionally slaughtering cattle that went down after FSIS inspectors 
had conducted ante-mortem inspection and cleared them for slaughter. 
The company slaughtered these downer cattle without notifying an FSIS 
veterinarian which is a clear violation of FSIS rules.
    Question. Please explain the ante-mortem inspection requirements.
    Answer. The inspection process begins with an establishment's 
notification to FSIS that they want animals inspected prior to 
slaughter. Inspection at a slaughter establishment begins in the ante 
mortem area or pen where FSIS inspection program personnel inspect live 
animals before moving to slaughter. It is the establishment's 
responsibility to follow the Humane Methods of Slaughter Act. Egregious 
violations to humane handling requirements can lead to suspension of 
inspection within an establishment. This will stop the plant from 
operating.
    During this inspection, FSIS inspection program personnel observe 
all animals at rest and in motion. Inspection program personnel are 
trained to look for abnormalities and signs that could indicate disease 
or health conditions that would prohibit the animal from entering the 
food supply. If an animal goes down or shows signs of illness after 
receiving and passing ante mortem inspection before slaughter, the 
establishment must immediately notify the FSIS veterinarian to re-
inspect the animal and make a case-by-case disposition of the animal's 
condition. Alternatively, the establishment may humanely euthanize the 
animal. Re-inspected animals allowed to continue to slaughter are 
labeled as ``U.S. Suspect'' and are segregated until the animal has 
received additional inspection by an FSIS veterinarian.
    FSIS public health veterinarians and other inspection personnel are 
not stationed in the ante-mortem area for the entire day. They do 
return randomly to verify humane handling, as well as the stunning and 
bleeding process. Other inspection activities are also conducted off-
line inside the slaughter facility when ante mortem inspections have 
been completed. These off-line FSIS inspection program personnel move 
through the different areas of the establishment while performing their 
duties. This gives them the ability to vary their assigned off line 
inspections.
    Question. How long after ante-mortem inspection must an animal be 
slaughtered? If there is no time requirement, is there an average or 
typical time delay between ante-mortem inspection and slaughter?
    Answer. FSIS Notice 16-08 requires that an animal be slaughtered on 
the same day that it receives ante-mortem inspection. The Notice 
states, ``Generally, inspection personnel should not pass for slaughter 
more animals then can be slaughtered in approximately 4 hours.''
    Question. Please explain how an FSIS inspector could miss the 
activities that took place at the Hallmark/Westland facility.
    Answer. FSIS public health veterinarians and other inspection 
personnel are not stationed in the ante-mortem area for the entire day. 
They return randomly to verify humane handling, as well as the stunning 
and bleeding process. Other inspection activities are also conducted 
off-line inside the slaughter facility when ante mortem inspections 
have been completed. These off-line FSIS inspection program personnel 
move through the different areas of the establishment while performing 
their duties. This gives them the ability to vary their assigned off 
line inspections.
    Evidence from the ongoing investigation demonstrates that, over the 
past 2 years, this plant did not always notify the Food Safety and 
Inspection Service (FSIS) public health veterinarian when cattle became 
non-ambulatory after passing ante-mortem (prior to slaughter) 
inspection, as is required by FSIS regulations. This evidence is part 
of the ongoing investigation.
    The Hallmark/Westland facility was the second largest supplier of 
beef to the National School Lunch Program in 2007. Under AMS contracts, 
meat destined for Federal nutrition assistance programs undergoes 
additional inspection, above and beyond food not destined for the 
School Lunch Program.
    Question. Please explain the additional steps taken by USDA to 
ensure the quality and safety of the meat product purchased for the 
School Lunch Program.
    Answer. All meat and meat products purchased for Federal food and 
nutrition assistance programs must be produced in a facility operating 
under FSIS inspection. AMS, like other large-volume buyers of high 
quality products, imposes additional requirements in accordance with 
the Federal Acquisition Regulation to ensure products are produced in 
accordance with best industry practices and meet the needs of the end-
user. To establish the specification and contractual requirements, AMS 
used the best science available and benchmarked against other high 
quality purchasers. The requirements for ground beef include full 
trace-back capability; pathogen intervention at slaughter; statistical 
process control evaluation for pathogens, indicator microbes, and fat 
content; strict temperature and processing controls; and, tamper-proof 
packing. Each contractor is required to provide a detailed technical 
document that describes how each specification requirement will be met. 
Contractors are subject to routine audits and an AMS employee is 
present when the product is processed.
    Question. Why does the Department require additional measures for 
Federal food assistance programs above those for the regular food 
supply?
    Answer. AMS, like other large-volume buyers of high quality 
products, imposes additional requirements in accordance with the 
Federal Acquisition Regulation.
    Question. Of the 143 million pounds of beef that has been recalled, 
50.3 million pounds went into Federal food assistance programs. USDA 
and State agencies are currently in the process of locating and 
destroying this meat. Please explain where you are in this process.
    Answer. We have accounted for all of the 50.3 million pounds of 
ground beef items subject to the recall. Approximately 33 million 
pounds were served prior to the recall and 18.4 million pounds are on 
hold awaiting destruction or have been destroyed.
    Question. How much of the meat recalled from Federal food 
assistance has been consumed, how much is being held, and how much is 
still being located? Why is some of the meat still being traced?
    Answer. We have accounted for all of the 50.3 million pounds of 
ground beef items subject to the recall. Approximately 33 million 
pounds were served prior to the recall and 18.4 million pounds are on 
hold awaiting destruction or have been destroyed. Therefore, none of 
the meat is still being traced.
    Question. For the recalled product that went into the School Lunch 
Program, are State agencies or schools responsible for any costs 
associated with destroying the meat, and will they be responsible for 
any additional costs associated with replacing product as a result of 
the recall?
    Answer. USDA is in the process of replacing recalled ground beef 
items that the Department provided that are or will be destroyed due to 
the recall. Additionally, States may opt for entitlement credits if 
they do not want the replacement ground beef this school year. With 
regard to the cost of destruction, States will be reimbursed by USDA 
for costs associated with the removal and destruction of recalled 
products in accordance with established procedures.
    Question. How much do you expect this recall to cost USDA? Can USDA 
recover any costs from Hallmark/Westland?
    Answer. At this time, we are still compiling the costs related to 
the recall and precise figures are not available. We will file, in the 
near future, a warranty claim with Hallmark/Westland under the terms of 
the contract for recovery of damages to USDA.
    Question. As a result of this recall is there a shortage of meat 
for Federal food assistance programs? If so, what is the Department 
doing to counter this shortage?
    Answer. No. AMS and FNS have worked closely with States to ensure 
that all local food service authorities have sufficient ground beef 
products to conduct their food and nutrition assistance programs. Since 
January 30, 2008, AMS has purchased over 26 million pounds of ground 
beef items at a cost of approximately $39.9 million for replacement and 
scheduled purchases.

                         CONCLUSION OF HEARING

    Senator Kohl. Thank you all for coming.
    Senator Craig. Thank you, all.
    [Whereupon, at 4:06 p.m., Thursday, February 29, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
